          U.S. Department of the Interior
          Office of Inspector General
1997
OCTOBER




Semiannual Report
                             MESSAGE FROM THE
                             INSPECTOR GENERAL

When I became the Inspector General              program personnel to indicia of fraud
approximately 2 1/2 years ago, one of            and to enlist their support and assistance
my goals was to introduce an element of          in the fight against fraud. The already
“proactivity” into our traditionally             increasing referrals to the Office of
reactive approach to the performance of          Inspector General (OIG) demonstrate
our mission. An organization such as             that the “shared commitment” that we
ours, whose statutory mission includes           seek to foster within the Department will
not only detection but also prevention of        prove to be a powerful force in helping
fraud, waste, and abuse, and which is            to improve program operations at the
also charged with promoting economy,             Department of the Interior.
efficiency, and effectiveness in
Government operations, cannot, in my             Similarly, our Affirmative Civil
view, simply sit and wait for things to          Enforcement (ACE) program, in which
happen and react to those things, but            civil actions are used as an adjunct to
must take affirmative steps to make              criminal enforcement, has resulted in
things happen. Therein, I believe, lies          several new proactive initiatives,
the essence of being an agent of, or a           including in the areas of underpayment
catalyst for, positive change.                   of royalties, coal reclamation fees, Outer
                                                 Continental Shelf Lands Act violations,
I am pleased to report that several              the Government purchase card program,
accomplishments from this new era of             and workers’ compensation fraud. These
“proactivity” now exist. For example,            initiatives already have started to bear
our “Fraud Awareness” outreach                   fruit in the form of civil recoveries. We
presentations have reached several               believe that continued law enforcement
thousand Department of the Interior              in these areas will also have an important
employees and have earned the                    deterrent effect.
distinction of being requested by
individual bureaus and offices within the        On the audit side, our proactive efforts
Department from one coast of the United          are continuing to blossom with tangible
States to the other. These presentations,        benefits to the Department and insular
which focus on letting Department                area governments. These activities are
employees know who we are and what               beginning to cover a broader scope of
we are about, have helped to sensitize           operations, as we are asked with


           Semiannual Report to the Congress: April 1, 1997 - September 30, 1997              i
beginning to cover a broader scope of          Our proactive activities in both the audit
operations, as we are asked with               and investigative areas demonstrate that
increasing frequency to lend our               we are indeed attempting, with notable
expertise in a variety of areas. From          success, to make positive things happen
financial accounting and management, to        within the Department of the Interior.
pilot programs, to Government                  We are committed to continuing our
reinvention and task force efforts, the           efforts, through both our proactive and
OIG’s presence is clearly being sought         other activities, to contribute to the
and felt. Our newly established                improvement of Government operations.
Evaluations and Special Projects unit
will provide added capability and
flexibility to address these types of
proactive and other activities.




ii         Semiannual Report to the Congress: April 1,1997 - September 30,1997
                                                                                   CONTENTS

                                                                                                                                                                             Page
Statistical Highlights . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . v
Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
  Department Profile . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
  OIG Organization . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Audit Activity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Investigative Matters . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Legislative Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Significant Audits and Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
  Financial Statement Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
  Bureau of Indian Affairs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
  Bureau of Land Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
  Bureau of Reclamation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
  Insular Areas . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
  Minerals Management Service . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
  Multi-Office . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
  National Biological Service . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
  National Park Service . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
  Office of the Secretary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
  Office of the Special Trustee for American Indians . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
  Office of Surface Mining Reclamation and Enforcement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
  U.S. Fish and Wildlife Service . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
  U.S. Geological Survey . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

Appendices
1 - Summary of Audit Activities From April 1, 1997, Through September 30, 1997 . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                29
2 - Audit Reports Issued or Processed and Indirect Cost Proposals Negotiated
    During the 6-Month Period Ended September 30, 1997 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                  30
    - Internal Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   30
    - Contract and Grant Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           32
    - Single Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   34
    - Indirect Cost Proposals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         49
3 - Monetary Impact of Audit Activities From April 1, 1997, Through September 30, 1997 . . . . . . . . . . . . . . . . . . . . .                                                    58
4 - Non-Federal Funding Included in Monetary Impact of Audit Activities
    During the 6-Month Period Ended September 30, 1997 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                59
5 - Audit Resolution Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           60
    - Table I - Inspector General Audit Reports With Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                     60
    - Table II - Inspector General Audit Reports With Recommendations That
      Funds Be Put To Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              61
    - Table III - Inspector General Audit Reports With Lost or Potential Additional Revenues . . . . . . . . . . . . . . . . . . .                                                  62
6 - Summary of Audit Reports Over 6 Months Old Pending Management Decisions . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                   63
    - Internal Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   63
    - Contract and Grant Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           65
    - Single Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   66
7 - Summary of Internal Audit Reports Over 6 Months Old Pending Corrective Action . . . . . . . . . . . . . . . . . . . . . . . .                                                   69
8 - Statutory and Administrative Responsibilities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     73
9 - Cross-References to the Inspector General Act . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       75


                        Semiannual Report to the Congress: April 1, 1997 - September 30, 1997                                                                                       iii
                                              STATISTICAL HIGHLIGHTS


Audit Activities
 Audit Reports Issued or Processed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 441
  - Internal Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35
  - Contract and Grant Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
  - Single Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 383
 Indirect Cost Proposals Negotiated . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 179

Impact of Audit Activities - (Dollar Amounts in Millions)
  Total Monetary Impact . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $27.9
   - Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $4.0
   - Recommendations That Funds Be Put To Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $23.4
   - Lost or Potential Additional Revenues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $.5
  Internal Audit Recommendations Made . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 146
  Internal Audit Recommendations Resolved . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41

Investigative Activities
 Total Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 117
 Cases Closed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 141
 Cases Opened . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 55
 Cases Pending . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 443
 Hotline Complaints Received . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 66
 Hotline Complaint Matters Opened . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0
 Hotline Complaint Matters Closed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
 Hotline Complaint Matters Pending . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 66
 General Information Matters Received . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 150

Impact of Investigative Activities
  Indictments/Informations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
  Convictions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
  Sentencings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
   - Jail . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 77 months
   - Probation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 974 months
   - Community Service . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1740 hours
   - Criminal Judgments/Restitutions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $282, 247
  Cases Pending Prosecutive Action as of April 1, 1997 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 148
  Cases Referred for Prosecution This Period . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
  Cases Declined . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
  Cases Pending Prosecutive Action as of September 30, 1997 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 132
  Administrative Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
  Civil Referrals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
  Civil Declinations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0
  Civil Judgments (3) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $314,451
  Cases Pending Civil Action as of September 30, 1997 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41




                      Semiannual Report to the Congress: April 1, 1997 - September 30, 1997                                                                                         v
Administrative Actions Taken by Bureaus
     Matters Referred for Administrative Action . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 56
     Removals/Resignations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
     Employee Suspensions (Totaling 16 days) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
     Downgrades . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
     Reprimands/Counseling . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
     Reassignments/Transfers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
     Other Personnel Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
     Restitutions (Totaling $5, 221) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
     General Policy Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
     Contractor Debarments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4




vi                       Semiannual Report to the Congress: April 1, 1997 - September 30, 1997
                                      INTRODUCTION


Department Profile
                                                   Conservation, development, and utilization
T    he Congress created the Department of
     the Interior (DOI) on March 3, 1849, to
manage the Nation’s internal affairs. As the
                                                   of fish and wildlife resources;

Nation’s principal conservation agency, DOI        Management of Federal recreation
has responsibility for most of our nationally      programs;
owned public lands and natural resources.          Preservation and administration of the
This includes fostering the use of our land        Nation’s scenic and historic areas;
and water resources; protecting our fish,
wildlife, and biological diversity; preserving     Operation of Job Corps Conservation
the environmental and cultural values of our       Centers and Youth Conservation Corps
national parks and historic places; and            Camps and coordination of other manpower
providing for the enjoyment of life through        and youth training programs;
outdoor recreation. DOI assesses our
mineral resources and works to ensure that         Reclamation of arid lands in the West
                                                   through irrigation; and
their development is in the best interests of
all our people by encouraging stewardship          Management of hydroelectric power
and citizen participation in the care of these     systems.
resources.
                                                   DOI is also concerned with the social and
DOI has about 70,000 employees, spends             economic development of the insular areas
about $9 billion a year, collects revenues         and administers programs providing services
of about $6 billion a year, and is                 to Indians and Alaska Natives.
geographically dispersed to over 2,000
locations. The jurisdiction of DOI includes:

Administration of over 500 million acres of
Federal land and trust responsibilities for
approximately 50 million acres of land,
mostly Indian reservations;

Conservation and development of mineral
and water resources;




             Semiannual Report to the Congress: April 1, 1997 - September 30, 1997              1
OIG Organization

T    o cover DOI’s many and varied
     activities, the Office of Inspector
General (OIG) has a budget of $24 million
                                                   In addition to the Inspector General’s
                                                   requirement for semiannual reporting to the
                                                   Secretary of the Interior and the Congress in
and has 251 full-time employees. Employees         accordance with the Inspector General Act
are under the direction of the Assistant           of 1978 (Public Law 95-452), as amended,
Inspectors General for Audits,                     OIG’s mission encompasses a wide array of
Investigations, and Management and Policy          statutory and administrative audit and
and are assigned to the headquarters office in     investigative responsibilities. These
Washington, D.C., and field offices in:            responsibilities include OIG’s review of
                                                   various programs and activities within DOI
Agana, Guam; Rapid City, South Dakota;             in accordance with numerous public laws,
Albuquerque, New Mexico; Sacramento,               Office of Management and Budget (OMB)
California; Arlington, Virginia; St. Paul,         circulars, and criminal and civil investigative
Minnesota; Billings, Montana; St. Thomas,          authorities (see Appendix 8). The
U.S. Virgin Islands; Lakewood, Colorado;           semiannual reporting requirements of the
Tulsa, Oklahoma; and Phoenix, Arizona.             Inspector General Act are cross-referenced
                                                   to applicable portions of this report in
OIG provides policy direction for and              Appendix 9.
conducts, supervises, and coordinates
audits, investigations, and other activities in    In the insular areas of Guam, American
DOI to promote economy, efficiency, and            Samoa, the U.S. Virgin Islands, and the
effectiveness and to prevent and detect            Commonwealth of the Northern Mariana
fraud, waste, abuse, and mismanagement.            Islands, OIG is responsible for
The Inspector General is DOI’s focal point         “establishing an organization which will
for independent and objective reviews of the       maintain a satisfactory level of independent
integrity of DOI operations and is the central     audit oversight” for these insular areas, in
authority concerned with the quality,              accordance with the Insular Areas Act of
coverage, and coordination of the audit and        1982 (48 U.S.C. 1422). OIG has additional
investigative services between DOI and other       audit responsibilities in the Federated States
Federal, state, and local governmental             of Micronesia, the Republic of the Marshall
agencies. The Inspector General reports            Islands, and the Republic of Palau pursuant
directly to the Secretary of the Interior on       to the Compact of Free Association Act of
these matters and is required to keep the          1985 (Public Law 99-239). OIG’s
Secretary and the Congress fully and               organizational chart is included on the
currently informed about problems and              following page.
deficiencies relating to the administration of
DOI programs and operations and the
necessity for corrective actions.




2            Semiannual Report to the Congress: April 1, 1997 - September 30, 1997
                                                  U.S. DEPARTMENT OF THE INTERIOR
                                                              OFFICE OF INSPECTOR GENERAL



                                                                           INSPECTOR GENERAL
                      Executive Staff Assistant




                                                                             CHIEF OF STAFF AND
                                                                             GENERAL COUNSEL




                              ASSISTANT                                          ASSISTANT                                        ASSISTANT
                         INSPECTOR GENERAL                                  INSPECTOR GENERAL                                INSPECTOR GENERAL
                             FOR AUDITS                                      FOR MANAGEMENT                                  FOR INVESTIGATIONS
                                                                                AND POLICY



                             Deputy Assistant                         Division of
  Evaluations
                                                                     Information                 Division of Human                      Deputy Assistant
      and                   Inspector General                                                                                          Inspector General
                                                                      Resources                       Resources
Special Projects              for Audits                                                                                                for Investigations
                                                                     Management




            Eastern                Central                  Western                                                         Eastern                     Western
         Regional Office       Regional Offices          Regional Office                                                    Division                    Division
                                Lakewood, CO
         Arlington, VA        Albuquerque, NM            Sacramento, CA                                                   Arlington, VA              Lakewood, CO


                                                                                                         Division of
                     North Pacific            Caribbean                      Resource Advisory          Acquisition and
                    Regional Office         Regional Office                        Team                  Management
                                                                                                          Operations
                     Agana, Guam              St. Thomas,
                                             Virgin Islands
                                      AUDIT ACTIVITY


Summary of Audit                                   Inspector General Establishes
                                                   Evaluations and Special Projects
Results                                            Unit


O      IG auditors issued or processed 441
       audit reports during the 6-month period
ended September 30, 1997. Appendix 1
                                                   T    he Inspector General Act, as amended,
                                                        requires the Inspector General to
                                                   establish audit and investigation
summarizes audit activities, and Appendix 2        organizations and authorizes the Inspector
lists the audit reports issued or processed        General “to make such investigations and
and the 179 indirect cost proposals                reports relating to the administration of the
negotiated. Monetary findings in the audit         programs and operations of the applicable
reports and indirect cost proposals totaled        establishment as are, in the judgement of the
$27.9 million, which was composed of               Inspector General, necessary or desirable.”
questioned costs, funds to be put to better        Consistent with this authority, during this
use, and lost or potential additional revenues,    semiannual reporting period, OIG established
as summarized in Appendix 3. Appendix 4            an Evaluations and Special Projects (ESP)
identifies the non-Federal funds (from audits      unit within the Office of the Assistant
of insular area governments) included in the       Inspector General for Audits. The ESP unit
monetary impact of audit activities. During        will assist in meeting OIG mission and
this 6-month period, OIG resolved $107.1           strategic objectives by providing proactive
million of monetary findings from prior and        independent and objective evaluations of the
current reporting periods. Appendix 5              economy, efficiency, and effectiveness of the
provides summary information on the                programs and operations of DOI. The
resolution of the monetary impact, Appendix        President’s Council on Integrity and
6 provides a listing of audit reports over 6       Efficency’s “Quality Standards for
months old pending management decisions            Inspections” defines an inspection
on recommendations and/or monetary                 (evaluation) as “a process, other than an
impact, and Appendix 7 provides a summary          audit or an investigation, that is aimed at
of resolved internal audits over 6 months old      evaluating, reviewing, studying, and/or
pending final action by management                 analyzing the programs and activities of a
(implementation) on recommendations and            Department or Agency for the purpose of
on monetary impacts.                               providing information to managers for
                                                   decision making, for making




4            Semiannual Report to the Congress: April 1, 1997 - September 30, 1997
recommendations for improvements to
programs, policies or procedures, and for
administrative action.”

The ESP unit will also provide increased
capability and flexibility for OIG to provide
more timely coverage of unplanned requests
for OIG assistance, of which we receive
several during any given year. Furthermore,
the establishment of the ESP unit is
consistent with a number of Office of
Inspectors General at cabinet-level
departments and agencies that already have
such a unit, as well as the National
Performance Review’s suggestion that the
focus of Inspectors General should be
broadened to include evaluating and
improving management control systems to
prevent fraud, waste, abuse, and
mismanagement.




             Semiannual Report to the Congress: April 1, 1997 - September 30, 1997   5
                           INVESTIGATIVE MATTERS

                                                   Environmental Initiative
D     uring the past 6 months, the Office of
      Investigations has conducted
investigations that have resulted in 20
indictments/informations, 23 convictions,
and financial recoveries of $282,247 in
                                                   W       e have been participating in an
                                                           Environmental Crimes Working
                                                   Group formed by the Attorney General’s
criminal judgments/restitutions and $314,451       Office of the State of Oklahoma, which has
in civil judgments.                                conducted inspections of oil production sites
                                                   in various counties in Oklahoma. In addition
Update on Proactive                                to OIG, other members of this working
                                                   group include the Federal Bureau of
Initiatives                                        Investigation (FBI), the U.S. Environmental
                                                   Protection Agency’s OIG, the Defense
                                                   Criminal Investigative Service, U.S. Fish and
I  n our last Semiannual Report, we reported
   that OIG was pursuing a series of
proactive initiatives in several areas,
                                                   Wildlife Service (FWS) and Bureau of Land
                                                   Management (BLM) law enforcement, and
including the underpayment of coal                 cognizant State of Oklahoma agencies. The
reclamation fees, Government purchase card         inspections, organized by FWS, involved the
fraud, and workers’ compensation fraud.            physical inspection of oil sites to identify
During the 6-month period ended                    possible violations of the Migratory Bird
September 30, 1997, these initiatives began        Treaty Act and other environmental laws.
to show results in terms of successful             The inspections identified 291 oil production
prosecutions in these areas. (Details are          sites that had problems ranging from
presented in this report.)                         improperly maintained sites to sites where
                                                   actual violations of environmental laws had
We continue to pursue proactive initiatives        occurred.
designed to further our fraud awareness,
prevention, detection, and suppression
efforts. Examples of these initiatives are as
follows:




6            Semiannual Report to the Congress: April 1, 1997 - September 30, 1997
Joint Initiatives With DOI                        created by the Congress and funded in part
Agencies To Achieve Savings                       by DOI. The audit information was referred
                                                  for investigative review. The resultant OIG
in DOI Programs
                                                  investigation determined that the individual
                                                  had received dual compensation. The matter
A     n OIG investigation determined that a
      $1.95 million economic development
loan to a company to assist a Midwestern
                                                  was referred to the Department of Justice,
                                                  and, in a resultant civil settlement agreement,
                                                  the former employee agreed to make
Indian tribe was fraudulent. The Bureau of
                                                  restitution of $10,701.14 to the Government.
Indian Affairs (BIA) had guaranteed 90
percent of the loan amount, or $1,755,000.
As a result of the OIG investigation, BIA
learned that the funds had been used to pay
unrelated debts of the company and that the
loan had been obtained by fraudulent means.
Therefore, BIA refused to honor the loan
guarantee made to the lender, which resulted
in a savings of $1,755,000 to the BIA Loan
Guarantee Program.

Joint Audits-Investigative Initiatives


T   he Office of Investigations continues to
    work closely with OIG Audits staff to
ensure the financial integrity of DOI
programs. An OIG audit survey of a quasi-
governmental agency revealed that an official
appointed to the organization was also a
Federal employee and that the former
employee may have received dual
compensation for part of calendar year 1994
before resigning from Federal employment.
Such dual compensation is prohibited by law.
The quasi-governmental agency was




            Semiannual Report to the Congress: April 1, 1997 - September 30, 1997              7
                               LEGISLATIVE REVIEW


D     uring this reporting period, OIG
      reviewed several hundred legislative
items and, where appropriate, provided
                                                  problems connected with year-end spending,
                                                  allow for better decision making when funds
                                                  are tight, and provide more flexibility for an
comments. OIG performed two reviews to            agency to meet special funding needs.
monitor legislative proposals and evaluate        Finally, OIG noted that the Act would
their potential for promoting economy and         eliminate some of the uncertainty, such as
efficiency and preventing fraud, waste, and       agency shutdowns, which can occur during
mismanagement in the programs and                 the annual appropriations process.
operations of DOI, as required by Section
4(a)(2) of the Inspector General Act of           OIG also provided comments on Department
1978, as amended.                                 of Justice Draft Bill # 9, the Internet Gaming
                                                  Act. OIG pointed out that the definition of
OIG provided comments on S 261, the               “State” contained in the proposed Bill did
Biennial Budgeting and Appropriations Act.        not include Federally recognized Indian
The purpose of the proposed Act was to            tribes. Thus, the proposed legislation was
provide for a biennial budget process and a       silent as to whether Indian tribal gaming
biennial appropriations process. OIG              needs to be identified as a state or other
supported passage of the Act, noting that the     entity.
Act would enable agencies to engage in more
effective and efficient financial management
and planning. OIG commented that a
biennial cycle would avoid the




8           Semiannual Report to the Congress: April 1, 1997 - September 30, 1997
                            SIGNIFICANT AUDITS AND
                                INVESTIGATIONS


Financial Statement                                 bad debt expense) at BIA, two accounts
                                                    (property, plant, and equipment and
Audits                                              construction in progress) at the National
                                                    Park Service (NPS), and one account
                                                    (construction in progress) at FWS. In
Department of the Interior                          addition, we found weaknesses in the internal
Consolidated Principal Financial                    controls at the administrative service centers
Statement Audits for Fiscal Years                   operated by the U.S. Geological Survey
1995 and 1996                                       (USGS) and the Bureau of Reclamation
                                                    (BOR) and at BIA’s Operations Service

W       e concluded that DOI’s consolidated
        principal financial statements for fiscal
years 1995 and 1996 were presented fairly
                                                    Center. Finally, DOI’s 11 operating entities
                                                    have complied in all material respects with
                                                    applicable laws and regulations except that
except that BIA did not provide adequate             the title to the completed portions of the
documentation or reliable accounting                Navajo Indian Irrigation Project, which cost
information to support, for fiscal year 1996,       $334 million, had not been transferred to
the amounts of $170 million for other               BIA from BOR. This transfer was to have
structures and facilities, $17 million in           been made pursuant to the agreement made
accounts receivable, $136 million of                by these bureaus under Public Law 87-483,
revenues, and $19 million of bad debt               which authorized the construction of the
expense. Also, for fiscal year 1995, BIA did        project. Since our reports on the individual
not provide adequate documentation or               bureaus’ financial statements and the
reliable accounting information to support          administrative service centers include
amounts for four accounts ($3.5 billion for         recommendations to correct the reported
property, plant, and equipment;                     deficiencies, we did not make any additional
$12 million in accounts receivable;                 recommendations to DOI in our report on
$14 million in deferred revenue; and                the consolidated financial statements.
$175 million in revenues). Furthermore, we
found that the internal accounting control
structure of DOI’s 11 operating entities
meets the established internal control
objectives except for the controls relating to
four accounts (property, plant, and
equipment; accounts receivable; revenue; and



             Semiannual Report to the Congress: April 1, 1997 - September 30, 1997              9
Bureau Financial Statement Audits                  Financial System at BOR’s Administrative
                                                   Service Center. Furthermore, BOR had not
                                                   transferred title to BIA for the Navajo Indian
D     uring this semiannual period, OIG
      issued audit reports on the financial
statements of 5 of DOI’s 10 bureaus and
                                                   Irrigation Project, as required by provisions
                                                   of a 1962 law (Public Law 87-483) that
offices. We expressed a qualified opinion on       authorized the construction of the project.
BIA’s financial statements for fiscal year         These conditions were considered to be
1996 and unqualified opinions on the fiscal        reportable weaknesses in BOR’s internal
year 1996 financial statements of BOR,             control structure and its compliance with
FWS, NPS, and USGS. These financial                laws and regulations.
statement audits are required by the Chief
Financial Officers Act of 1990.                            - FWS had not fully implemented
                                                   recommendations to improve internal
A qualified opinion was expressed on BIA’s         controls over its accounting for buildings,
financial statements because BIA did not           structures, and construction-in-progress
provide adequate documentation or reliable         accounts. This condition was considered to
accounting information to support the              be a reportable weakness in the internal
balances reported in the fiscal year 1996          control structure that needed to be
financial statements for other structures and      corrected.
facilities, accounts receivable, revenue, and
bad debt expense and the effect that these                  - NPS internal controls were not
accounts had on the net position. We believe       sufficient to provide reasonable assurance
that these deficiencies occurred because BIA       that: (1) the property and equipment
had not implemented the recommendations            subsidiary ledgers will be maintained in
related to these areas in our prior report.        agreement with the related general ledger
                                                   control account; (2) delinquent accounts
Although OIG was able to issue unqualified         receivable will be collected in a timely
opinions on the financial statements of BOR,       manner; (3) completed projects in the
FWS, NPS, and USGS, we reported internal           construction-in-progress account will be
control deficiencies for each bureau and           timely and appropriately transferred to the
reported an instance of noncompliance with         buildings and the other structures and
selected provisions of laws and regulations at     facilities accounts; and (4) effective and
BOR. Specifically:                                 periodic financial information integrity
                                                   reviews will be made of the financial
        - BOR internal controls were not           information contained in the general ledger
sufficient to provide reasonable assurance         control accounts and in their related
that: (1) costs were fully recovered in its        subsidiary ledgers, listings, and
working capital fund and (2) amounts               reconciliations. In addition, NPS had not
reported in its general ledger were                established an adequate process to allow it to
supported by subsidiary records. We also           obtain, in a timely manner, reliable
found that system integrity weaknesses             information on the number and the balances
existed in the general controls of the Federal     of the “special concession accounts” or on



10           Semiannual Report to the Congress: April 1, 1997 - September 30, 1997
the financial activities in these accounts.
These conditions were considered to be
                                                   Bureau of Indian
reportable weaknesses in NPS’s internal
control structure that needed to be
                                                   Affairs
corrected.
                                                   General Controls Over Automated
        - USGS internal controls were not          Information Systems Needed
sufficient to provide reasonable assurance         Improvement
that: (1) the amounts reported in the general
ledger accounts Advances From Others
(incorporated into the account Deferred
Revenue in the financial statements),
                                                   B     IA’s general controls over its
                                                         automated information systems at the
                                                   Operations Service Center were not fully
Accounts Receivable Unbilled, and Accounts         effective. Specifically, an effective security
Payable were properly supported by                 program had not been implemented; controls
subsidiary ledgers; (2) costs related to           over access, software development and
Federal-state cooperative projects were            changes, segregation of duties, and system
reported accurately and in accordance with         software were inadequate; and a service
applicable agreements; (3) delinquent              continuity plan had not been developed and
accounts receivable were collected in a            implemented. These deficiencies occurred
timely manner; (4) monies were disbursed           because BIA had not complied with the
from the investment plan, a component unit         criteria in OMB Circular A-130,
of the working capital fund, in accordance         “Management of Federal Information
with established policies; and (5) Biological      Systems,” and National Institute of
Resources Division property was accounted          Standards and Technology Federal
for and reported correctly. These conditions       Information Processing Standards
were considered to be reportable weaknesses        publications in that it had not developed a
in USGS’s internal control structure that          formal, up-to-date, comprehensive system
needed to be corrected. In addition, system        security program or established formal
integrity weaknesses existed in the general        policies, standards, and procedures for
controls of the Federal Financial System at        computer operations. As a result, the
the Reston General Purpose Computer                deficient general controls significantly
Center and in the accounting for costs of          increased the risk of unauthorized access;
projects conducted under the Federal-State         unauthorized modifications to and disclosure
Cooperative Program.                               of sensitive data maintained in the Center’s
                                                   mainframe computers; theft or destruction of
                                                   hardware, software, and sensitive data; and
                                                   the loss of critical systems and functions in
                                                   the event of a disaster. In addition, the
                                                   deficient controls decreased the reliability of
                                                   the data maintained on the Center’s
                                                   computers. We made 13 recommendations
                                                   for improving management and internal



             Semiannual Report to the Congress: April 1, 1997 - September 30, 1997             11
controls for BIA’s automated information           Operation and Maintenance of
systems at the Center. In its responses to the     Government Furnished Quarters
draft and final reports, BIA agreed with all of
                                                   Not Adequate
the recommendations and stated that physical
security, user access, segregation of duties,
and system software controls would be
implemented as a result of the conversion of       W        e found that while the Eastern Navajo
                                                            Agency complied with requirements
                                                   for the maintenance and rental of quarters,
the mainframe data processing to USGS’s
host computer. Based on BIA’s response,            the Fort Defiance Agency did not. We also
we considered 1 recommendation resolved            found that neither agency complied with the
and implemented and 12 recommendations             requirements governing the occupancy of
resolved but not implemented.                      Government furnished quarters. Specifically,
                                                   we found that:
                                                   (1) quarters were poorly maintained and
Agricultural Leasing Effectively
                                                   were deteriorating; (2) bills of collection for
Managed by the Colorado River                      delinquent rents either were not prepared or
Indian Tribes                                      were not prepared timely; and
                                                   (3) agreements for the temporary use of

W       e concluded that the Colorado River
        Indian Tribes effectively managed
agricultural leasing on their reservation. The
                                                   housing either were not prepared or were not
                                                   properly executed by the Fort Defiance
                                                   Agency. In addition, personnel records to
Tribes managed the leasing under Public            support that occupancy was required for
Law 93-638, the Indian Self-Determination          BIA employees were not prepared by either
and Education Assistance Act. Based on a           agency, and neither agency performed annual
contract with BIA issued under the Act, the        quarters needs assessments to determine the
Tribes: (1) identified lands that were suitable    number of quarters necessary for BIA
for agriculture; (2) ensured that lands            operations. As a result, some quarters had
available for leasing were known to                unsafe and unhealthy conditions, such as
prospective lessees; (3) initiated actions in a    broken windows and loose or missing floor
timely manner to ensure that expiring leases       tiles; rents due of approximately $41,300 had
were reissued without a loss of revenue to         not been collected; and ineligible employees
the landowners; (4) ensured that fair annual       may have been designated as requiring
rentals were realized for the leased lands;        occupancy. On a positive note, we also
(5) required direct rental payments to             found that revenues from the rental of
individual allottee landowners and assignees       Government furnished quarters were
by the lessees; (6) assessed interest when         deposited into a special fund and were used
rents were paid late; (7) took appropriate         for the operation, maintenance, and repair of
actions to cancel leases when warranted by         housing units within the quarters program of
the circumstances; and (8) enforced bonding        the two agency offices. BIA agreed with the
requirements stipulated in the leases. The         report’s five recommendations to correct the
report did not contain any recommendations.        deficiencies in the report, including collecting
                                                   the delinquent rents and planning and
                                                   performing routine maintenance. Based on


12           Semiannual Report to the Congress: April 1, 1997 - September 30, 1997
BIA’s response, we considered three                collected from students. Based on the
recommendations resolved and implemented           response, we considered four
and two recommendations resolved but not           recommendations resolved and implemented
implemented.                                       and one recommendation resolved but not
                                                   implemented.
Student Bank Funds Adequately
Accounted for by Institute Despite                 Tribal Employees Prosecuted,
Internal Control Weaknesses                        Terminated for Embezzlement

I  n our audit of the Southwestern Indian
   Polytechnic Institute, we found that the
Institute adequately accounted for funds in
                                                   A     joint OIG-FBI investigation revealed
                                                         that from 1994 to 1996, five employees
                                                   of a New Mexico Indian tribal organization
its student bank, which processed                  diverted more than $200,000 in Federal
transactions exceeding $1.9 million for fiscal     funds to their personal use. BIA and other
years 1995 and 1996. For example, the              Federal agencies funded a nonprofit
commercial checking account was properly           organization that was set up to provide
supported by subsidiary accounts; recorded         social and economic assistance to 19 Indian
transactions were supported by proper              tribes in New Mexico. The monies were
documents such as deposit receipts,                diverted through a scheme whereby payroll
withdrawal slips, and payment vouchers;            advances were provided to participants but
withdrawal slips and requests for payment          not documented in the accounting system,
were approved by authorized individuals;           thereby allowing participants to avoid
and interest earned from the Institute’s           repayment. One of the employees admitted
commercial bank account was used for               to the theft of $2,560 and is paying
authorized purposes. While bank funds were         restitution through an agreement with the
adequately accounted for, we noted that the        Department of Justice. The remaining
Institute had inappropriately transferred          employees were charged criminally in March
unclaimed student deposits and fees of             1997 with conspiracy and embezzlement by a
$12,486 to the Institute’s nonprofit               Federal grand jury in Albuquerque, New
foundation. According to the BIA Manual            Mexico, and subsequently pled guilty. In
and the United States Code, these funds            September 1997, one of these four
should have been refunded to the students or       individuals, a staff accountant, was sentenced
credited to BIA’s appropriation. Our report        to 4 months of imprisonment and 3 years of
contained five recommendations designed to         supervised probation and was ordered to pay
ensure that student deposits and fees were         restitution of $33,800. Sentencing of the
properly handled and that internal controls        remaining three individuals is pending. All
were enhanced to ensure compliance with            five of these employees were terminated
BIA’s Manual and the Institute’s plan of           from their positions at the nonprofit
operations. In response to the                     organization.
recommendations, BIA agreed to return the
funds to the appropriate accounts and to
institute improved controls over fees


             Semiannual Report to the Congress: April 1, 1997 - September 30, 1997            13
Tribal Officials Convicted of                      total funding for improvements to all of its
Embezzling Tribal Funds                            government-owned housing for the year.
                                                   The investigation also revealed that the
                                                   employee made numerous personal calls
A     joint OIG-FBI investigation into
      allegations of theft of tribal monies by
elected officials of a California Indian tribe
                                                   using a Government cellular telephone
                                                   service.
resulted in the indictment of two individuals
and their subsequent conviction in a trial in      Government Employee Pleads
U.S. District Court in September 1997 on           Guilty to Payroll Fraud
charges of embezzlement. The two
individuals, who had served as tribal
chairman and as vice-chairman, used their
positions to divert more than $39,000 of
                                                   A     BIA employee in New Mexico falsified
                                                         her own time and attendance records
                                                   during a 4-year period to obtain more than
tribal monies to their own use. Sentencing is      $36,000 in overtime compensation for hours
pending.                                           that she did not work. The employee
                                                   resigned during the investigation. In May
Two Indicted in $203,000                           1997, a Federal grand jury in Albuquerque,
Embezzlement                                       New Mexico, charged the former employee
                                                   with filing false claims and mail fraud. In
                                                   September 1997, the former employee pled
O     n June 11, 1997, a Federal grand jury
      for the Central District of California
returned an indictment charging a former
                                                   guilty to filing false claims. Sentencing is
                                                   pending.
tribal chairperson and a former secretary-
treasurer with 29 counts of embezzlement           Eighteen Individuals Convicted in
from an Indian tribal organization. The            Bingo Scheme
subjects allegedly conspired to divert
$203,000 in tribal funds to their personal
use. A trial is pending. This was a joint
OIG-FBI investigation.
                                                   A     2-year investigation of a bingo
                                                         enterprise run by a Montana Indian
                                                   tribe has thus far resulted in convictions and
                                                   guilty pleas by 18 individuals charged with
Employee Removed for Waste and                     embezzlement and theft. Most of the
Abuse of Funds                                     individuals involved were current or former
                                                   tribal employees of the bingo operation,
                                                   including the president of the bingo
T    he superintendent of a BIA agency in
     the Southwest was removed from
Federal employment following an OIG
                                                   operation’s management firm. The
                                                   individuals defrauded the tribe through
investigation that revealed waste and abuse        various schemes to embezzle and steal
in the employee’s use of approximately             monies from the tribal business, including
$44,000 in BIA funds to make improvements          manipulating gambling machines to produce
to his government-owned quarters. The              counterfeit winning tickets, making false
misused monies constituted the agency’s            pay-outs, and stealing cash. Sentences of the
                                                   18 individuals have resulted in orders for


14           Semiannual Report to the Congress: April 1, 1997 - September 30, 1997
$124,615 in restitution, 34 months of              accepting a bribe as the agent of an Indian
incarceration, 696 months of probation,            tribal government and three counts of
1,520 hours of community service, $780 in          willfully making and subscribing false
fines, and $1,200 in special assessments.          individual U.S. income tax returns. The
                                                   gambling consultant was found guilty of one
Tribal Official Sentenced                          count of conspiring to bribe an agent of an
for Theft of Funds                                 Indian tribal government and one count of
                                                   bribing an agent of an Indian tribal
                                                   government. Sentencing is pending.
T    he chairman and the treasurer of a
     committee formed by a Montana Indian
tribe to promote ceremonial events                 Bureau of Land
converted more than $50,000 of tribal funds
to their personal use. The individuals were        Management
indicted by a Federal grand jury in Billings,
Montana, in 1996. They subsequently                Wild Horse and Burro Population
entered guilty pleas to charges of theft from
                                                   Management Needs Improvement
an Indian tribal organization. As previously
reported, in February 1997, the committee’s
treasurer was sentenced to 6 months of
electronically monitored home detention and
                                                   B     LM had not achieved appropriate
                                                         management levels of wild horse and
                                                   burro populations on public lands. The
60 months of supervised probation and was
                                                   appropriate levels are needed to maintain a
ordered to pay restitution of $23,048.54 and
                                                   thriving natural ecological balance of animals
a $100 special assessment. In May 1997,
                                                   on public lands. From fiscal year 1986, when
the committee chairman was sentenced to
                                                   BLM first established appropriate
5 years of supervised probation and
                                                   management levels, through fiscal year 1996,
3 months of electronically monitored home
                                                   the number of wild horses and burros on
confinement and was ordered to pay
                                                   public lands exceeded the appropriate
restitution of $27,488.
                                                   management levels by about
                                                   58 percent. Further, BLM’s Strategic Plan
Tribal Chairman and Gambling                       for the management of the wild horses and
Consultant Guilty of Bribery                       burros, which was established in fiscal year
                                                   1992, had not resulted in BLM’s reaching

A      n OIG investigation disclosed that the
       tribal chairman of a Midwestern Indian
tribe accepted $127,000 in bribes from a
                                                   appropriate management levels. BLM’s
                                                   inability to achieve appropriate management
                                                   levels occurred because BLM: (1) was
gambling consultant to facilitate the              unable to place sufficient numbers of animals
placement and operation of illegal video           with private organizations and individuals
gambling devices in the tribe’s casino             through its Adopt-A-Horse Program; (2)
facilities. The tribal chairman also did not       was prevented from disposing of excess
report the income to the Internal Revenue          healthy animals by legislative restrictions
Service. On June 27, 1997, the tribal              included in its appropriation acts; and (3) had
chairman was found guilty of one count of          not aggressively pursued other options for


             Semiannual Report to the Congress: April 1, 1997 - September 30, 1997             15
controlling herd sizes, such as the use of         Mineral Patents Processes Need
birthrate controls. As a result,                   Improvement
approximately 15,226 more horses and
burros were on public lands than BLM
determined the lands could sustain at the end
of fiscal year 1996. We made two
                                                   W       e identified deficiencies in the mineral
                                                           validity examination process which
                                                   we believe BLM needs to correct to ensure
recommendations to address the deficiencies.       that mineral patents are not granted
Based on BLM’s response to our draft               improperly. We also noted that BLM was
report, we considered one recommendation           not recovering the costs of conducting
resolved but not implemented and requested         mineral validity examinations, which BLM
additional information on the remaining            estimated to average about $80,000 per
recommendation.                                    application. In a related matter, we found
                                                   that BLM had not completed its initial
Recreation Management Needs To                     reviews of patent applications within the
Be More Effective                                  10-month time frame established in its
                                                   Manual. The deficiencies in BLM’s mineral

B     LM did not make effective use of its
      authority to designate special areas and
to collect special recreation permit fees at
                                                   validity examination process occurred
                                                   primarily because of weaknesses in BLM’s
                                                   mineral report quality control process. We
those areas. In addition, BLM did not              made seven recommendations to address the
collect recreation use permit fees at all sites    weaknesses identified. Based on BLM’s
eligible for fee collection or establish           response to our draft report, we considered
adequate controls over fee collection              three recommendations resolved but not
activities. BLM did not maximize its               implemented and requested BLM to
revenue-producing capability because it did        reconsider its responses to three
not sufficiently emphasize the benefits of         recommendations and to provide additional
using special area designations or ensure that     information on one recommendation.
its state offices charged recreation fees
where appropriate. As a result of these            Employee Resigns After
deficiencies, we estimated, based on fiscal        Embezzlement Investigation
year 1995 visitation data and historical BLM
revenue averages for recreation use permit
fees, that additional revenues of about
$15 million could have been collected for
                                                   A     n OIG investigation of monies missing
                                                         from the imprest fund of a BLM district
                                                   office in Oregon resulted in a BLM
fiscal year 1996 and used for resource             employee’s admission to the theft of
protection. We made four recommendations           $3,479.46 from the fund. The employee, a
to address the deficiencies. Based on BLM’s        cashier for the fund, later resigned from
response to our draft report, we considered        BLM after receiving a notice of proposed
all of the recommendations resolved but not        removal. The employee has made restitution
implemented.                                       to BLM and will perform 40 hours of




16           Semiannual Report to the Congress: April 1, 1997 - September 30, 1997
community service and obtain counseling            a result, BOR did not have assurance that
under a supervision agreement with the             Federal funds of $25 million paid to the
Department of Justice.                             grantees were for construction costs that
                                                   were allowable under the terms of the grant
Bureau of Reclamation                              agreements. We made two
                                                   recommendations to correct these
                                                   conditions. In response to these
Better Monitoring of Grants for                    recommendations, BOR agreed to begin
Water Reuse Projects Needed                        conducting annual reviews of grantees to
                                                   ensure compliance with grant requirements

B     OR did not adequately monitor the
      costs claimed by grantees for four
construction projects under 10 grant
                                                   and agreed to follow up on findings in single
                                                   audit reports. Based on BOR’s response to
                                                   our draft report, we considered both
agreements valued at $544 million, including       recommendations resolved but not
Federal funds estimated at                         implemented.
$135 million. BOR procedures require that
BOR technical and accounting personnel             Costs of $691,702 Questioned on
audit or review grant agreements annually to       BOR Construction Contract
ensure compliance with the terms of the
agreement. BOR officials stated that the
required reviews were not performed
because: (1) Mid-Pacific Regional program
                                                   D     uring 1995, BOR awarded a contract
                                                         for construction of a fish passage and
                                                   protective facilities on the Lemhi River as a
officials were not aware of the procedures         part of the Columbia and Snake River
and (2) Lower Colorado Regional officials          Salmon Recovery Project. After
believed that the procedures were optional         modifications, the contract totaled
and that the Region was precluded from             $1,005,292. The contractor submitted a
performing the annual reviews because              request for reimbursement of additional costs
grantees were subject to annual audits under       of $691,702, citing site easement conflicts
the Single Audit Act. Lower Colorado               and inaccurate contract documents that
Regional officials also stated that they did       resulted in a defective design for PVC pipe
not have sufficient staff to perform the           and additional erosion control planting.
reviews. Furthermore, BOR officials in both        Based on our audit of these costs, we
regions stated that they believed that relying     questioned the allowability of the entire
on the single audit process and on reviews of      $691,702 because the contractor did not
summary billings submitted by the grantees         separately account for claimed costs, as
was sufficient to adequately monitor the           required by the contract. Of these costs, we
costs claimed under the grant agreements.          also questioned costs of $472,546 because of
Despite BOR’s statement, we found that             differences between actual and estimated
BOR did not follow up on conditions                costs or rates and duplicate charges and
identified in the single audit reports and         costs of $125,706 that were not supported
information in the summary billings was not        by the contractor’s accounting records. The
sufficient to allow adequate monitoring. As        contracting officer’s response to the report



             Semiannual Report to the Congress: April 1, 1997 - September 30, 1997            17
was not due until after the end of this            themselves from Guam contracting
semiannual reporting period.                       regulations and issued personal services
                                                   contracts that had vague terms and
Insular Areas                                      requirements.

                                                   As a result of these conditions, the
GUAM                                               Government of Guam incurred
                                                   additional unnecessary personnel costs of
Personnel and Payroll Practices                    about $3.6 million (including $2.1 million for
                                                   lump-sum annual leave payments)
Not Corrected                                      from January 1, 1993, through
                                                   September 30, 1995. The Government also
A     followup review of the
      recommendations contained in a
February 1991 report entitled “Personnel and
                                                   did not ensure that full value was received
                                                   from the $4.6 million of personal services
                                                   contracts awarded during that time. We
Payroll Practices, Legislative Branch and
                                                   made five new recommendations to correct
Other Elected Officials, Government of
                                                   the conditions noted. The Guam Legislature
Guam” (No. 91-I-372) found that only 1 of
                                                   advised us in comments to our draft
the report’s 10 recommendations was
                                                   followup report that it had implemented two
implemented. Specifically, we found that the
                                                   of the recommendations by legislation:
following conditions still existed:
                                                   (1) to discontinue annual leave accrual by
(1) elected officials were permitted to accrue
                                                   elected officials and (2) to establish
annual leave, even though elected officials
                                                   requirements for personal services contracts.
were not required to take leave when they
                                                   We considered two of the three remaining
took off from work; (2) contrary to the
                                                   recommendations resolved but not
Guam Code, legislative employees were
                                                   implemented. We revised the remaining
permitted to accrue annual leave at the
                                                   recommendation in the final report based on
maximum rate of 8 hours per pay period
                                                   the Legislature’s comments and requested a
regardless of their length of service;
                                                   response to this revised recommendation.
(3) senators and legislative employees
continued to receive lump-sum payments for
their unused annual leave balance at the end       Unnecessary Personnel Costs Cited
of each legislative term, even if the senator
was reelected or the employee continued to
work for the Guam Government; (4) the
Guam Code permitted elected officials to
                                                   W       e concluded that the Bus Operations
                                                           Division of the Government of
                                                   Guam’s Department of Public Works used
collect retirement annuities while still           its buses effectively in providing
employed by the Guam Government;                   transportation to the students of Guam.
(5) contrary to Guam law, elected officials of     However, we found that the Division:
the executive branch accrued sick leave,           (1) did not adequately control overtime and
which we found had enabled some elected            other personnel costs; (2) expended bus
officials to receive increased retirement pay;     charter revenues without an appropriation
and (6) elected officials continued to exempt      from the Guam Legislature; (3) did not



18           Semiannual Report to the Congress: April 1, 1997 - September 30, 1997
adequately control bus charter fee billings        school bus operational costs to serve as a
and collections; and (4) did not establish         basis for establishing new bus charter rates;
school bus charter rates sufficient to recover     and (5) use the newly established bus charter
the costs of providing bus charter services.       rates when billing customers for bus charter
These conditions occurred because the              services.
Division had not established alternative work
schedules to reduce overtime and personnel         During the audit, we noted that the
costs. In addition, the Division was not           Governor of Guam’s “Vision 2001”
aware that an appropriation was needed             statement addressed the issue of public
before bus charter revenues could be spent         transportation systems on Guam. In that
and had not developed written procedures           regard, the Director of Policy, Development
for controlling bus charter fee billings and       and Operations and the Director of the
collections and for establishing bus charter       Guam Mass Transit Authority told us that
rates.                                             the administration was considering a strategy
                                                   which would consolidate Guam’s six public
As a result of these deficiencies, the Division    transportation systems. Because of the
incurred unnecessary overtime costs of about       deficiencies we identified during the audit,
$2.8 million between fiscal years 1994 and         we believe that this strategy will provide for
1996 and incurred other unnecessary                a more efficient public transportation system
personnel costs of $132,368 during two pay         on Guam. Accordingly, we stated in the
periods we reviewed for fiscal year 1996. In       report that the Governor should consider
addition, the Division: (1) improperly spent       studying operational alternatives for school
bus charter revenues of $187,519; (2) had          bus operations, such as merging these
little assurance that all bus charter fees were    operations with those of the Guam Mass
eventually billed and collected; and (3) had       Transit Authority.
bus charter costs that exceeded collections
by at least $490,000.                              The Governor of Guam did not provide a
                                                   response to our draft report. Therefore, all
We recommended that the Governor of                of the report’s six recommendations were
Guam require the Director, Department of           considered unresolved.
Public Works, to: (1) perform an operational
study of the Bus Operations Division to
identify methods, such as the use of split
shifts and part-time bus drivers, to minimize
overtime and personnel costs; (2) cease the
practice of spending bus charter revenues
without an appropriation; (3) develop and
implement written procedures to ensure that
adequate controls are established over bus
charter billings and collections; (4) develop
and implement written procedures to require
the Division to perform annual analyses of all



             Semiannual Report to the Congress: April 1, 1997 - September 30, 1997            19
Minerals Management                                and six recommendations, including those to
                                                   redesign the automated systems and to
Service                                            improve application software testing and
                                                   documentation procedures, resolved but not
                                                   implemented.
Improvements Needed for Royalty
Management Program’s Automated
Information Systems                                Multi-Office
                                                   Automated Law Enforcement
O     ur audit of the Minerals Management
      Service (MMS) Royalty Management             Systems Capable of Meeting
Program’s automated information systems            Applicable Reporting Requirements
showed that the systems were not operating
efficiently but that these inefficiencies had
not adversely affected the Program’s ability
to perform its mission. Specific inefficiencies
                                                   I  n three separate audits of the automated
                                                      law enforcement systems of NPS, FWS,
                                                   and BIA, we determined that the systems,
were that the Program did not ensure that          once completed, will be capable of reporting
application software for its automated             crime statistics in 22 offense categories to
systems was adequately tested or that              the FBI’s automated system. This reporting
supporting documentation was complete and          is required by the Uniform Federal Crime
current. To overcome these inefficiencies,         Reporting Act of 1988 (Public Law 100-
Program personnel developed supplemental           690). We also determined, however, that
systems on personal computers, or manual           controls within each of the bureaus’ systems
workarounds, to assist in meeting the              needed to be improved to ensure that crime
Program’s royalty management                       statistics are reported accurately and that
responsibilities. The systems were not             overall systems operations are effective. For
operating efficiently because current              example, NPS needed to develop written
database structures were antiquated and            policies that describe data input or
difficult to modify and enhance. As a result,      modification procedures, data backup or
the Program unnecessarily incurred, at a           archival requirements, hardware and
minimum, contractor costs of $2 million            software security, system processes, and
annually for operating and maintaining these       specific data submission procedures; FWS
automated systems that did not efficiently         needed to include additional data elements to
meet users’ needs, and the Program                 meet all reporting requirements of the FBI
expended about $1.2 million annually to            system and to meet management information
detect and correct data errors and problems        items required by DOI for law enforcement
in processing data to ensure the accurate          case files; and BIA needed to activate the
collection and distribution of rents, bonuses,     security features of the system software and
and royalties. We made seven                       develop and implement system rules for
recommendations to address these                   security, recovery, and operations. The
deficiencies. Based on MMS’s response to           three audit reports contained a total of 18
the final report, we considered one                recommendations to address the needed
recommendation resolved and implemented            improvements. Based on the responses

20           Semiannual Report to the Congress: April 1, 1997 - September 30, 1997
to the draft reports, we considered                compliance with the Federal Regulation.
3 recommendations resolved and                     DOI managers agreed to implement these
implemented, 5 recommendations                     recommendations.
resolved but not implemented, and
10 recommendations unresolved.                     Implementation of the Value
                                                   Engineering Program Needs
Further Improvements in Travel by                  Improvement
Principal Officials Needed


A      followup audit of five
       recommendations contained in the
                                                   D     OI did not fully implement new
                                                         requirements imposed by the May 1993
                                                   revision to OMB Circular A-131, “Value
February 1993 audit report entitled “Travel        Engineering Program.” Specifically, DOI
Activity of Principal Officials” determined        did not perform value engineering studies of
that three recommendations had been fully          all potential construction projects and the
implemented and two recommendations had            nonconstruction areas set forth in the
been partially implemented. As part of the         Circular. In addition, DOI’s method of
followup audit, we reviewed 518 vouchers,          funding its program did not appear to
totaling $477,244, for travel that occurred        encourage bureaus and offices to perform
during the period of October 1, 1994, and          value engineering studies. The program was
April 30, 1996, and found that travelers:          not fully implemented because DOI had not
(1) claimed the cost of air transportation for     enforced requirements that annual value
personal travel which was paid for by the          engineering plans should be prepared and
Government ($1,400) and used contract              implemented; that files should be maintained
airfare rates or Government contract credit        on all projects, programs, systems, and
cards to pay for personal travel; (2) received     products which meet the criteria for the use
per diem and/or reimbursement for rental           of value engineering; and that
cars while they were on personal leave or on       nonconstruction areas should be included in
personal time ($956); (3) received payment         DOI’s value engineering program. In
for costs that they did not incur ($1,151);        addition, DOI had not adequately staffed or
(4) claimed, without approval or                   funded the program. Although it was not
justification, actual costs for lodging and        possible for us to estimate the full impact on
meals that exceeded per diem rates ($4,344);       DOI, we believe that if the program had been
(5) did not receive approval for non-Federal       fully implemented in all potential areas, DOI
funding of travel costs ($3,958); and              could have realized millions of dollars more
(6) were not fully reimbursed for allowable        in cost savings and other benefits for fiscal
travel costs ($1,201). As a result of these        year 1995. We made four recommendations
findings, we made four new                         to address these deficiencies. Since
recommendations, which focused on the              comments to the report were not received,
need for DOI to recover reimbursement for          all of the report’s recommendations were
unallowable travel costs, to provide training      considered unresolved.
on the Federal Travel Regulation to principal
officials, and to periodically review the
officials’ travel vouchers to ensure

             Semiannual Report to the Congress: April 1, 1997 - September 30, 1997            21
National Biological                                result, the contractor retained reservation
                                                   system revenues that totaled about $609,000
Service                                            for up to 120 days before remitting the
                                                   revenues to the U.S. Treasury. The
                                                   contractor also did not maintain a
Former Employee Sentenced in                       performance bond that would protect the
Drug-Related Case                                  Government’s interests in case of default.
                                                   The report contained four recommendations.

A     s the result of an OIG investigation, a
      secretary with the National Biological
Service (NBS) resigned from her position
                                                   NPS concurred with the recommendations
                                                   and agreed to recover unpaid revenues,
                                                   improve controls over the timely remittance
after receiving written notice from NBS of a       of revenues, and enforce contract provisions
decision to terminate her employment for           to protect the Government’s interests in the
scheming to defraud a departmental imprest         event of nonpayment. Based on NPS’s
fund. The investigation revealed that the          response, we considered all of the
former employee submitted $3,122.10 in             recommendations resolved and implemented.
false claims for reimbursement to the imprest      NPS advised that it had recovered the
fund and used the money to purchase drugs.         $609,000 in reservation revenues oustanding
On May 23, 1997, the employee was                  at the time of our audit. However, after
sentenced to 3 years of                            issuance of the final report, NPS informed us
probation and was ordered to pay restitution       that it continued to experience delays in the
of $3,122.10 and to participate in a drug-         receipt of contractor remittances of
testing program.                                   reservations system revenue and that it had
                                                   been unable to get the contractor to obtain a
National Park Service                              performance bond. This matter has been
                                                   referred to our Office of Investigations.
Greater Oversight Needed Over                      Media Program Could Benefit
Reservation System Contractor                      From Cost-Saving Measures

N     PS did not ensure that reservation
      system revenues collected on its behalf
by a reservation system contractor were
                                                   N     PS could improve the efficiency and
                                                         effectiveness of its Servicewide Media
                                                   Program by strengthening administrative
remitted to the U.S. Treasury promptly and
                                                   controls and implementing cost-saving
that the Government’s interests were
                                                   measures at the Harpers Ferry Center.
protected against nonpayment of these
                                                   Specifically, the Center, which provides for
revenues. These conditions existed because
                                                   the maintenance, repair, and replacement of
NPS had not adequately monitored the
                                                   audiovisual equipment and for the
activities of the contractor to ensure that
                                                   procurement of media products and services,
reservation revenues were remitted in a
                                                   needs to maintain accurate inventory records
timely manner and had not enforced the
                                                   on audiovisual equipment, transfer custodial
contractual requirement that the contractor
                                                   responsibility for audiovisual equipment to
should maintain a performance bond. As a
                                                   the parks, cancel its warehouse lease because

22           Semiannual Report to the Congress: April 1, 1997 - September 30, 1997
the space is not needed, use competitive            contractor’s future billings. Therefore, we
procurement procedures as appropriate when          considered the questioned costs resolved but
placing orders under indefinite-quantity            not implemented.
contracts, and obtain better information on
the distribution and inventories of park            Former Employee Convicted of
brochures before publishing additional              Workmen’s Compensation Fraud
copies. We estimated that NPS could save
about $204,000 annually by transferring
responsibility for audiovisual equipment to
the parks and by canceling the warehouse
                                                    A      n OIG investigation revealed that a
                                                           former NPS employee received
                                                    disability payments totaling $73,000 from the
lease. Also, the Center could reduce costs          Office of Workers’ Compensation Programs
by soliciting competitive offers for items          (OWCP), which is administered by the
purchased under indefinite-quantity contracts       Department of Labor (DOL), following a
and by producing park brochures based on            back injury that she claimed was work
replenishment requirements. The report              related but that was, in fact, sustained during
contained seven recommendations to                  a fall in 1992 while she was shoveling snow.
strengthen administrative controls over             While receiving OWCP payments, the former
Center operations and to reduce Center              employee owned and operated a small
operating costs. All of the recommendations         business. During the period of disability, she
were considered unresolved because we did           submitted several forms to OWCP that
not receive an official response from the           reflected no active employment or work in
Director to the draft report.                       any capacity since the date of the alleged
                                                    injury. Following the investigation, a Federal
Costs of $183,892 Questioned on                     grand jury in Montana charged the employee
Renovation Contract                                 in a March 1997 indictment with fraud in
                                                    connection with the application for OWCP

I  n 1994, NPS issued a 3-year,
   $11.1 million contract for the renovation
of utilities at a historic location. The
                                                    benefits. In July 1997, the employee was
                                                    convicted in a trial in U.S. District Court,
                                                    Great Falls, Montana, of making a false
primary contractor issued a subcontract in          statement to the Government to obtain the
the amount of $775,697 for electrical work.         compensation. In September 1997, the
In our audit of costs of $768,268 billed by         employee was sentenced in Federal court in
the subcontractor, we questioned $183,892,          Great Falls to
which consisted of costs of $169,005 for            6 months of incarceration and 36 months of
charges that were in excess of actual costs         supervised probation and was ordered to pay
incurred and $14,887 for charges that were          $24,104 in restitution and a $100 special
not supported by the subcontractor’s                assessment.
accounting records. In responding to our
report, NPS agreed with our finding and
stated that it will offset the full amount of the
questioned costs of $183,892 from the




             Semiannual Report to the Congress: April 1, 1997 - September 30, 1997              23
Office of the Secretary                            Employee Sentenced for Theft of
                                                   Government Property
Financial Management Activities of
the National Indian Gaming
Commission Need Improvement
                                                   A     n OIG investigation determined that a
                                                         voucher examiner/principal cashier
                                                   embezzled $12,532 from the Office of the
                                                   Secretary imprest fund. The employee

T     he National Indian Gaming Commission
      did not ensure that its revenues and
expenditures were properly accounted for
                                                   admitted embezzling the money to pay
                                                   personal debts. The employee resigned and
                                                   subsequently pled guilty to two misdemeanor
and reported in accordance with applicable         counts of theft of Government property. On
laws and regulations. Specifically, the            June 25, 1997, the employee was sentenced
Commission did not develop and implement           to 5 years of probation on each of the two
adequate internal controls for collecting fees,    misdemeanor counts (both sentences to run
accounting for revenues and expenditures,          concurrently). The court also ordered the
billing for services, complying with travel        former employee to serve
regulations, maintaining time and attendance       4 months in an electronic monitoring
reports, and segregating duties. As a result,      program and to make full restitution of the
the Commission could not be assured that all       $12,532 to the Office of the Secretary.
of the Class II gaming operations reported
and paid the appropriate fees. Also, the
general ledger overstated assets of the            Office of the Special
Commission by approximately $5.5 million,
understated liabilities by approximately $4.8
                                                   Trustee for American
million, and included $650,000 collected in        Indians
civil
fines that were not returned to the U.S.
                                                   Judgment Award Funds Distributed
Treasury. We made nine recommendations
to the Commission to improve the internal          Inappropriately
controls over its fee assessment program;
develop a plan to reduce expenditures and/or
increase revenues; segregate duties in the
areas of collections, procurement, and
                                                   I  n two of three audits of judgment award
                                                      funds, we found that BIA distributed, to
                                                   Indian tribes, judgment award principal and
timekeeping; and establish policies and            reserved investment interest and income of
procedures for travel and time and                 $9.8 million in violation of the public laws
attendance. Based on the Commission’s              which specified how the awards should be
response to our draft report, we considered        used. The inappropriate distributions
five recommendations resolved and                  occurred because personnel responsible for
implemented and four recommendations               reviewing and approving disbursements did
resolved but not implemented.                      not sufficiently analyze the use and
                                                   distribution plans and did not ensure that
                                                   disbursements were made in accordance with
                                                   the plans. In addition, BIA’s trust fund


24           Semiannual Report to the Congress: April 1, 1997 - September 30, 1997
management system did not have sufficient          distributions, we estimated that the Nation
automated controls to prevent disbursement         lost about $1.2 million in interest and
from accounts that should have been                investment income.
restricted. The audit reports contained five
recommendations for the Special Trustee for           - The audit found that the Navajo Nation
American Indians to ensure that: (1) the           used the funds from three judgment awards
improper distributions were corrected in           for the purposes specified in the respective
accordance with the Secretary’s final              approved use and distribution plans.
recommendations for resolving disputed trust       However, we also found that BIA
fund balances; (2) appropriate controls over       improperly distributed judgment funds of
judgment fund distribution were instituted;        $4 million. Specifically, BIA improperly
and (3) budget amendments for significant          distributed to the Nation $1.9 million in
changes were submitted to the Secretary for        1987, which resulted in a $1.9 million
approval. The responses to the                     overdraft to the Navajo Scholarship Trust
recommendations in our reports from the            Fund account. Subsequently, BIA
Office of the Special Trustee for American         improperly distributed the $4 million of
Indians indicated concurrence with three           principal: $1.9 million to reimburse the
recommendations. Based on the responses,           overdrafted cash balance and $2.1 million for
we requested additional information for three      the interest component of the account for
recommendations and requested that the             local projects. However, the use and
Office reconsider its responses to the             distribution plan specified that the principal
remaining two recommendations, which               funds were to be held in trust and invested
were unresolved.                                   and that only the interest income on the
                                                   invested funds was to be disbursed for
 The results of the three audits of judgment       specified uses. As a result of the improper
funds awarded to the Papago Tribe                  distribution, the Office of Trust Funds
(currently known as the Tohono O’Odham             Management estimated that interest income
Nation), the Navajo Nation, and the Turtle         of about $2.5 million was not earned.
Mountain Band of Chippewa Indians are
summarized as follows:                                - During our audit of the Turtle Mountain
                                                   Band of Chippewa Indians, we found that
   - We concluded that the Tohono                  BIA held in trust at least 20 percent of the
O’Odham Nation appeared to use the                 award funds, that it distributed judgment
judgment funds in accordance with the uses         funds of $5.4 million to the Band in
authorized by Public Law 97-408. However,          accordance with Public Law 97-403, and
BIA inappropriately distributed to the             that the accounting records of the Band
Tohono O’Odham Nation about $5.8 million           indicated that judgment funds were spent for
in judgment award principal ($1 million) and       administration or social and economic
interest and investment income                     programs. However, we noted that the Band
($4.8 million). As a result of the improper        spent $1.7 million for activities which were
                                                   not included in the BIA-approved budget or
                                                   which were in excess of BIA-approved
                                                   amounts and that future interest income from


             Semiannual Report to the Congress: April 1, 1997 - September 30, 1997               25
judgment funds was assigned by the Band as        Mining Company Official Sentenced
collateral on two loans totaling                  in Reclamation Fee Fraud
$1.5 million.

Office of Surface                                 T    he president of a Pennsylvania mining
                                                       company pled guilty to charges of
                                                  conspiring with another official in the same
Mining Reclamation                                mining company to fraudulently underreport
and Enforcement                                   and underpay mine reclamation fees to OSM.
                                                  The OIG investigation determined that the
                                                  company president prepared and submitted
Reclamation Fee Collection Process                false OSM forms that understated the
Could Be Expedited                                amount of coal sold and the mine
                                                  reclamation fees due by $97,293. On
                                                  September 19, 1997, the company president
O     verall, the Office of Surface Mining
      Reclamation and Enforcement (OSM)
conducted its Fee Compliance Program in an
                                                  was sentenced to 3 years of probation.

efficient and effective manner and in
compliance with authorizing legislation and
                                                  U.S. Fish and Wildlife
regulations. Specifically, OSM had                Service
established adequate controls and procedures
to ensure that reclamation fees were billed,      Strengthened Oversight Needed in
recorded, and accounted for properly and
that audits of coal mine operators were
                                                  Administering North American
adequately planned and conducted.                 Wetlands Conservation Act Grants
However, we found that OSM had an
opportunity to process fee collections in a
more cost-effective and timely manner by          I  mprovements are needed in the
                                                     administration of FWS grants awarded
                                                  under provisions of the North American
enabling and requiring certain coal mine
operators to electronically transmit their        Wetlands Conservation Act. We found that
quarterly Coal Reclamation Fee Reports.           the FWS Waterfowl and Wetlands Office,
OSM agreed with the report’s                      which has responsibility for grants
recommendation and said that it planned to        administration, did not adequately review or
determine how to implement the electronic         obtain sufficient information to verify the
data transfer while meeting Surface Mining        propriety of costs that were charged to the
Control and Reclamation Act requirements          grants. Specifically, FWS did not extend the
for a notary public to certify fee reports.       performance period prior to grant expiration
Based on OSM’s response, we considered            to cover additional work performed (12
the recommendation resolved but not               grants), credited partners with land that was
implemented.                                      bought or easements that were obtained
                                                  outside the grant performance period (7
                                                  grants), and did not ensure that work was
                                                  performed in accordance with the project
                                                  agreements (5 grants). We also found that

26          Semiannual Report to the Congress: April 1, 1997 - September 30, 1997
provisions of the Act were unclear with            result, FWS did not have sufficient controls
respect to the amount and source of required       to effectively administer Program activities.
matching funds. In a review of 29                  The report contained five recommendations.
wetlands conservation grants, we identified        FWS concurred with the recommendations
12 grants in which costs of                        and agreed to improve controls over
$1 million may have been improperly                Program operations and activities. Based on
reimbursed or credited to partners as their        FWS’s response to the draft report, we
contribution to project costs as a result of       considered the five recommendations
inadequate administrative oversight. The           resolved but not implemented.
report contained six recommendations. FWS
concurred with the recommendations and             Claimed Costs of $1,692,644
agreed to strengthen controls over grant           Questioned on Construction
administration and to request an opinion
                                                   Contract
from the Solicitor to clarify the funding
provisions of the Act. Based on FWS’s
response to the draft report and subsequent
correspondence, we considered three
                                                   F    WS entered into a contract in the
                                                        amount of $3,176,024 with a contractor
                                                   for construction of the Wichita
recommendations resolved and implemented,
                                                   Environmental Education Center, in Wichita,
two recommendations resolved but not
                                                   Kansas. The contractor requested
implemented, and one recommendation
                                                   reimbursement of an additional $1,704,215,
unresolved.
                                                   citing increased costs that occurred because
                                                   FWS’s drawings and specifications were
Improvements Needed in Wildlife                    “inaccurate” and “confusing” and because
Habitat Restoration Program                        untimely decisions by FWS slowed the
                                                   construction process. We audited the

O     verall, FWS was generally
      accomplishing its objectives of
restoring and enhancing habitat sites under
                                                   contractor’s request for equitable adjustment
                                                   and questioned $1,692,644, consisting of
                                                   costs of $1,340,411, which were unallowable
its Partners for Wildlife Habitat Restoration      under the Federal Acquisition Regulation or
Program; however, improvements were                which were paid previously under the
needed in some areas. In a review of 101           contract, and costs of $352,233, which were
Program project files, we found that some          not supported by the contractor’s accounting
cooperative agreements lacked specific             records. In its response to our report, FWS
and/or standard provisions on the scope of         agreed to deny $1,692,104 of the
the restoration work and/or the                    contractor’s costs that we questioned.
responsibilities of the Federal and non-           Therefore, we considered the questioned
Federal Program participants. We also              costs resolved but not implemented.
found that guidance on cost-sharing
arrangements was insufficient,
documentation supporting project expenses
was not adequate, and Program costs and
accomplishments were not tracked and
reported accurately and efficiently. As a


             Semiannual Report to the Congress: April 1, 1997 - September 30, 1997            27
Former Employee Sentenced for                      U.S. Geological Survey
Theft From Imprest Fund
                                                   Contractor Convicted and Debarred
A      former FWS budget clerk and imprest
       fund cashier, who had left her FWS
position for employment with DOL, pled
                                                   for False Certifications

guilty to one count of felony embezzlement
and theft of $23,113. The OIG investigation
disclosed that while employed with the FWS,
                                                   A      joint investigation by OIGs of DOI and
                                                          DOL determined that the president of a
                                                   Colorado environmental engineering and
the employee embezzled $4,000 from the             consulting company issued false training
FWS imprest fund using duplicated and              certifications to numerous employees of
falsified vouchers. The employee also used         private companies and USGS. Additionally,
her Government purchase card to make               the corporate official misrepresented to
unauthorized purchases of personal items           USGS the extent of his academic
totaling $19,113. Some of the personal             qualifications to provide training. The
items purchased included a $1,000 riding           training certifications are regulated by
lawnmower, a $1,000 10' x 16' outdoor shed         DOL’s Mine Safety and Health
to house the riding lawnmower, and a $1,500        Administration. The purpose of the training
large-screen television set. The employee          is to ensure that underground miners are
also devised a scheme using her Government         current in safety and health topics designed
purchase card to purchase gift certificates at     to prepare them for the hazards inherent in
local department stores and to convert them        mining. The false training certifications
to cash. On June 4, 1997, the former               placed the victims in potential danger by
employee was sentenced to 5 years of               falsely certifying that they could enter and
probation and was ordered to pay $23,113 in        work at mine sites when they had not
restitution to FWS. As a result of the OIG         received the proper designated training. As
investigation, the employee also resigned          a result of the investigation, the company
from DOL.                                          official was charged with making false
                                                   certifications, a criminal violation of Federal
                                                   law. After fleeing to avoid prosecution, the
                                                   official pled guilty in U.S. District Court in
                                                   Wyoming to making a false certification and
                                                   was sentenced to 21 months of imprisonment
                                                   and 2 years of probation. Additionally, in
                                                   July 1997, the officer and the corporation
                                                   were debarred from participating in all
                                                   Federal procurement and nonprocurement
                                                   programs for 15 years. The debarment cited
                                                   the fact that the submission of false
                                                   certifications demonstrated a deliberate
                                                   disregard for the lives and safety of those
                                                   who depended on the training.



28           Semiannual Report to the Congress: April 1, 1997 - September 30, 1997
                                        APPENDIX 1

                   SUMMARY OF AUDIT ACTIVITIES FROM
                 APRIL 1, 1997, THROUGH SEPTEMBER 30, 1997
                                 AUDITS PERFORMED BY:
                                            OTHER
                                           FEDERAL         NON-FEDERAL
                                          AUDITORS           AUDITORS
                                        (With Review and   (With Review and
                                          Processing by     Processing by
                       OIG STAFF           OIG Staff)         OIG Staff)

                       Internal and       Contract and
                      Contract Audits     Grant Audits       Single Audits       TOTAL

REPORTS ISSUED TO:

Department/ Office
of the Secretary
                            4                  0                  9                  13

Fish and Wildlife
and Parks                   11                 3                  99                 113

Indian Affairs              10                 2                 202                 214

Insular Areas               3                  0                  14                 17

Land and Minerals
Management                  5                  5                  36                 46

Water and Science           7                  8                  23                 38

  Subtotal                  40                18                 383                 441

INDIRECT COST PROPOSALS NEGOTIATED FOR:

Indian Tribes and
Organizations              126                 0                  0                  126

Insular Areas               7                  0                  0                   7

State Agencies              46                 0                  0                  46

  Subtotal                 179                 0                  0                  179

    TOTAL                  219                18                 383                 620




             Semiannual Report to the Congress: April 1, 1997 - September 30, 1997         29
                                                                APPENDIX 2

  AUDIT REPORTS ISSUED OR PROCESSED AND INDIRECT COST
PROPOSALS NEGOTIATED DURING THE 6-MONTH PERIOD ENDED
                    SEPTEMBER 30, 1997


     This listing includes all internal, contract, and single audit reports issued and indirect cost agreements negotiated during the 6-month period ended
     September 30, 1997. It provides report number, title, issue date, and monetary amounts identified in each report (*funds to be put to better use,
     **questioned costs, ***unsupported costs [unsupported costs are included in questioned costs], and ****lost or potential additional revenues).




INTERNAL AUDITS                                        97-I-1166 OPERATION AND                                      97-I-1299 RECREATION
                                                       MAINTENANCE OF                                               MANAGEMENT, BUREAU OF
                                                       GOVERNMENT FURNISHED                                         LAND MANAGEMENT
BUREAU OF INDIAN                                       QUARTERS, EASTERN                                            (9/30/97)
AFFAIRS                                                NAVAJO AND FORT
                                                       DEFIANCE AREA                                                97-I-1300 ISSUANCE OF
97-I-771 GENERAL                                       OFFICES, BUREAU OF                                           MINERAL PATENTS,
CONTROLS OVER                                          INDIAN AFFAIRS                                               BUREAU OF LAND
AUTOMATED                                              (9/15/97) *$41,300                                           MANAGEMENT AND
INFORMATION SYSTEMS,                                                                                                OFFICE OF THE SOLICITOR
OPERATIONS SERVICE                                     97-E-1199 REVIEW OF THE                                      (9/30/97)
CENTER, BUREAU OF                                      SINGLE AUDIT OF THE
INDIAN AFFAIRS                                         OGLALA SIOUX TRIBAL                                          BUREAU OF
(4/30/97)                                              PUBLIC SAFETY                                                RECLAMATION
                                                       COMMISSION FOR
97-I-834 BUREAU OF                                     FISCAL YEAR ENDED
INDIAN AFFAIRS                                         SEPTEMBER 30, 1995                                           97-I-874 WATER REUSE
CONSOLIDATED FINANCIAL                                 (9/30/97)                                                    PROGRAM GRANTS,
STATEMENTS FOR FISCAL                                                                                               BUREAU OF RECLAMATION
YEARS 1995 AND 1996                                     97-I-1301 STUDENT BANK                                      (6/13/97)
(5/9/97)                                               AT SOUTHWESTERN INDIAN
                                                       POLYTECHNIC INSTITUTE                                        97-I-937 BUREAU OF
97-I-1100 MANAGEMENT OF                                (9/30/97)                                                    RECLAMATION FINANCIAL
AGRICULTURAL LEASES BY                                                                                              STATEMENTS FOR FISCAL
                                                                                                                    YEARS 1995 AND 1996
THE COLORADO RIVER                                     BUREAU OF LAND
                                                                                                                    (6/13/97)
INDIAN TRIBES UNDER                                    MANAGEMENT
SELF-DETERMINATION
CONTRACT NO.
1450CTH51T60325                                        97-I-1104 MANAGEMENT OF
(8/22/97)                                              HERD LEVELS, WILD HORSE
                                                       AND BURRO PROGRAM,
                                                       BUREAU
                                                       OF LAND MANAGEMENT
                                                       (8/12/97)




30               Semiannual Report to the Congress: April 1, 1997 - September 30, 1997
INSULAR AREAS                     MULTI-OFFICE                     97-I-880 RESERVATION
                                                                   REVENUE REMITTANCE
                                                                   ACTIVITIES ASSOCIATED
Commonwealth of the               97-I-882 AUTOMATED LAW
                                                                   WITH THE SERVICEWIDE
Northern                          ENFORCEMENT SYSTEM,
                                                                   RESERVATION SYSTEM
                                  BUREAU OF INDIAN
Mariana Islands                   AFFAIRS                          CONTRACT, NATIONAL
                                  (6/16/97)                        PARK SERVICE
97-E-1040 QUALITY                                                  (6/16/97)
CONTROL REVIEW OF                 97-I-908 AUTOMATED LAW
SINGLE AUDITS OF THE              ENFORCEMENT SYSTEM,              97-I-936 NATIONAL PARK
MARIANAS ASSOCIATION              NATIONAL PARK SERVICE            SERVICE FINANCIAL
FOR RETARDED CITIZENS             (6/23/97)                        STATEMENTS FOR FISCAL
FOR TWO FISCAL                                                     YEARS 1995 AND 1996
YEARS ENDED                                                        (6/13/97)
                                   97-I-930 FOLLOWUP OF
SEPTEMBER 30, 1993                TRAVEL BY PRINCIPAL
(7/17/97)                         OFFICIALS, U.S.                  97-I-1304 SERVICEWIDE
                                  DEPARTMENT OF THE                MEDIA PROGRAM,
Guam                              INTERIOR (6/30/97)               NATIONAL PARK SERVICE
                                                                   (9/30/97) *$204,000
97-I-1051 FOLLOWUP OF             97-I-932 DEPARTMENT OF
RECOMMENDATIONS                   THE INTERIOR                     OFFICE OF THE
CONCERNING PERSONNEL              CONSOLIDATED                     SPECIAL TRUSTEE
AND PAYROLL PRACTICES,
LEGISLATIVE BRANCH,
                                  PRINCIPAL FINANCIAL              FOR AMERICAN
                                  STATEMENTS FOR FISCAL
GOVERNMENT OF GUAM                YEARS 1995 AND 1996
                                                                   INDIANS
(7/31/97) *$8,214,507             (6/12/97)
                                                                   97-I-1167 JUDGMENT
97-I-1294 SCHOOL BUS              97-I-1293 VALUE                  FUNDS AWARDED TO THE
OPERATIONS,                       ENGINEERING PROGRAM,             TURTLE MOUNTAIN BAND
DEPARTMENT OF                     DEPARTMENT OF THE                OF CHIPPEWA INDIANS
PUBLIC WORKS,                     INTERIOR (9/29/97)               (9/22/97)
GOVERNMENT
OF GUAM                           97-I-1305 AUTOMATED LAW          97-I-1168 JUDGMENT
(9/30/97) *$3,094,034 &           ENFORCEMENT SYSTEM,              FUNDS AWARDED TO THE
****$490,000                      U.S. FISH AND WILDLIFE           NAVAJO NATION
                                  SERVICE                          (9/22/97)
MINERALS                          (9/30/97)
MANAGEMENT                                                         97-I-1169 JUDGMENT
SERVICE                           NATIONAL PARK                    FUNDS AWARDED TO THE
                                                                   PAPAGO TRIBE OF ARIZONA
                                  SERVICE                          (9/15/97)
97-I-1042 ROYALTY
MANAGEMENT PROGRAM’S              97-I-875 USE OF THE
AUTOMATED                         GOVERNMENTWIDE
INFORMATION                       PURCHASE
SYSTEMS, MINERALS                 CARD, NATIONAL PARK
MANAGEMENT SERVICE                SERVICE (6/13/97)
(7/31/97) *$3,200,000




             Semiannual Report to the Congress: April 1, 1997 - September 30, 1997          31
OFFICE OF SURFACE               U.S. GEOLOGICAL                  BUREAU OF LAND
MINING                          SURVEY                           MANAGEMENT
RECLAMATION AND
ENFORCEMENT                     97-I-927 U.S. GEOLOGICAL         97-E-971 COMPUTER
                                SURVEY FINANCIAL                 SCIENCES CORPORATION,
                                STATEMENTS FOR                   SYSTEM SCIENCES
97-I-1303 FEE COMPLIANCE        FISCAL YEAR 1996                 DIVISION, AUDIT OF
PROGRAM, OFFICE OF              (6/12/97)                        INVOICE NO. 990 FOR
SURFACE MINING                                                   BUREAU OF LAND
RECLAMATION AND                 97-I-1156 OVERHEAD               MANAGEMENT UNDER
ENFORCEMENT                     COSTS OF COST-                   CONTRACT NO. N652C30002
(9/30/97)                       REIMBURSABLE                     (7/1/97)
                                PROJECTS AT THE U.S.
OFFICE OF THE                   GEOLOGICAL SURVEY                97-E-1062 INFOTEC
SECRETARY                       (8/13/97)                        DEVELOPMENT, INC., DATA
                                                                 PRODUCTS DIVISION,
97-I-769 FINANCIAL              CONTRACT AND                     OVERHEAD EXPENSES FOR
MANAGEMENT ACTIVITIES                                            FISCAL YEAR ENDED
OF THE NATIONAL INDIAN
                                GRANT AUDITS                     SEPTEMBER 30, 1993
GAMING COMMISSION                                                (7/28/97)
(4/28/97)                       BUREAU OF INDIAN
                                AFFAIRS                          97-E-1200 COMPUTER
U.S. FISH AND                                                    SCIENCES CORPORATION,
                                                                 SYSTEM SCIENCES
WILDLIFE SERVICE                97-E-917 NEW MEXICO
                                                                 DIVISION, COSTS
                                STATE UNIVERSITY,
                                                                 INCURRED FOR FISCAL
97-I-838 U.S. FISH AND          OVERHEAD PROPOSAL TO
                                                                 YEAR ENDED
WILDLIFE SERVICE                ESTABLISH NEGOTIATED
                                                                 MARCH 30, 1994
FINANCIAL STATEMENTS            INDIRECT COST RATES FOR
                                                                 (9/17/97)
FOR FISCAL YEARS 1995           FISCAL YEAR ENDED
                                JUNE 30, 1998
AND 1996
                                (6/11/97)                        BUREAU OF
(5/12/97)
                                                                 RECLAMATION
97-I-1112 ADMINISTRATION        97-E-931 LOWER BRULE
OF GRANTS AWARDED               SIOUX TRIBE, COSTS               97-E-842 PERINI
UNDER THE NORTH                 INCURRED UNDER BUREAU            CORPORATION, INC.,
AMERICAN WETLANDS               OF INDIAN AFFAIRS                PROPOSED RATES
CONSERVATION                    CONTRACT NO. A002506614          SUBMITTED UNDER U.S.
ACT, U.S. FISH AND              (6/12/97) **$301,228 &           BUREAU OF MINES
WILDLIFE SERVICE                ***$301,228                      CONTRACT NO. 1425-3-CC-
(8/29/97) *$607,000                                              10-6120/DC-7885
                                                                 (5/20/97)
97-I-1302 PARTNERS FOR
WILDLIFE HABITAT                                                 97-E-1082 BURNS AND ROE
RESTORATION PROGRAM,                                             SERVICES CORPORATION,
U.S. FISH AND WILDLIFE                                           COSTS INCURRED FOR
SERVICE (9/29/97)                                                FISCAL YEAR ENDED
                                                                 DECEMBER 31, 1995
                                                                 (8/5/97)




32         Semiannual Report to the Congress: April 1, 1997 - September 30, 1997
97-E-1084 ENVIROCORP            97-E-879 BLAINE L.               U.S. FISH AND
SERVICES AND                    WADMAN CORPORATION,              WILDLIFE SERVICE
TECHNOLOGY,                     EQUITABLE ADJUSTMENT
INC., COSTS SUBMITTED           PROPOSAL SUBMITTED TO            97-E-692 MONTGOMERY
UNDER BUREAU OF                 NATIONAL PARK SERVICE            WATSON AMERICAS, INC.,
RECLAMATION CONTRACT            UNDER CONTRACT                   COST PROPOSAL
NO. 4-CA-40-01660               NO. 1443CX800092918              SUBMITTED TO U.S. FISH
(8/12/97)                       (5/29/97) *$1,417,068            AND WILDLIFE SERVICE
                                                                 UNDER SOLICITATION
97-E-1087 MORGEN AND            U.S. BUREAU OF                   NO. FWS-6-96-1029
OSWOOD CONSTRUCTION             MINES                            (4/3/97)
CO., INC., REQUEST FOR
EQUITABLE ADJUSTMENT            97-E-803 BOEING                  97-E-978 DEBCON, INC.,
UNDER BUREAU OF                 AEROSPACE OPERATIONS,            REQUEST FOR EQUITABLE
RECLAMATION CONTRACT            INC., COSTS INCURRED             ADJUSTMENT SUBMITTED
NO. 1425-5-CC-10-06890          FOR FISCAL YEAR ENDED            TO U.S. FISH AND WILDLIFE
(8/12/97) *$691,702             DECEMBER 31, 1991 (5/1/97)       SERVICE UNDER
                                                                 CONTRACT
MINERALS                        97-E-804 BOEING                  NO. 14-48-0006-94-026
MANAGEMENT                      AEROSPACE OPERATIONS,            (7/2/97) *$1,692,644
SERVICE                         INC., COSTS INCURRED FOR
                                FISCAL YEAR ENDED                97-E-1254 U.S. FISH AND
97-E-679 AUBREY                 DECEMBER 31, 1992                WILDLIFE SERVICE
CONSULTING, INC.,               (5/1/97)                         FEDERAL AID GRANTS TO
COST PROPOSAL                                                    THE STATE OF FLORIDA’S
SUBMITTED TO MINERALS           97-E-814 BOEING                  DEPARTMENT OF
MANAGEMENT SERVICE              AEROSPACE OPERATIONS,            ENVIRONMENTAL
UNDER SOLICITATION              INC., FINAL COSTS UNDER          PROTECTION FOR TWO
NO. 3840                        U.S. BUREAU OF MINES             FISCAL YEARS ENDED JUNE
(4/1/97) *$16,049               CONTRACT NO. S0308050            30,1996
                                (5/6/97)                         (9/18/97) **$586,649
97-E-1058 SONOMA
TECHNOLOGY, INC., COSTS         97-E-815 BOEING                  U.S. GEOLOGICAL
INCURRED FOR FOUR               AEROSPACE OPERATIONS,            SURVEY
FISCAL YEARS ENDED              INC., FINAL COSTS UNDER
DECEMBER 31, 1995               U.S. BUREAU OF MINES             97-E-906 COMPUTER
(7/25/97)                       CONTRACT NO. J0333956            SCIENCES CORPORATION,
                                (5/6/97) **$40,516               SYSTEM SCIENCES
NATIONAL PARK                   97-E-1059 BOEING
                                                                 DIVISION, COSTS INCURRED
SERVICE                                                          FOR FISCAL YEAR ENDED
                                AEROSPACE OPERATIONS,            MARCH 30,1993
                                INC., AUDIT OF COST              (6/11/97)
97-E-865 HARRISON AND           IMPACT PROPOSAL
PALMER, INC., COSTS             DATED APRIL 4, 1997
INCURRED FOR FISCAL             (7/25/97)
YEAR ENDED MARCH 31,
1996, UNDER NATIONAL
PARK SERVICE CONTRACT
NO. 1443CX300094906
(5/22/97) **$183,892 &
***$14,887



           Semiannual Report to the Congress: April 1, 1997 - September 30, 1997          33
97-E-1295 WOOLPERT              97-A-720 NATIVE                  97-A-750 INDIAN ISLAND
CONSULTANTS, COST               VILLAGE OF                       SCHOOL, MAINE INDIAN
PROPOSAL SUBMITTED TO           EKLUTNA, FISCAL                  EDUCATION, FISCAL YEAR
U.S. GEOLOGICAL SURVEY          YEAR ENDED                       ENDED JUNE 30, 1995
UNDER SOLICITATION              SEPTEMBER 30, 1996               (4/17/97)
NO. 1434-WR-97-SS-00006         (4/10/97)
(9/30/97)                                                        97-A-751 PLEASANT POINT
                                97-A-726 RHODE ISLAND            SCHOOL, MAINE INDIAN
SINGLE AUDITS                   INDIAN COUNCIL, INC.,            EDUCATION, FISCAL YEAR
                                FISCAL YEAR ENDED                ENDED JUNE 30, 1995
                                JUNE 30, 1995                    (4/17/97)
BUREAU OF INDIAN                (4/10/97)
AFFAIRS                                                          97-A-752 NEW KOLIGANEK
                                97-A-727 YOMBA                   VILLAGE COUNCIL,
97-A-686 OTOE-                  SHOSHONE                         FISCAL YEAR ENDED
MISSOURIA TRIBE OF              TRIBE, FISCAL                    DECEMBER 31, 1995 (4/17/97)
INDIANS,                        YEAR ENDED
FISCAL YEAR ENDED               DECEMBER 31, 1995                97-A-753 BAY MILLS
DECEMBER 31, 1995               (4/10/97) **$8,307               COMMUNITY COLLEGE,
(4/3/97)                                                         FISCAL YEAR ENDED
                                97-A-730 CHIPPEWA                JUNE 30, 1996
97-A-687 UTE INDIAN             CREE TRIBE, FISCAL               (4/17/97)
TRIBE, FISCAL                   YEAR ENDED
YEAR ENDED                      SEPTEMBER 30, 1995               97-A-754 SANDIA PUEBLO,
SEPTEMBER 30, 1994              (4/10/97) **$4,098               FISCAL YEAR ENDED
(4/3/97) **$2,750                                                DECEMBER 31, 1995
                                97-A-731 YAVAPAI-                (4/17/97)
97-A-689 ONEIDA TRIBE           APACHE TRIBE, FISCAL
OF INDIANS OF WISCONSIN,        YEAR ENDED
                                                                 97-A-755 JAMUL BAND
FISCAL YEAR ENDED               DECEMBER 31, 1995
                                                                 OF MISSION INDIANS,
SEPTEMBER 30, 1996              (4/10/97)
                                                                 FISCAL YEAR ENDED
(4/3/97)                                                         DECEMBER 31, 1995 (4/17/97)
                                97-A-733 GRAND
97-A-693 LAC COURTE             PORTAGE RESERVATION
                                                                 97-A-756 SHIPROCK
OREILLES BAND OF LAKE           TRIBAL COUNCIL, FISCAL
                                                                 DORMITORY, INC., FISCAL
SUPERIOR CHIPPEWA               YEAR ENDED
                                                                 YEAR ENDED
INDIANS OF WISCONSIN,           SEPTEMBER 30, 1996
                                                                 JUNE 30, 1996 (4/17/97)
FISCAL YEAR ENDED               (4/10/97)
SEPTEMBER 30, 1995                                               97-A-757 COMANCHE
(5/8/97)                        97-A-748 INDIAN
                                                                 INDIAN TRIBE, FISCAL YEAR
                                TOWNSHIP SCHOOL, MAINE
                                                                 ENDED
97-A-719 KOOTENAI               INDIAN EDUCATION,
                                                                 SEPTEMBER 30, 1996
TRIBE OF IDAHO,                 FISCAL YEAR ENDED
                                                                 (4/17/97)
FISCAL YEAR ENDED               JUNE 30, 1995
SEPTEMBER 30, 1996              (4/17/97)
                                                                 97-A-758 WHITE SHIELD
(4/10/97)                                                        SCHOOL, FISCAL YEAR
                                97-A-749 OFFICE OF
                                                                 ENDED JUNE 30, 1996
                                SUPERINTENDENT, MAINE
                                                                 (4/17/97)
                                INDIAN EDUCATION,
                                FISCAL YEAR ENDED
                                JUNE 30, 1995
                                (4/17/97)


34         Semiannual Report to the Congress: April 1, 1997 - September 30, 1997
97-A-759 CHUSKA SCHOOL           97-A-781 SANTA CLARA             97-A-799 WOLF POINT
BOARD OF EDUCATION,              INDIAN PUEBLO,                   PUBLIC SCHOOLS,
INC., FISCAL YEAR ENDED          FISCAL YEAR ENDED                ROOSEVELT
SEPTEMBER 30, 1996               DECEMBER 31, 1995 (4/24/97)      COUNTY, WOLF POINT,
(4/17/97)                                                         MONTANA, FISCAL YEAR
                                 97-A-782 ARCTIC SLOPE            ENDED JUNE 30, 1996
97-A-761 LOVELOCK                NATIVE ASSOCIATION               (4/30/97)
PAIUTE TRIBE, TWO FISCAL         LIMITED, FISCAL
YEARS ENDED                      YEAR ENDED                       97-A-828 CONFEDERATED
DECEMBER 31, 1991 (5/15/97)      SEPTEMBER 30, 1996               SALISH AND KOOTENAI
                                 (4/24/97)                        TRIBES OF THE FLATHEAD
97-A-762 LOVELOCK                                                 NATION, FISCAL
PAIUTE TRIBE, FISCAL             97-A-783 MANDAREE                YEAR ENDED
YEAR ENDED                       PUBLIC SCHOOL DISTRICT           SEPTEMBER 30, 1996
DECEMBER 31, 1992                NO. 36, FISCAL                   (5/8/97) **$1,430
(5/15/97)                        YEAR ENDED
                                 SEPTEMBER 30, 1996               97-A-836 TABLE BLUFF
97-A-763 LOVELOCK                (4/24/97)                        RESERVATION OF THE
PAIUTE TRIBE, FISCAL                                              WIYOT TRIBE, FISCAL YEAR
YEAR ENDED                       97-A-784 BAD RIVER BAND          ENDED
DECEMBER 31, 1993                OF LAKE SUPERIOR TRIBE           DECEMBER 31, 1995
(5/15/97)                        OF CHIPPEWA INDIANS,             (5/13/97)
                                 FISCAL YEAR ENDED
97-A-777 ROCK POINT              SEPTEMBER 30, 1995               97-A-837 JEMEZ PUEBLO,
SCHOOL, INC., FISCAL YEAR        (4/24/97) **$1,276               FISCAL YEAR ENDED
ENDED JUNE 30, 1996                                               SEPTEMBER 30, 1996
(4/24/97)                        97-A-786 UNITED SOUTH            (5/13/97)
                                 AND EASTERN TRIBES,
97-A-778 FORT                    FISCAL YEAR ENDED                97-A-845 PONCA TRIBE OF
INDEPENDENCE                     SEPTEMBER 30, 1996               NEBRASKA, FISCAL
RESERVATION,                     (4/24/97)                        YEAR ENDED
FISCAL YEAR ENDED                                                 SEPTEMBER 30, 1996
DECEMBER 31, 1995                97-A-787 WAMPANOAG               (5/15/97)
(4/24/97)                        TRIBE OF GAY HEAD
                                 (AQUINNAH), FISCAL               97-A-853 WYANDOTTE
97-A-779 LOWER ELWHA             YEAR ENDED                       TRIBE OF OKLAHOMA,
S'KLALLAM TRIBE, FISCAL          SEPTEMBER 30, 1996               FISCAL YEAR ENDED
YEAR ENDED                       (4/24/97)                        SEPTEMBER 30, 1996
SEPTEMBER 30, 1996                                                (5/22/97)
(4/24/97)                        97-A-788 HOOPA VALLEY
                                 TRIBE, FISCAL                    97-A-854 CONFEDERATED
97-A-780 STILLAGUAMISH           YEAR ENDED                       TRIBES AND BANDS OF THE
TRIBE OF INDIANS,                SEPTEMBER 30, 1995               YAKAMA INDIAN NATION,
FISCAL YEAR ENDED                (4/24/97)                        FISCAL
SEPTEMBER 30, 1996                                                YEAR ENDED
(4/24/97)                                                         SEPTEMBER 30, 1995
                                                                  (5/22/97) **$257,562




            Semiannual Report to the Congress: April 1, 1997 - September 30, 1997          35
97-A-861 CONFEDERATED            97-A-876 LYTTON BAND OF          97-A-911 LITTLE WOUND
TRIBES OF COOS, LOWER            POMO INDIANS, FISCAL             SCHOOL BOARD, INC.,
UMPQUA, AND SIUSLAW              YEAR ENDED                       FISCAL YEAR ENDED
INDIANS, FISCAL                  DECEMBER 31, 1995                JUNE 30, 1996
YEAR ENDED                       (5/29/97)                        (6/5/97)
SEPTEMBER 30, 1995
(5/22/97)                        97-A-878 GRAND TRAVERSE          97-A-912 NORTHWEST
                                 BAND OF OTTAWA AND               INDIAN COLLEGE, FISCAL
97-A-862 KLAMATH                 CHIPPEWA INDIANS, FISCAL         YEAR ENDED JUNE 30, 1996
TRIBES, FISCAL YEAR              YEAR ENDED SEPTEMBER             (6/5/97)
ENDED DECEMBER 31, 1995          30, 1995 (5/29/97)
(5/22/97) **$18,721                                               97-A-913 RAMAH NAVAJO
                                 97-A-896 PENOBSCOT               CHAPTER, FISCAL YEAR
97-A-863 TULALIP TRIBE           INDIAN NATION, FISCAL            ENDED DECEMBER 31, 1995
OF WASHINGTON, FISCAL            YEAR ENDED                       (6/5/97)
YEAR ENDED                       SEPTEMBER 30, 1996
DECEMBER 31, 1995 (5/22/97)      (6/5/97)                         97-A-914 MODOC TRIBE OF
                                                                  OKLAHOMA, FISCAL
97-A-867 HOPI                    97-A-897 HASKELL                 YEAR ENDED
JUNIOR/SENIOR                    FOUNDATION, FISCAL YEAR          SEPTEMBER 30, 1996
HIGH SCHOOL, FISCAL              ENDED                            (6/5/97)
YEAR ENDED                       MARCH 31, 1996
JUNE 30, 1996                    (6/5/97)                         97-A-915 FIRST NATIONS
(5/22/97)                                                         COMMUNITY
                                 97-A-899 NORTHERN                HEALTHSOURCE,
97-A-869 MICCOSUKEE              ARAPAHO TRIBE OF THE             INC., FISCAL YEAR ENDED
CORPORATION, FISCAL              WIND RIVER INDIAN                SEPTEMBER 30, 1996
YEAR ENDED                       RESERVATION,                     (6/5/97)
SEPTEMBER 30, 1996               FISCAL YEAR ENDED
(5/21/97)                        DECEMBER 31, 1993                97-A-916 FOUR WINDS
                                 (6/5/97) **$17,648               ELEMENTARY SCHOOL,
97-A-870 SANTEE SIOUX                                             FISCAL YEAR ENDED
TRIBE OF NEBRASKA,               97-A-902 NORTHERN                JUNE 30, 1994
FISCAL YEAR ENDED                CHEYENNE TRIBE, FISCAL           (6/5/97)
SEPTEMBER 30, 1994               YEAR ENDED
(5/21/97)                        SEPTEMBER, 30, 1995              97-A-922 SKY PEOPLE
                                 (6/19/97)                        EDUCATION PROGRAM,
97-A-871 COLORADO RIVER                                           FISCAL YEAR ENDED
INDIAN TRIBES, FISCAL            97-A-905 BLACKFEET               SEPTEMBER 30, 1996
YEAR ENDED DECEMBER              COMMUNITY COLLEGE,               (6/12/97) **$1,683
31, 1995                         FISCAL YEAR ENDED
(5/21/97)                        SEPTEMBER 30, 1996               97-A-928 CHEYENNE-
                                 (6/5/97)                         ARAPAHO TRIBES
97-A-872 SHAKOPEE                                                 OF OKLAHOMA, FISCAL
MDEWAKANTON SIOUX                97-A-910 BARONA GROUP            YEAR ENDED
COMMUNITY, FISCAL                OF THE CAPITAN GRANDE            DECEMBER 31, 1995
YEAR ENDED                       BAND OF MISSION INDIANS,         (6/12/97)
SEPTEMBER 30, 1996               FISCAL YEAR ENDED JUNE
(5/21/97)                        30, 1996 (6/5/97)




36          Semiannual Report to the Congress: April 1, 1997 - September 30, 1997
97-A-929 KARUK TRIBE OF          97-A-952 CONFEDERATED            97-A-986 PUEBLO DE
CALIFORNIA, FISCAL               TRIBES OF THE COLVILLE           COCHITI, FISCAL YEAR
YEAR ENDED                       RESERVATION, FISCAL              ENDED DECEMBER 31, 1996
SEPTEMBER 30, 1996               YEAR ENDED                       (7/3/97) **$6,951
(6/12/97)                        SEPTEMBER 30, 1995
                                 (6/19/97) **$10,059              97-A-987 NATIVE
97-A-945 MORONGO BAND                                             AMERICAN FAMILY
OF MISSION INDIANS,              97-A-953 SANTA FE                SERVICES,
FISCAL YEAR ENDED                INDIAN SCHOOL, INC.,             INC., FISCAL YEAR ENDED
JUNE 30, 1995                    FISCAL YEAR ENDED                SEPTEMBER 30, 1996
(6/19/97)                        JUNE 30, 1996                    (7/3/97)
                                 (6/19/97)
97-A-946 CAMPO BAND OF                                            97-A-988 ROCKY BOY
MISSION INDIANS, FISCAL          97-A-956 HANNAHVILLE             HEALTH BOARD, FISCAL
YEAR ENDED                       INDIAN COMMUNITY,                YEAR ENDED
DECEMBER 31, 1996 (6/19/97)      FISCAL YEAR ENDED                SEPTEMBER 30, 1995
                                 SEPTEMBER 30, 1996               (7/3/97)
97-A-947 UNITED CROW             (6/19/97)
BAND, INC., FISCAL YEAR                                           97-A-995 APACHE TRIBE
ENDED DECEMBER 31, 1996          97-A-957 1854 AUTHORITY,         OF OKLAHOMA, FISCAL
(6/19/97)                        FISCAL YEAR ENDED                YEAR ENDED
                                 DECEMBER 31, 1996                DECEMBER 31, 1994
97-A-948 TURTLE                  (6/19/97)                        (7/10/97)
MOUNTAIN COMMUNITY
COLLEGE, FISCAL YEAR             97-A-959 KAW NATION,             97-A-996 NORTH FORK
ENDED JUNE 30, 1995              FISCAL YEAR ENDED                MONO RANCHERIA, FISCAL
(6/19/97)                        DECEMBER 31, 1995                YEAR ENDED
                                 (6/26/97) **$7,500               SEPTEMBER 30, 1996
97-A-949 TANANA CHIEFS                                            (7/10/97)
CONFERENCE, INC., FISCAL         97-A-960 BLACK MESA
YEAR ENDED                       COMMUNITY SCHOOL                 97-A-997 LOCAL INDIAN
SEPTEMBER 30, 1996               BOARD, INC., FISCAL YEAR         EDUCATION, INC.,
(6/19/97)                        ENDED JUNE 30, 1996              FISCAL YEAR ENDED
                                 (6/26/97)                        SEPTEMBER 30, 1994
97-A-950 SAN JUAN                                                 (7/10/97) **$5,688
SOUTHERN PAIUTE TRIBE,           97-A-981 ALEUTIAN/
FISCAL YEAR ENDED                PRIBILOF ISLANDS                 97-A-998 LOCAL INDIAN
SEPTEMBER 30, 1996               ASSOCIATION, INC., FISCAL        EDUCATION, INC., FISCAL
(6/19/97)                        YEAR ENDED                       YEAR ENDED
                                 SEPTEMBER 30, 1996               SEPTEMBER 30, 1995
97-A-951 LAC COURTE              (7/1/97)                         (7/10/97) **$20,017
OREILLES OJIBWA
COMMUNITY                        97-A-984 TWO FEATHERS            97-A-999 SHOALWATER
COLLEGE, INC., FISCAL            INDIAN CHILD WELFARE             BAY INDIAN TRIBE, FISCAL
YEAR ENDED JUNE 30, 1994         PROGRAM, FISCAL YEAR             YEAR ENDED SEPTEMBER
(6/19/97)                        ENDED JULY 15, 1995              30, 1996
                                 (7/3/97) **$1,331                (7/10/97)

                                 97-A-985 ELK VALLEY
                                 RANCHERIA, FISCAL YEAR
                                 ENDED DECEMBER 31, 1995
                                 (7/3/97)


            Semiannual Report to the Congress: April 1, 1997 - September 30, 1997           37
97-A-1000 NEWHALEN               97-A-1018 ST. REGIS              97-A-1054 NATIVE VILLAGE
TRIBAL COUNCIL,                  MOHAWK TRIBE, FISCAL             OF SELAWIK, FISCAL YEAR
FISCAL YEAR ENDED                YEAR ENDED                       ENDED DECEMBER 31, 1996
SEPTEMBER 30, 1996               DECEMBER 31, 1996                (7/24/97)
(7/10/97)                        (7/10/97)
                                                                  97-A-1055 QAWALANGIN
97-A-1001 KALISPEL TRIBE         97-A-1020 SEMINOLE TRIBE         TRIBE OF UNALASKA,
OF INDIANS, FISCAL               OF FLORIDA, FISCAL YEAR          FISCAL YEAR ENDED
YEAR ENDED                       ENDED JUNE 30, 1995              DECEMBER 31, 1996
SEPTEMBER 30, 1996               (7/10/97)                        (7/24/97) **$10,679
(7/10/97)
                                 97-A-1023 CHITIMACHA             97-A-1056 LEVELOCK
97-A-1002 INTER-TRIBAL           TRIBE OF LOUISIANA,              VILLAGE COUNCIL, FISCAL
COUNCIL, INC., MIAMI,            FISCAL YEAR ENDED                YEAR ENDED
OKLAHOMA, FISCAL                 DECEMBER 31, 1996                DECEMBER 31, 1996 (7/24/97)
YEAR ENDED                       (7/16/97)
SEPTEMBER 30, 1996                                                97-A-1072 CHICKEN RANCH
(7/10/97)                        97-A-1024 ONEIDA INDIAN          RANCHERIA, FISCAL YEAR
                                 NATION, FISCAL                   ENDED DECEMBER 31, 1995
97-A-1011 SAC AND FOX            YEAR ENDED                       (7/30/97)
TRIBE OF THE MISSISSIPPI         SEPTEMBER 30, 1996
IN IOWA, FISCAL                  (7/16/97)                        97-A-1073 SISSETON-
YEAR ENDED                                                        WAHPETON COMMUNITY
SEPTEMBER 30, 1996               97-A-1035 TORRES                 COLLEGE, FISCAL YEAR
(7/10/97)                        MARTINEZ DESERT                  ENDED JUNE 30, 1996
                                 CAHUILLA INDIANS, FISCAL         (7/30/97)
97-A-1012 GREAT LAKES            YEAR ENDED SEPTEMBER
INTER-TRIBAL COUNCIL,            30, 1996                         97-A-1074 QUINAULT
INC., FISCAL YEAR ENDED          (7/17/97)                        INDIAN NATION, FISCAL
JUNE 30, 1996                                                     YEAR ENDED
(7/10/97)                        97-A-1036 AGUA CALIENTE          SEPTEMBER 30, 1996
                                 DEVELOPMENT AUTHORITY            (7/30/97)
97-A-1013 WINNEBAGO              AND AFFILIATE, FISCAL
TRIBE OF NEBRASKA,               YEAR ENDED                       97-A-1075 CENTRAL
FISCAL YEAR ENDED                SEPTEMBER 30, 1996               COUNCIL, TLINGIT AND
SEPTEMBER 30, 1995               (7/17/97)                        HAIDA INDIAN TRIBES OF
(7/10/97)                                                         ALASKA, FISCAL YEAR
                                 97-A-1052 FAIRBANKS              ENDED DECEMBER 31, 1996
97-A-1014 FOND DU LAC            NATIVE ASSOCIATION,              (7/30/97)
RESERVATION, FISCAL              FISCAL YEAR ENDED
YEAR ENDED                       JUNE 30, 1996                    97-A-1076 NORTHWEST
SEPTEMBER 30, 1996               (7/24/97)                        INDIAN FISHERIES
(7/10/97)                                                         COMMISSION, FISCAL YEAR
                                 97-A-1053 LOUDEN TRIBAL          ENDED
                                 COUNCIL, FISCAL YEAR             SEPTEMBER 30, 1996
                                 ENDED DECEMBER 31, 1996          (7/30/97)
                                 (7/24/97)




38          Semiannual Report to the Congress: April 1, 1997 - September 30, 1997
97-A-1077 ALAMO NAVAJO          97-A-1092 NAVAJO AREA            97-A-1125 TESUQUE
SCHOOL BOARD, INC.,             SCHOOL BOARD                     PUEBLO, FISCAL YEAR
FISCAL YEAR ENDED               ASSOCIATION,                     ENDED DECEMBER 31, 1995
JUNE 30, 1996                   FISCAL YEAR ENDED                (8/21/97)
(7/30/97)                       SEPTEMBER 30, 1996
                                (8/7/97)                         97-A-1126 TRINIDAD
97-A-1078 LAC DU                                                 RANCHERIA, FISCAL YEAR
FLAMBEAU BAND OF LAKE           97-A-1095 RENO-SPARKS            ENDED DECEMBER 31, 1996
SUPERIOR CHIPPEWA               INDIAN COLONY, FISCAL            (8/21/97)
INDIANS, FISCAL                 YEAR ENDED
YEAR ENDED                      DECEMBER 31, 1995                97-A-1127 ZUNI PUEBLO,
SEPTEMBER 30, 1996              (8/7/97)                         FISCAL YEAR ENDED
(7/30/97)                                                        DECEMBER 31, 1995
                                97-A-1096 RENO-SPARKS            (8/21/97)
97-A-1085 TAOS PUEBLO           INDIAN COLONY, FISCAL
CENTRAL MANAGEMENT              YEAR ENDED                       97-A-1128 AMERICANS FOR
SYSTEM, FISCAL                  DECEMBER 31, 1996                INDIAN OPPORTUNITY,
YEAR ENDED                      (8/7/97)                         INC., FISCAL YEAR ENDED
DECEMBER 31, 1995                                                OCTOBER 31, 1996
(8/7/97)                        97-A-1108 ALASKA NATIVE          (8/21/97)
                                HERITAGE CENTER, INC.,
97-A-1086 SAC AND FOX           FISCAL YEAR ENDED                97-A-1129 WA HE LUT
NATION, FISCAL                  DECEMBER 31, 1996                INDIAN SCHOOL, FISCAL
YEAR ENDED                      (8/13/97)                        YEAR ENDED JUNE 30, 1996
DECEMBER 31, 1995                                                (8/21/97) **$44,740
(8/7/97)                        97-A-1114 HWAL'BAY
                                ENTERPRISES, INC., FISCAL        97-A-1130 SHINGLE
97-A-1088 KODIAK TRIBAL         YEAR ENDED                       SPRINGS RANCHERIA,
COUNCIL, FISCAL                 DECEMBER 31, 1996 (8/14/97)      FISCAL YEAR ENDED
YEAR ENDED                                                       DECEMBER 31, 1996 (8/21/97)
SEPTEMBER 30, 1995              97-A-1115 PASCUA YAQUI           **$35,535
(8/7/97)                        TRIBE OF ARIZONA, FISCAL
                                YEAR ENDED                       97-A-1131 NINILCHIK
97-A-1089 KODIAK TRIBAL         SEPTEMBER 30, 1996               TRADITIONAL COUNCIL,
COUNCIL, FISCAL                 (8/14/97)                        FISCAL YEAR ENDED
YEAR ENDED                                                       SEPTEMBER 30, 1996
SEPTEMBER 30, 1996              97-A-1116 UPPER SIOUX            (8/21/97)
(8/7/97)                        COMMUNITY, FISCAL
                                YEAR ENDED                       97-A-1132 ST. MICHAELS
97-A-1090 VALDEZ NATIVE         SEPTEMBER 30, 1994               ASSOCIATION FOR SPECIAL
TRIBE, FISCAL YEAR ENDED        (8/14/97)                        EDUCATION, INC., FISCAL
DECEMBER 31, 1996                                                YEAR ENDED
(8/7/97)                        97-A-1124 UNITED                 SEPTEMBER 30, 1996
                                VILLAGES, INC., FISCAL           (8/21/97)
97-A-1091 NATIVE VILLAGE        YEAR ENDED
OF TANANA, FISCAL               DECEMBER 31, 1996 (8/21/97)      97-A-1133 CONFEDERATED
YEAR ENDED                      **$2,421                         TRIBES OF COOS,
SEPTEMBER 30, 1996                                               LOWER UMPQUA AND
(8/7/97)                                                         SIUSLAW INDIANS,
                                                                 FISCAL YEAR ENDED
                                                                 SEPTEMBER 30, 1996
                                                                 (8/21/97)


           Semiannual Report to the Congress: April 1, 1997 - September 30, 1997          39
97-A-1138 STOCKBRIDGE             97-A-1173 IOWA TRIBE OF          97-A-1197 HOQUIAM
MUNSEE COMMUNITY,                 KANSAS AND NEBRASKA,             SCHOOL DISTRICT NO. 28,
FISCAL YEAR ENDED                 FISCAL YEAR ENDED                FISCAL YEAR ENDED
SEPTEMBER 30, 1996                DECEMBER 31, 1996                AUGUST 31, 1996
(8/21/97)                         (9/4/97)                         (9/9/97)

97-A-1139 WHITE EARTH             97-A-1174 NOOKSACK               97-A-1207 NORTHWEST
RESERVATION, FISCAL               INDIAN TRIBE, FISCAL YEAR        INTERTRIBAL COURT
YEAR ENDED                        ENDED                            SYSTEM, FISCAL
SEPTEMBER 30, 1995                DECEMBER 31, 1995                YEAR ENDED
(8/21/97)                         (9/4/97)                         SEPTEMBER 30, 1994
                                                                   (9/11/97)
97-A-1140 MOAPA BAND OF           97-A-1175 ENEMY SWIM
PAIUTES, FISCAL YEAR              DAY SCHOOL, FISCAL YEAR          97-A-1208 NORTHWEST
ENDED DECEMBER 31, 1996           ENDED                            INTERTRIBAL COURT
(8/21/97)                         SEPTEMBER 30, 1995               SYSTEM, FISCAL
                                  (9/4/97)                         YEAR ENDED
97-A-1161 THREE                                                    SEPTEMBER 30, 1995
AFFILIATED TRIBES, FISCAL         97-A-1176 AMERICAN               (9/11/97)
YEAR ENDED SEPTEMBER              INDIAN HIGHER
30, 1993 (8/28/97) **$185,956     EDUCATION                        97-A-1209 PAUMA BAND OF
                                  CONSORTIUM, FISCAL YEAR          MISSION INDIANS, FISCAL
97-A-1162 THREE                   ENDED                            YEAR ENDED
AFFILIATED TRIBES, FISCAL         SEPTEMBER 30, 1996               DECEMBER 31, 1995 (9/11/97)
YEAR ENDED SEPTEMBER              (9/4/97)
30, 1994 (8/28/97) **$249,123                                      97-A-1210 TABLE BLUFF
                                  97-A-1177 SANTA YNEZ             RESERVATION, FISCAL
97-A-1163 THREE                   BAND OF MISSION INDIANS,         YEAR ENDED
AFFILIATED TRIBES, FISCAL         FISCAL YEAR ENDED                DECEMBER 31, 1996
YEAR ENDED SEPTEMBER              SEPTEMBER 30, 1996               (9/11/97)
30, 1995 (8/28/97) **$17,890      (9/4/97)
                                                                   97-A-1211 KICKAPOO
97-A-1171 BARANOF                 97-A-1179 MENOMINEE              TRADITIONAL TRIBE OF
ISLAND HOUSING                    INDIAN TRIBE OF                  TEXAS, FISCAL
AUTHORITY,                        WISCONSIN, FISCAL                YEAR ENDED
FISCAL YEAR ENDED                 YEAR ENDED                       SEPTEMBER 30, 1995
SEPTEMBER 30, 1996                SEPTEMBER 30, 1996               (9/11/97)
(9/4/97)                          (9/4/97)
                                                                   97-A-1212 TWIN HILLS
97-A-1172 CONFEDERATED            97-A-1189 KENAITZE               VILLAGE COUNCIL, FISCAL
TRIBES OF THE CHEHALIS            INDIAN TRIBE, FISCAL YEAR        YEAR ENDED
RESERVATION,                      ENDED                            SEPTEMBER 30, 1996
FISCAL YEAR ENDED                 SEPTEMBER 30, 1996               (9/11/97)
DECEMBER 31, 1996                 (9/9/97)
(9/4/97)                                                           97-A-1213 KICKAPOO TRIBE
                                  97-A-1193 MT. ADAMS              OF OKLAHOMA, FISCAL
                                  SCHOOL DISTRICT NO. 209,         YEAR ENDED SEPTEMBER
                                  TWO FISCAL YEARS ENDED           30, 1995
                                  AUGUST 31, 1996                  (9/11/97)
                                  (9/9/97)




40           Semiannual Report to the Congress: April 1, 1997 - September 30, 1997
97-A-1214 PICAYUNE               97-A-1222 LAS VEGAS              97-A-1257 ALASKA SEA
RANCHERIA OF THE                 PAIUTE TRIBE, FISCAL YEAR        OTTER COMMISSION,
CHUKCHANSI INDIAN                ENDED                            FISCAL YEAR ENDED
TRIBE, FISCAL                    DECEMBER 31, 1996                APRIL 30, 1997
YEAR ENDED                       (9/11/97)                        (9/22/97)
OCTOBER 31, 1996
(9/11/97)                        97-A-1232 UNIVERSITY OF          97-A-1263 MARY WALKER
                                 CALIFORNIA, FISCAL YEAR          SCHOOL DISTRICT NO. 207,
97-A-1215 PONCA TRIBE OF         ENDED JUNE 30, 1996              FISCAL YEAR ENDED
OKLAHOMA, FISCAL                 (9/16/97)                        AUGUST 31, 1996
YEAR ENDED                                                        (9/22/97)
SEPTEMBER 30, 1996               97-A-1240 STONE CHILD
(9/11/97)                        COLLEGE, FISCAL                  97-A-1266 FIFE SCHOOL
                                 YEAR ENDED                       DISTRICT NO. 417, FISCAL
97-A-1216 CHEYENNE               SEPTEMBER 30, 1995               YEAR ENDED
RIVER SIOUX TRIBE, FISCAL        (9/17/97) **$1,624               AUGUST 31, 1996
YEAR ENDED SEPTEMBER                                              (9/22/97)
30, 1996                         97-A-1250 SOUTHERN UTE
(9/11/97)                        COMMUNITY ACTION                 97-A-1273 TE-MOAK TRIBE
                                 PROGRAMS, INC.,                  OF WESTERN SHOSHONE,
97-A-1217 ASSINIBOINE &          FISCAL YEAR ENDED                FISCAL YEAR ENDED
SIOUX TRIBES, FISCAL             DECEMBER 31, 1996 (9/18/97)      SEPTEMBER 30, 1996
YEAR ENDED                                                        (9/25/97)
SEPTEMBER 30, 1996               97-A-1251 CHICKEN RANCH
(9/11/97)                        RANCHERIA, FISCAL YEAR           97-A-1274 KEWEENAW BAY
                                 ENDED DECEMBER 31, 1996          INDIAN COMMUNITY,
97-A-1218 POARCH BAND            (9/18/97)                        FISCAL YEAR ENDED
OF CREEK INDIANS, FISCAL                                          SEPTEMBER 30, 1996
YEAR ENDED                       97-A-1252 SPOKANE TRIBE          (9/25/97)
DECEMBER 31, 1996 (9/11/97)      OF INDIANS, FISCAL
                                 YEAR ENDED                       97-A-1275 SHOSHONE-
97-A-1219 COUSHATTA              SEPTEMBER 30, 1995               PAIUTE TRIBES OF
TRIBE OF LOUISIANA,              (9/18/97)                        THE DUCK VALLEY INDIAN
FISCAL YEAR ENDED                                                 RESERVATION, FISCAL
DECEMBER 31, 1995                97-A-1253 CITIZEN                YEAR ENDED
(9/11/97)                        POTAWATOMI NATION,               SEPTEMBER 30, 1996
                                 FISCAL YEAR ENDED                (9/25/97)
97-A-1220 HO-CHUNK               SEPTEMBER 30, 1996
NATION, FISCAL YEAR              (9/18/97)                        97-A-1277 WHITE EARTH
ENDED JUNE 30, 1996                                               RESERVATION, FISCAL
(9/11/97)                        97-A-1255 ROUND VALLEY           YEAR ENDED
                                 INDIAN TRIBES, FISCAL            SEPTEMBER 30, 1996
97-A-1221 RED CLIFF BAND         YEAR ENDED                       (9/25/97)
OF LAKE SUPERIOR                 DECEMBER 31, 1995 (9/18/97)
CHIPPEWA INDIANS, FISCAL                                          97-A-1279 COLUMBIA
YEAR ENDED SEPTEMBER             97-A-1256 ROUND VALLEY           RIVER INTER-TRIBAL FISH
30, 1995                         INDIAN TRIBES, FISCAL            COMMISSION, FISCAL YEAR
(9/11/97)                        YEAR ENDED                       ENDED
                                 DECEMBER 31, 1996 (9/18/97)      DECEMBER 31, 1996
                                                                  (9/25/97)




            Semiannual Report to the Congress: April 1, 1997 - September 30, 1997            41
97-A-1280 SQUAXIN ISLAND        97-A-1296 SAGINAW                97-A-850 COLORADO,
TRIBE, FISCAL YEAR ENDED        CHIPPEWA INDIAN TRIBE            FISCAL YEAR ENDED
SEPTEMBER 30, 1996              OF MICHIGAN, FISCAL YEAR         JUNE 30, 1995
(9/25/97)                       ENDED                            (8/11/97)
                                SEPTEMBER 30, 1996
97-A-1281 SMITH RIVER           (9/30/97)                        97-A-940 FALLON COUNTY,
RANCHERIA, FISCAL YEAR                                           MONTANA, FISCAL YEAR
ENDED DECEMBER 31, 1996         97-A-1297 MNI-SOSE               ENDED JUNE 30, 1996
(9/25/97)                       INTERTRIBAL WATER                (6/16/97)
                                RIGHTS COALITION, INC.,
97-A-1282 NOME ESKIMO           FISCAL YEAR ENDED                97-A-941 STEVENS
COMMUNITY, FISCAL YEAR          DECEMBER 31, 1996 (9/30/97)      COUNTY, WASHINGTON,
ENDED DECEMBER 31, 1993                                          FISCAL YEAR ENDED
(9/25/97)                       97-A-1298 IN-CARE                DECEMBER 31, 1995
                                NETWORK, INC., FISCAL            (6/16/97)
97-A-1283 NOME ESKIMO           YEAR ENDED
COMMUNITY, FISCAL YEAR          DECEMBER 31, 1996 (9/30/97)      97-A-1004 CLARKE
ENDED DECEMBER 31, 1994                                          COUNTY, VIRGINIA,
(9/25/97)                       BUREAU OF LAND                   FISCAL YEAR
                                MANAGEMENT                       ENDED JUNE 30, 1996
97-A-1284 NOME ESKIMO                                            (7/10/97)
COMMUNITY, FISCAL YEAR
ENDED DECEMBER 31, 1995         97-A-732 SHERIDAN                97-A-1044 JEFFERSON
(9/25/97)                       COUNTY, MONTANA,                 COUNTY, MONTANA, TWO
                                FISCAL YEAR ENDED                FISCAL YEARS ENDED JUNE
97-A-1285 TURTLE                JUNE 30, 1996                    30, 1996
MOUNTAIN COMMUNITY              (4/9/97)                         (7/17/97)
COLLEGE, FISCAL YEAR
ENDED JUNE 30, 1996             97-A-743 KENTUCKY,               97-A-1047 DINWIDDIE
(9/25/97)                       FISCAL YEAR ENDED                COUNTY, VIRGINIA, FISCAL
                                JUNE 30, 1995                    YEAR ENDED JUNE 30, 1996
97-A-1286 OHKAY                 (4/10/97) **$139,099             (7/18/97)
OWINGEH COMMUNITY
SCHOOL, FISCAL YEAR             97-A-766 NATIONAL                97-A-1048 WARREN
ENDED JUNE 30, 1996             SCIENCE TEACHERS                 COUNTY, VIRGINIA,
(9/25/97)                       ASSOCIATION AND                  FISCAL YEAR
                                AFFILIATE, FISCAL YEAR           ENDED JUNE 30, 1996
97-A-1287 OUZINKIE              ENDED MAY 31, 1996               (7/18/97)
TRIBAL COUNCIL, FISCAL          (4/17/97)
YEAR ENDED                                                       97-A-1107 KITITAS SCHOOL
SEPTEMBER 30, 1996              97-A-846 DUBUQUE                 DISTRICT NO. 403, TWO
(9/25/97)                       COUNTY, IOWA, FISCAL             FISCAL YEARS ENDED
                                YEAR ENDED JUNE 30, 1996         AUGUST 31, 1996
97-A-1292 RURAL ALASKA          (5/21/97)                        (8/13/97)
COMMUNITY ACTION
PROGRAM, INC., AND              97-A-847 UTAH, FISCAL            97-A-1120 GALLATIN
SUBSIDIARY,                     YEAR ENDED JUNE 30, 1994         COUNTY, MONTANA,
FISCAL YEAR ENDED               (5/21/97)                        FISCAL YEAR ENDED
SEPTEMBER 30, 1996                                               JUNE 30, 1996
(9/30/97)                                                        (8/13/97)




42         Semiannual Report to the Congress: April 1, 1997 - September 30, 1997
97-A-1150 BLAND COUNTY,         97-A-1229 POTTER                 97-A-1009 WEST
VIRGINIA, FISCAL YEAR           COUNTY, SOUTH DAKOTA,            RIVER/LYMAN-JONES
ENDED JUNE 30, 1996             TWO FISCAL YEARS ENDED           RURAL WATER SYSTEMS,
(8/22/97)                       DECEMBER 31, 1996 (9/16/97)      INC., FISCAL YEAR ENDED
                                                                 DECEMBER 31, 1996
97-A-1153 GLACIER               97-A-1264 PINAL COUNTY,          (7/10/97)
COUNTY, MONTANA,                ARIZONA, FISCAL YEAR
FISCAL YEAR ENDED               ENDED JUNE 30, 1996              97-A-1010
JUNE 30, 1996                   (9/22/97)                        MARICOPA-STANFIELD
(8/22/97)                                                        IRRIGATION AND
                                97-A-1268 PIMA COUNTY,           DRAINAGE DISTRICT,
97-A-1187 LARIMER               ARIZONA, FISCAL YEAR             FISCAL YEAR ENDED
COUNTY, COLORADO,               ENDED JUNE 30, 1996              DECEMBER 31, 1996
FISCAL YEAR ENDED               (9/22/97)                        (7/10/97)
DECEMBER 31, 1996
(9/9/97)                        97-A-1288 JONES COUNTY,          97-A-1094 EAST COLUMBIA
                                SOUTH DAKOTA, FISCAL             IRRIGATION DISTRICT,
97-A-1190 JUAB COUNTY,          YEAR ENDED                       FISCAL YEAR ENDED
UTAH, FISCAL YEAR ENDED         DECEMBER 31, 1996                DECEMBER 31, 1995
DECEMBER 31, 1996               (9/30/97)                        (8/7/97)
(9/9/97)
                                BUREAU OF                        97-A-1147 LOS ANGELES
97-A-1195 DAWSON                RECLAMATION                      DEPARTMENT OF
COUNTY, MONTANA,                                                 WATER AND POWER,
FISCAL YEAR ENDED                                                FISCAL YEAR
                                97-A-728 FRIANT WATER
JUNE 30, 1996                                                    ENDED JUNE 30, 1996
                                USERS AUTHORITY, FISCAL
(9/9/97)                                                         (8/22/97)
                                YEAR ENDED
                                SEPTEMBER 30, 1996
97-A-1201 CHENEY SCHOOL         (4/10/97)                        97-A-1151 AMERICAN
DISTRICT NO. 360, FISCAL                                         FARMLAND TRUST,
YEAR ENDED                                                       FISCAL YEAR ENDED
                                97-A-785 MID-DAKOTA
AUGUST 31, 1996                                                  SEPTEMBER 30, 1996
                                RURAL WATER SYSTEM,
(9/10/97)                                                        (8/22/97)
                                INC., TWO FISCAL
                                YEARS ENDED
97-A-1203 MARICOPA              SEPTEMBER 30, 1996               97-A-1152 PASCO SCHOOL
COUNTY, ARIZONA, FISCAL         (4/24/97)                        DISTRICT NO. 1, TWO
YEAR ENDED JUNE 30, 1996                                         FISCAL YEARS ENDED
(9/10/97)                                                        AUGUST 31, 1996
                                97-A-827 OROVILLE-
                                                                 (8/22/97)
                                TONASKET IRRIGATION
97-A-1226 YAVAPAI               DISTRICT, FISCAL
COUNTY, ARIZONA, FISCAL         YEAR ENDED                       97-A-1289 EL PASO WATER
YEAR ENDED JUNE 30, 1996        DECEMBER 31, 1995                UTILITIES PUBLIC SERVICE
(9/16/97)                       (5/8/97)                         BOARD, FISCAL YEAR
                                                                 ENDED FEBRUARY 28, 1997
97-A-1227 VALLEY                97-A-877 ELSINORE
                                                                 (9/30/97)
COUNTY, MONTANA,                VALLEY MUNICIPAL WATER
FISCAL YEAR                     DISTRICT,                        97-A-1291 GRAND FORKS,
ENDED JUNE 30, 1996             FISCAL YEAR                      NORTH DAKOTA, FISCAL
(9/16/97)                       ENDED JUNE 30, 1993              YEAR ENDED
                                (5/29/97)                        DECEMBER 31, 1996
                                                                 (9/30/97)



           Semiannual Report to the Congress: April 1, 1997 - September 30, 1997          43
INSULAR AREAS                   Guam                             Republic of Palau

Commonwealth of the             97-A-684 GUAM                    97-A-795 PALAU
                                TELEPHONE                        COMMUNITY COLLEGE,
Northern
                                AUTHORITY, FISCAL                FISCAL YEAR ENDED
Mariana Islands                 YEAR ENDED                       SEPTEMBER 30, 1994
                                SEPTEMBER 30, 1996               (4/29/97)
97-A-685 KARIDAT,               (4/3/97)
FISCAL YEAR ENDED
                                                                 U.S. Virgin Islands
SEPTEMBER 30, 1992              97-A-966 UNIVERSITY OF
(4/3/97)                        GUAM, FISCAL                     97-A-1155 VIRGIN ISLANDS
                                YEAR ENDED                       PORT AUTHORITY,
97-A-773 KARIDAT,               SEPTEMBER 30, 1996               FISCAL YEAR ENDED
FISCAL YEAR ENDED               (6/25/97)                        SEPTEMBER 30, 1996
SEPTEMBER 30, 1993
                                                                 (8/25/97)
(4/21/97)                       97-A-977 GUAM HOUSING

97-A-822 PUBLIC
                                AND URBAN RENEWAL                MINERALS
                                AUTHORITY, FISCAL
SCHOOL SYSTEM,                  YEAR ENDED
                                                                 MANAGEMENT
COMMONWEALTH OF                 SEPTEMBER 30, 1995               SERVICE
THE NORTHERN MARIANA            (7/1/97)
ISLANDS, FISCAL                                                  97-A-1057 AMERICAN
YEAR ENDED
                                Republic of the Marshall         GEOPHYSICAL UNION,
SEPTEMBER 30, 1994
(5/7/97)                        Islands                          FISCAL YEAR ENDED
                                                                 DECEMBER 31, 1995 (7/24/97)

97-A-835                        97-A-721 COLLEGE OF THE
                                MARSHALL ISLANDS,                97-A-1182 NEVADA, FISCAL
COMMONWEALTH                                                     YEAR ENDED JUNE 30, 1995
DEVELOPMENT                     FISCAL YEAR ENDED
                                SEPTEMBER 30, 1993               (9/5/97)
AUTHORITY,
FISCAL YEAR ENDED               (4/10/97)
SEPTEMBER 30, 1996                                               NATIONAL
(5/13/97)                       97-A-722 COLLEGE OF THE          BIOLOGICAL
                                MARSHALL ISLANDS,                SERVICE
97-A-851 NORTHERN               FISCAL YEAR ENDED
                                SEPTEMBER 30, 1994
MARIANAS COLLEGE,                                                97-A-802 CALIFORNIA,
FISCAL YEAR ENDED               (4/10/97)
                                                                 FISCAL YEAR ENDED
SEPTEMBER 30, 1993                                               JUNE 30, 1995
(5/16/97)                       97-A-1272 REPUBLIC OF            (4/30/97)
                                THE MARSHALL ISLANDS,
97-A-1123 NORTHERN              FISCAL YEAR ENDED
                                SEPTEMBER 30, 1996               NATIONAL PARK
MARIANAS COLLEGE,
                                (9/23/97)                        SERVICE
FISCAL YEAR ENDED
SEPTEMBER 30, 1994
                                                                 97-A-688 AMERICAN
(8/20/97)
                                                                 HIKING SOCIETY, TWO
                                                                 FISCAL YEARS ENDED JUNE
                                                                 30, 1996
                                                                 (4/3/97)




44         Semiannual Report to the Congress: April 1, 1997 - September 30, 1997
97-A-690 JOHNSTOWN              97-A-807 MINNESOTA               97-A-1046 BALTIMORE,
AREA HERITAGE                   HISTORICAL SOCIETY,              MARYLAND, FISCAL
ASSOCIATION,                    FISCAL YEAR ENDED                YEAR ENDED JUNE 30, 1996
FISCAL YEAR ENDED               JUNE 30, 1996                    (7/18/97)
SEPTEMBER 30, 1996              (5/1/97)
(4/3/97)                                                         97-A-1049 UNIVERSITY OF
                                97-A-883 DELAWARE,               HAWAII, FISCAL YEAR
97-A-729 NATIONAL TRUST         FISCAL YEAR ENDED                ENDED JUNE 30, 1996
FOR HISTORIC                    JUNE 30, 1996                    (7/18/97)
PRESERVATION                    (5/30/97)
IN THE UNITED STATES,                                            97-A-1079 HISTORIC
FISCAL YEAR ENDED               97-A-898 FORD’S THEATER          WINDSOR, INC., FISCAL
SEPTEMBER 30, 1996              SOCIETY, FISCAL                  YEAR ENDED
(4/10/97)                       YEAR ENDED                       SEPTEMBER 30, 1996
                                SEPTEMBER 30, 1996               (7/30/97)
97-A-734 HARPERS FERRY,         (6/5/97)
WEST VIRGINIA, FISCAL                                            97-A-1106 BOYCE
YEAR ENDED                      97-A-900 GEORGIA TRUST           THOMPSON INSTITUTE
JUNE 30, 1995                   FOR HISTORIC                     FOR PLANT RESEARCH,
(4/9/97)                        PRESERVATION, INC.,              INC., FISCAL YEAR ENDED
                                FISCAL YEAR ENDED                DECEMBER 31, 1996 (8/13/97)
97-A-735 INDEPENDENCE,          MARCH 31, 1996
MISSOURI, FISCAL                (6/5/97)                         97-A-1146 FIELD MUSEUM
YEAR ENDED JUNE 30, 1996                                         OF NATURAL HISTORY,
(4/9/97)                        97-A-901 HISTORIC                FISCAL YEAR ENDED
                                LANDMARKS FOUNDATION             DECEMBER 31, 1996
97-A-740 JEFFERSON              OF INDIANA, INC., AND            (8/22/97)
COUNTY, KENTUCKY,               SUBSIDIARIES, FISCAL
FISCAL YEAR ENDED               YEAR ENDED                       97-A-1148 COBB COUNTY,
JUNE 30, 1996                   AUGUST 31, 1996                  GEORGIA, FISCAL
(4/9/97)                        (6/5/97)                         YEAR ENDED
                                                                 SEPTEMBER 30, 1996
97-A-768 DELTA COUNTY,          97-A-923 NATIONAL                (8/22/97)
MICHIGAN, FISCAL                CONFERENCE OF STATE
YEAR ENDED                      HISTORIC PRESERVATION            97-A-1164 ROCK HILL,
SEPTEMBER 30, 1996              OFFICERS, FISCAL YEAR            SOUTH CAROLINA,
(4/17/97)                       ENDED DECEMBER 31, 1996          FISCAL YEAR ENDED
                                (6/12/97)                        DECEMBER 31, 1996
97-A-797 FORT WORTH,                                             (8/29/97)
TEXAS, FISCAL                   97-A-980 BOISE, IDAHO,
YEAR ENDED                      FISCAL YEAR ENDED                97-A-1184 HILLSBOROUGH
SEPTEMBER 30, 1996              SEPTEMBER 30, 1996               COUNTY, FLORIDA,
(4/30/97)                       (7/1/97)                         FISCAL YEAR ENDED
                                                                 SEPTEMBER 30, 1996
97-A-806 OHIO                   97-A-1019 ILLINOIS               (9/5/97)
HISTORICAL SOCIETY,             HISTORIC PRESERVATION
FISCAL YEAR ENDED               AGENCY, TWO FISCAL               97-A-1192 MONTAGUE,
JUNE 30, 1996                   YEARS ENDED                      MASSACHUSETTS, FISCAL
(5/1/97)                        JUNE 30, 1996                    YEAR ENDED JUNE 30, 1996
                                (7/10/97)                        (9/9/97)




           Semiannual Report to the Congress: April 1, 1997 - September 30, 1997          45
97-A-1223 NATIONAL              97-A-1003 STUTSMAN               OFFICE OF SURFACE
COUNCIL FOR THE                 COUNTY, NORTH DAKOTA,            MINING
TRADITIONAL ARTS, INC.,         FISCAL YEAR ENDED
FISCAL YEAR ENDED               DECEMBER 31, 1996
                                                                 RECLAMATION AND
DECEMBER 31, 1996               (7/10/97)                        ENFORCEMENT
(9/11/97)
                                97-A-1045 UNIVERSITY OF          97-A-764 PENNSYLVANIA,
97-A-1225 LOS ANGELES,          MICHIGAN, FISCAL YEAR            FISCAL YEAR ENDED
CALIFORNIA, FISCAL              ENDED JUNE 30, 1996              JUNE 30, 1995
YEAR ENDED JUNE 30, 1996        (7/17/97)                        (5/29/97) **$1,649,246
(9/16/97)
                                97-A-1196 UNIVERSITY OF          97-A-844 ABANDONED
97-A-1238 HILLSBOROUGH          ILLINOIS, FISCAL YEAR            MINE LAND RECLAMATION
COUNTY, FLORIDA,                ENDED JUNE 30, 1996              PROGRAM OF OKLAHOMA,
FISCAL YEAR ENDED               (9/9/97)                         FISCAL YEAR
SEPTEMBER 30, 1996                                               ENDED JUNE 30, 1996
(9/16/97)                                                        (5/15/97)
                                97-A-1234 UNIVERSITY OF
                                DENVER, FISCAL YEAR
97-A-1242 NEW YORK CITY,        ENDED JUNE 30, 1996              97-A-1016 ILLINOIS
NEW YORK, FISCAL YEAR           (9/16/97)                        ABANDONED MINED LANDS
ENDED JUNE 30, 1996                                              RECLAMATION COUNCIL,
                                                                 FISCAL YEAR ENDED JUNE
(9/16/97)                       97-A-1236 GEORGE
                                                                 30, 1995 (7/10/97)
                                WASHINGTON UNIVERSITY,
97-A-1243 DETROIT,              FISCAL YEAR ENDED
MICHIGAN, FISCAL YEAR           JUNE 30, 1996                    97-A-1017 ILLINOIS
ENDED JUNE 30, 1996             (9/16/97)                        DEPARTMENT OF MINES
(9/16/97)                                                        AND MINERALS, FISCAL
                                                                 YEAR ENDED JUNE 30, 1995
                                97-A-1237 MARATHON
                                                                 (7/10/97) **$3,862
97-A-1262 CHICAGO,              COUNTY, WISCONSIN,
ILLINOIS, FISCAL YEAR           FISCAL YEAR ENDED
                                DECEMBER 31, 1996                97-A-1039 OHIO, FISCAL
ENDED DECEMBER 31, 1996                                          YEAR ENDED JUNE 30, 1996
(9/22/97)                       (9/16/97)
                                                                 (7/17/97)
97-A-1265 MINNEHAHA             97-A-1244 UNIVERSITY OF
COUNTY, SOUTH DAKOTA,           PITTSBURGH OF THE                97-A-1141 ILLINOIS
FISCAL YEAR ENDED               COMMONWEALTH SYSTEM              DEPARTMENT OF NATURAL
DECEMBER 31, 1996               OF HIGHER EDUCATION,             RESOURCES, FISCAL YEAR
(9/22/97)                       FISCAL YEAR ENDED                ENDED
                                JUNE 30, 1996                    JUNE 30, 1996
                                                                 (8/21/97)
97-A-1290 KEEPERS OF THE        (9/16/97)
TREASURES, FISCAL YEAR
ENDED DECEMBER 31, 1995         97-A-1246 WEST VIRGINIA          97-A-1239 PENNSYLVANIA,
(9/30/97)                       UNIVERSITY RESEARCH              FISCAL YEAR ENDED
                                CORPORATION, FISCAL              JUNE 30, 1996
                                                                 (9/16/97)
OFFICE OF THE                   YEAR ENDED JUNE 30, 1996
SECRETARY                       (9/16/97)

97-A-738 UNIVERSITY OF
MISSOURI SYSTEM, FISCAL
YEAR ENDED JUNE 30, 1996
(4/9/97)


46         Semiannual Report to the Congress: April 1, 1997 - September 30, 1997
U.S. BUREAU OF                  97-A-798 COLUMBUS, OHIO,         97-A-954 NEW MEXICO
MINES                           FISCAL YEAR ENDED                DEPARTMENT OF GAME
                                DECEMBER 31, 1996                AND FISH, FISCAL YEAR
97-A-767 DEPARTMENT OF          (4/30/97)                        ENDED JUNE 30, 1996
BUSINESS ECONOMIC                                                (6/19/97) **$30,740
DEVELOPMENT AND                 97-A-800 NORTH
TOURISM, HAWAII, FISCAL         THURSTON SCHOOL                  97-A-962 NEW YORK,
YEAR ENDED JUNE 30, 1995        DISTRICT NO. 3,                  FISCAL YEAR ENDED
(4/17/97)                       THURSTON COUNTY,                 MARCH 31, 1996
                                WASHINGTON, FISCAL               (6/24/97)
97-A-979 OHIO                   YEAR ENDED
                                AUGUST 31, 1996
UNIVERSITY, FISCAL YEAR                                          97-A-972 NATIONAL FISH
ENDED JUNE 30, 1996             (4/30/97)
                                                                 AND WILDLIFE
(7/1/97)                                                         FOUNDATION,
                                97-A-801 MAINE, FISCAL           FISCAL YEAR ENDED
97-A-1267 NATIONAL              YEAR ENDED JUNE 30, 1995         SEPTEMBER 30, 1996
ACADEMY OF SCIENCES,            (4/30/97)                        (6/26/97)
FISCAL YEAR ENDED
JUNE 30, 1996                   97-A-843 NATIONAL                97-A-993 VIRGINIA, FISCAL
(9/22/97)                       TROPICAL BOTANICAL               YEAR ENDED JUNE 30, 1995
                                GARDEN, FISCAL                   (8/8/97)
                                YEAR ENDED
U.S. FISH AND                   DECEMBER 31, 1995
WILDLIFE SERVICE                                                 97-A-994 MINNESOTA,
                                (5/15/97)
                                                                 FISCAL YEAR ENDED
97-A-737 DENNIS TOWN,                                            JUNE 30, 1995
                                97-A-848 WYOMING,                (7/10/97)
MASSACHUSETTS, FISCAL           FISCAL YEAR ENDED
YEAR ENDED JUNE 30, 1996        JUNE 30, 1995
(4/9/97)                                                         97-A-1005 COLUMBUS,
                                (5/21/97)
                                                                 OHIO, FISCAL YEAR ENDED
97-A-739 MODOC COUNTY,                                           DECEMBER 31, 1996
                                97-A-849 VIRGINIA, FISCAL        (7/10/97)
CALIFORNIA, FISCAL YEAR         YEAR
ENDED JUNE 30, 1996             ENDED JUNE 30, 1994
(4/9/97)                                                         97-A-1015 ILLINOIS
                                (5/16/97)
                                                                 DEPARTMENT OF
97-A-741 BOWMAN/SLOPE                                            CONSERVATION, FISCAL
                                97-A-866 KANSAS, FISCAL          YEAR ENDED JUNE 30, 1995
SOIL CONSERVATION               YEAR ENDED JUNE 30, 1996
DISTRICT, TWO                                                    (7/10/97)
                                (5/21/97)
FISCAL YEARS ENDED
DECEMBER 31, 1996                                                97-A-1041 NEBRASKA,
                                97-A-881 JUNEAU, ALASKA,         FISCAL YEAR ENDED
(4/9/97)                        FISCAL YEAR ENDED                JUNE 30, 1995
                                JUNE 30, 1996                    (7/17/97)
97-A-744 SOUTH DAKOTA,          (5/29/97)
FISCAL YEAR ENDED
JUNE 30, 1995                                                    97-A-1043 SOUTHERN
                                97-A-942 VIRGINIA, FISCAL        ILLINOIS UNIVERSITY,
(4/10/97)                       YEAR ENDED JUNE 30, 1996         FISCAL YEAR ENDED
                                (6/16/97)                        JUNE 30, 1996
97-A-765 ALASKA, FISCAL
YEAR ENDED JUNE 30, 1995                                         (7/17/97)
(5/30/97) **$1,170




           Semiannual Report to the Congress: April 1, 1997 - September 30, 1997          47
97-A-1050 UNIVERSITY OF         97-A-1143 MICHIGAN               97-A-1181 ARIZONA,
VERMONT AND STATE               DEPARTMENT OF NATURAL            FISCAL YEAR ENDED
AGRICULTURAL COLLEGE,           RESOURCES, TWO FISCAL            JUNE 30, 1993
FISCAL YEAR ENDED               YEARS ENDED SEPTEMBER            (9/5/97) **$1,314
JUNE 30, 1996                   30, 1995 (8/21/97)
(7/18/97)                                                        97-A-1183 NEBRASKA,
                                97-A-1144 MISSOURI,              FISCAL YEAR ENDED
97-A-1093 TEXAS, FISCAL         FISCAL YEAR ENDED                JUNE 30, 1996
YEAR ENDED                      JUNE 30, 1995                    (9/5/97)
AUGUST 31, 1996                 (8/21/97)
(8/7/97)                                                         97-A-1186 UNIVERSITY OF
                                97-A-1145 VERMONT,               SOUTHERN MISSISSIPPI,
97-A-1097 FLORIDA,              FISCAL YEAR ENDED                FISCAL YEAR ENDED
FISCAL YEAR ENDED               JUNE 30, 1995                    JUNE 30, 1996
JUNE 30, 1996                   (8/22/97)                        (9/9/97)
(8/7/97)
                                97-A-1149 KEYSTONE               97-A-1191 MARYLAND,
97-A-1109 WESTERN               CENTER, FISCAL YEAR              FISCAL YEAR ENDED
ILLINOIS UNIVERSITY,            ENDED JUNE 30, 1996              JUNE 30, 1996
FISCAL YEAR ENDED               (8/22/97)                        (9/9/97)
JUNE 30, 1996
(8/13/97)                       97-A-1157 NATURE                 97-A-1194 MAUI COUNTY,
                                CONSERVANCY, FISCAL              HAWAII, FISCAL YEAR
97-A-1113 INTERNATIONAL         YEAR ENDED JUNE 30, 1995         ENDED JUNE 30, 1996
CRANE FOUNDATION, INC.,         (8/26/97)                        (9/9/97)
FISCAL YEAR ENDED
DECEMBER 31, 1996               97-A-1158 WASHINGTON,            97-A-1202 NEVADA, FISCAL
(8/14/97)                       FISCAL YEAR ENDED                YEAR ENDED JUNE 30, 1996
                                JUNE 30, 1995                    (9/10/97)
97-A-1117 UTAH, FISCAL          (8/26/97)
YEAR ENDED JUNE 30, 1996                                         97-A-1204 MISSOURI,
(8/13/97)                       97-A-1159 WASHINGTON,            FISCAL YEAR ENDED
                                FISCAL YEAR                      JUNE 30, 1996
97-A-1118 NATURE                ENDED JUNE 30, 1994              (9/10/97)
CONSERVANCY, FISCAL             (8/26/97)
YEAR ENDED JUNE 30, 1996                                         97-A-1205 MINNESOTA,
(8/13/97)                       97-A-1160 JOB CORPS, TWO         FISCAL YEAR ENDED
                                FISCAL YEARS ENDED               JUNE 30, 1996
97-A-1119 HAWAII                SEPTEMBER 30, 1993               (9/10/97)
DEPARTMENT OF LAND              (9/18/97) **$86,385
AND NATURAL RESOURCES,                                           97-A-1206 SOUTH DAKOTA,
FISCAL                          97-A-1178 NEW                    FISCAL YEAR ENDED
YEAR ENDED JUNE 30, 1996        HAMPSHIRE, FISCAL YEAR           JUNE 30, 1996
(8/14/97)                       ENDED JUNE 30, 1996              (9/10/97) **$7,465
                                (9/4/97)
97-A-1142 LOUISIANA,                                             97-A-1224 NORTH DAKOTA,
FISCAL YEAR ENDED               97-A-1180 WISCONSIN,             TWO FISCAL YEARS ENDED
JUNE 30, 1996                   FISCAL YEAR ENDED                JUNE 30, 1996
(8/21/97)                       JUNE 30, 1995                    (9/17/97) **$6,450
                                (9/5/97) **$26,410




48         Semiannual Report to the Congress: April 1, 1997 - September 30, 1997
97-A-1231 WISCONSIN,             97-A-1271 TENNESSEE,             97-A-1235 FRANKLIN &
FISCAL YEAR ENDED                FISCAL YEAR ENDED                MARSHALL COLLEGE,
JUNE 30, 1996                    JUNE 30, 1996                    FISCAL YEAR ENDED
(9/16/97)                        (9/23/97)                        JUNE 30, 1996
                                                                  (9/16/97)
97-A-1233 FAULK COUNTY,          97-A-1276 PRBO, FISCAL
SOUTH DAKOTA, TWO                YEAR ENDED                       97-A-1245 COLUMBIA
FISCAL YEARS ENDED               DECEMBER 31,1996                 UNIVERSITY, FISCAL YEAR
DECEMBER 31, 1996 (9/16/97)      (9/25/97)                        ENDED JUNE 30, 1996
                                                                  (9/16/97)
97-A-1241 SOUTH                  U.S. GEOLOGICAL
CAROLINA, FISCAL YEAR            SURVEY                           INDIRECT COST
ENDED JUNE 30, 1996
(9/17/97)                                                         PROPOSALS
                                 97-A-691 THE
                                 ENVIRONMENTAL CAREERS
97-A-1247 GEORGIA,               ORGANIZATION, FISCAL             BUREAU OF INDIAN
FISCAL YEAR ENDED                YEAR ENDED DECEMBER              AFFAIRS
JUNE 30, 1995                    31, 1995
(9/17/97)                        (4/3/97)                         97-P-694 ST. REGIS
                                                                  MOHAWK TRIBE, FISCAL
97-A-1258 GRAYS HARBOR           97-A-736 SAN JOSE STATE          YEAR ENDED
CONSERVATION DISTRICT,           UNIVERSITY FOUNDATION,           DECEMBER 31, 1997
THREE FISCAL YEARS               FISCAL YEAR ENDED                (4/1/97)
ENDED DECEMBER 31, 1996          JUNE 30, 1996
(9/22/97)                        (4/9/97)                         97-P-697 INTER-TRIBAL
                                                                  COUNCIL OF MICHIGAN,
97-A-1259 MISSOURI               97-A-1111 BROWN                  INC., FISCAL YEAR ENDED
BOTANICAL GARDEN,                UNIVERSITY, FISCAL YEAR          SEPTEMBER 30, 1997
FISCAL YEAR ENDED                ENDED JUNE 30, 1996              (4/1/97)
DECEMBER 31, 1996 (9/22/97)      (8/13/97)
                                                                  97-P-699 SANTEE SIOUX
97-A-1260 NEW JERSEY,            97-A-1198 UNIVERSITY OF          TRIBE OF NEBRASKA,
FISCAL YEAR ENDED                KENTUCKY, FISCAL YEAR            FISCAL YEAR ENDED
JUNE 30, 1996                    ENDED JUNE 30, 1996              SEPTEMBER 30, 1994
(9/22/97)                        (9/9/97)                         (4/7/97)

97-A-1261 GEORGIA,               97-A-1228 ROCK COUNTY,           97-P-700 SANTEE SIOUX
FISCAL YEAR ENDED                WISCONSIN, FISCAL YEAR           TRIBE OF NEBRASKA,
JUNE 30, 1996                    ENDED DECEMBER 31, 1996          FISCAL YEAR ENDED
(9/22/97)                        (9/16/97)                        SEPTEMBER 30, 1996
                                                                  (4/7/97) *$17,500
97-A-1269 RHODE ISLAND,          97-A-1230 UNIVERSITY
FISCAL YEAR ENDED                SYSTEM OF NEW                    97-P-702 KAW NATION OF
JUNE 30, 1996                    HAMPSHIRE, FISCAL YEAR           OKLAHOMA, FISCAL YEAR
(9/22/97)                        ENDED JUNE 30, 1996              ENDED DECEMBER 31, 1996
                                 (9/16/97)                        (4/7/97)
97-A-1270 ALASKA, FISCAL
YEAR ENDED JUNE 30, 1996                                          97-P-703 SOUTHERN UTE
(9/23/97)                                                         INDIAN TRIBE, FISCAL YEAR
                                                                  ENDED
                                                                  SEPTEMBER 30, 1997
                                                                  (4/7/97) *$817

            Semiannual Report to the Congress: April 1, 1997 - September 30, 1997         49
97-P-704                        97-P-712 TEMECULA BAND           97-P-723 MECHOOPDA
YAVAPAI-PRESCOTT                OF LUISENO MISSION               INDIAN TRIBE, FISCAL YEAR
INDIAN TRIBE, FISCAL            INDIANS, PECHANGA                ENDED
YEAR ENDED                      INDIAN RESERVATION,              SEPTEMBER 30, 1996
DECEMBER 31, 1997               FISCAL YEAR ENDED                (4/9/97) *$1,097
(4/7/97)                        SEPTEMBER 30, 1997
                                (4/8/97)                         97-P-724 MECHOOPDA
97-P-705 UPPER SKAGIT                                            INDIAN TRIBE, FISCAL YEAR
INDIAN TRIBE, FISCAL            97-P-713 BEAR RIVER              ENDED
YEAR ENDED                      BAND OF THE                      SEPTEMBER 30, 1997
DECEMBER 31, 1995               ROHNERVILLE                      (4/9/97) *$1,202
(4/7/97)                        RANCHERIA, FISCAL
                                YEAR ENDED                       97-P-725 SHINGLE
97-P-706 UPPER SKAGIT           SEPTEMBER 30, 1997               SPRINGS RANCHERIA,
INDIAN TRIBE, FISCAL            (4/8/97)                         FISCAL YEAR ENDED
YEAR ENDED                                                       DECEMBER 31, 1997 (4/10/97)
DECEMBER 31, 1996               97-P-714 REDWOOD                 *$2,205
(4/7/97)                        VALLEY LITTLE RIVER
                                BAND OF POMO                     97-P-745 COLUMBIA RIVER
97-P-707 SANTA ANA              INDIANS, FISCAL YEAR             INTER-TRIBAL FISH
PUEBLO, FISCAL                  ENDED DECEMBER 31, 1997          COMMISSION, FISCAL YEAR
YEAR ENDED                      (4/8/97)                         ENDED
SEPTEMBER 30, 1996                                               DECEMBER 31, 1997
(4/8/97) *$7,488                97-P-715 NEZ PERCE               (4/14/97)
                                TRIBE, FISCAL
97-P-708 SANTA ANA              YEAR ENDED
                                                                 97-P-746 SEMINOLE
PUEBLO, FISCAL                  SEPTEMBER 30, 1997
                                                                 NATION OF OKLAHOMA,
YEAR ENDED                      (4/8/97) *$220,127
                                                                 FISCAL YEAR ENDED
SEPTEMBER 30, 1995
                                                                 SEPTEMBER 30, 1996
(4/8/97) *$9,603                97-P-716 COEUR D’ALENE           (4/15/97)
                                TRIBE, FISCAL
97-P-709 PINOLEVILLE            YEAR ENDED
                                                                 97-P-747 SEMINOLE
INDIAN RESERVATION,             SEPTEMBER 30, 1997
                                                                 NATION OF OKLAHOMA,
FISCAL YEAR ENDED               (4/8/97) *$15,128
                                                                 FISCAL YEAR ENDED
DECEMBER 31, 1997
                                                                 SEPTEMBER 30, 1997
(4/8/97) *$995                  97-P-717                         (4/15/97)
                                STOCKBRIDGE-MUNSEE
97-P-710 WALKER RIVER           COMMUNITY, FISCAL
                                                                 97-P-760 SAN JUAN
PAIUTE TRIBE, FISCAL            YEAR ENDED
                                                                 PUEBLO, FISCAL YEAR
YEAR ENDED                      SEPTEMBER 30, 1997
                                                                 ENDED DECEMBER 31, 1997
DECEMBER 31, 1997               (4/8/97)
                                                                 (4/16/97) *$102,465
(4/8/97) *$14,965
                                97-P-718 LAC COURTE
                                                                 97-P-770 SAC & FOX
97-P-711 COAST INDIAN           OREILLES TRIBAL
                                                                 TRIBE OF THE MISSISSIPPI
COMMUNITY OF THE                GOVERNING BOARD,
                                                                 IN IOWA, FISCAL
RESIGHINI RANCHERIA,            FISCAL YEAR ENDED
                                                                 YEAR ENDED
FISCAL YEAR ENDED               SEPTEMBER 30, 1997
                                                                 SEPTEMBER 30, 1997
DECEMBER 31, 1997               (4/8/97)
                                                                 (4/22/97)
(4/8/97)




50         Semiannual Report to the Congress: April 1, 1997 - September 30, 1997
97-P-774                        97-P-796 FOND DU LAC             97-P-816 PICAYUNE
SISSETON-WAHPETON               RESERVATION,                     RANCHERIA OF THE
SIOUX TRIBE, FISCAL YEAR        FISCAL YEAR ENDED                CHUKCHANSI RANCHERIA,
ENDED                           SEPTEMBER 30, 1997               FISCAL YEAR ENDED
SEPTEMBER 30, 1997              (4/30/97)                        OCTOBER 31, 1997
(4/22/97) *$115,647                                              (5/5/97) *$3,912
                                97-P-805 SOKAOGON
97-P-775 CHITIMACHA             CHIPPEWA COMMUNITY,              97-P-818 BATTLE
TRIBE OF LOUISIANA,             FISCAL YEAR ENDED                MOUNTAIN BAND COUNCIL
FISCAL YEAR ENDED               SEPTEMBER 30, 1996               (TE-MOAK SHOSHONE
DECEMBER 31, 1997               (4/30/97)                        TRIBE), FISCAL
(4/22/97)                                                        YEAR ENDED
                                97-P-808 HANNAHVILLE             SEPTEMBER 30, 1997
97-P-789 NOOKSACK               INDIAN COMMUNITY,                (5/5/97) *$1,406
INDIAN TRIBE, FISCAL            FISCAL YEAR ENDED
YEAR ENDED                      SEPTEMBER 30, 1997               97-P-819 SHOSHONE AND
DECEMBER 31, 1994               (5/1/97)                         ARAPAHO JOINT
(4/24/97) *$76,976                                               PROGRAMS, FISCAL YEAR
                                97-P-809 CHISTOCHINA             ENDED DECEMBER 31, 1996
97-P-790 NOOKSACK               VILLAGE COUNCIL,                 (5/5/97)
INDIAN TRIBE, FISCAL            FISCAL YEAR ENDED
YEAR ENDED                      DECEMBER 31, 1998                97-P-820 TONKAWA TRIBE
DECEMBER 31, 1996               (5/2/97)                         OF OKLAHOMA,
(4/24/97) *$137,756                                              FISCAL YEAR ENDED
                                97-P-810 CHISTOCHINA             SEPTEMBER 30, 1995
97-P-791 HOULTON BAND           VILLAGE COUNCIL,                 (5/5/97)
OF MALISEET INDIANS,            FISCAL YEAR ENDED
FISCAL YEAR ENDED               DECEMBER 31, 1997                97-P-821 MAINE INDIAN
SEPTEMBER 30, 1996              (5/2/97)                         EDUCATION, FISCAL YEAR
(4/25/97)                                                        ENDED JUNE 30, 1997
                                97-P-811 CHISTOCHINA             (5/6/97)
97-P-792 SAN FELIPE             VILLAGE COUNCIL,
PUEBLO, FISCAL YEAR             FISCAL YEAR ENDED                97-P-823 PLEASANT POINT
ENDED DECEMBER 31, 1995         DECEMBER 31,1996                 PASSAMAQUODDY TRIBAL
(4/29/97)                       (5/2/97)                         COUNCIL, FISCAL
                                                                 YEAR ENDED
97-P-793 SAN FELIPE             97-P-812 CHISTOCHINA             SEPTEMBER 30, 1994
PUEBLO, FISCAL YEAR             VILLAGE COUNCIL,                 (4/14/97)
ENDED DECEMBER 31, 1996         FISCAL YEAR ENDED
(4/29/97)                       DECEMBER 31, 1995                97-P-824 PLEASANT POINT
                                (5/2/97)                         PASSAMAQUODDY TRIBAL
97-P-794                                                         COUNCIL, FISCAL
SHOSHONE-BANNOCK                97-P-813 CHISTOCHINA             YEAR ENDED
TRIBAL SCHOOL, FISCAL           VILLAGE COUNCIL,                 SEPTEMBER 30, 1995
YEAR ENDED JUNE 30, 1997        FISCAL YEAR ENDED                (4/16/97)
(4/29/97) *$111,767             DECEMBER 31, 1994
                                (5/2/97)                         97-P-825 MENOMINEE
                                                                 TRIBAL ENTERPRISES,
                                                                 FISCAL YEAR ENDED
                                                                 SEPTEMBER 30, 1997
                                                                 (5/8/97)



           Semiannual Report to the Congress: April 1, 1997 - September 30, 1997       51
97-P-826 APACHE TRIBE           97-P-857 MENOMINEE               97-P-887 KIALEGEE
OF OKLAHOMA, FISCAL             INDIAN TRIBE OF                  TRIBAL TOWN OF
YEAR ENDED                      WISCONSIN, FISCAL                OKLAHOMA,
DECEMBER 31, 1997               YEAR ENDED                       FISCAL YEAR ENDED
(5/8/97)                        SEPTEMBER 30, 1997               SEPTEMBER 30, 1997
                                (5/20/97)                        (5/30/97) *$7,500
97-P-829 OWENS VALLEY
INDIAN WATER                    97-P-858 POARCH BAND OF          97-P-888 MISSISSIPPI
COMMISSION,                     CREEK INDIANS, FISCAL            BAND OF CHOCTAW
FISCAL YEAR ENDED               YEAR ENDED                       INDIANS, FISCAL
JUNE 30, 1997                   DECEMBER 31, 1997 (5/20/97)      YEAR ENDED
(5/9/97)                                                         SEPTEMBER 30, 1996
                                97-P-859 POKAGON BAND            (5/30/97)
97-P-830 LYTTON                 OF POTAWATOMI INDIANS,
RANCHERIA, FISCAL YEAR          FISCAL YEAR ENDED                97-P-889 ROCK POINT
ENDED DECEMBER 31, 1997         DECEMBER 31, 1997                COMMUNITY SCHOOL,
(5/9/97)                        (5/20/97)                        FISCAL YEAR ENDED
                                                                 JUNE 30, 1998
97-P-832 COQUILLE               97-P-860 CONFEDERATED            (6/3/97)
INDIAN TRIBE, FISCAL            SALISH AND KOOTENAI
YEAR ENDED                      TRIBES, FISCAL                   97-P-890 STANDING ROCK
DECEMBER 31, 1997               YEAR ENDED                       SIOUX TRIBE, FISCAL
(5/9/97) *$7,557                SEPTEMBER 30, 1997               YEAR ENDED
                                (5/20/97)                        SEPTEMBER 30, 1997
97-P-833 SAN PASQUAL                                             (6/3/97)
BAND OF MISSION INDIANS,        97-P-868 MUSCOGEE
FISCAL                          (CREEK) NATION DIVISION          97-P-892 ELY SHOSHONE
YEAR ENDED                      OF HEALTH                        TRIBE, FISCAL
DECEMBER 31, 1994               ADMINISTRATION,                  YEAR ENDED
(5/9/97)                        FISCAL YEAR ENDED                DECEMBER 31, 1997
                                SEPTEMBER 30, 1997               (6/3/97) *$44,239
97-P-839 REDDING                (5/22/97)
RANCHERIA, FISCAL YEAR                                           97-P-894 ROUND VALLEY
ENDED DECEMBER 31, 1997         97-P-873 ALABAMA                 INDIAN HEALTH CENTER,
(5/13/97) *$31,131              COUSHATTA INDIAN                 FISCAL YEAR ENDED
                                RESERVATION, FISCAL              JUNE 30, 1997
97-P-840 LUMMI INDIAN           YEAR ENDED                       (6/3/97)
BUSINESS COUNCIL, FISCAL        DECEMBER 31, 1997
YEAR ENDED DECEMBER             (5/23/97)                        97-P-895 ROUND VALLEY
31, 1997 (5/13/97)                                               INDIAN HEALTH CENTER,
                                97-P-886 LOWER BRULE             FISCAL YEAR ENDED
97-P-841 YERRINGTON             SIOUX TRIBE, FISCAL              JUNE 30, 1998
PAIUTE TRIBE, FISCAL            YEAR ENDED                       (6/3/97)
YEAR ENDED                      SEPTEMBER 30, 1996
DECEMBER 31, 1997               (5/30/97) *$77,005               97-P-904 OGLALA LAKOTA
(5/13/97) *$10,587                                               COLLEGE, FISCAL
                                                                 YEAR ENDED
                                                                 SEPTEMBER 30, 1997
                                                                 (6/5/97) *$5,768




52         Semiannual Report to the Congress: April 1, 1997 - September 30, 1997
97-P-909 STANDING ROCK          97-P-958 NOTTAWASEPPI            97-P-990 HUALAPAI
SIOUX TRIBE, FISCAL             HURON BAND OF                    NATION, FISCAL
YEAR ENDED                      POTAWATOMI,                      YEAR ENDED
SEPTEMBER 30, 1995              FISCAL YEAR ENDED                DECEMBER 31, 1997
(6/5/97)                        OCTOBER 31, 1997                 (7/8/97)
                                (6/24/97)
97-P-918 MILLE LACS                                              97-P-992 CABAZON BAND
BAND OF CHIPPEWA                97-P-964 CLOVERDALE              OF MISSION INDIANS,
INDIANS, FISCAL                 RANCHERIA OF POMO                FISCAL YEAR ENDED
YEAR ENDED                      INDIANS, FISCAL YEAR             JUNE 30, 1997
SEPTEMBER 30, 1997              ENDED DECEMBER 31, 1997          (7/8/97) *$235,288
(6/9/97)                        (6/24/97)
                                                                 97-P-1006 MAKAH TRIBAL
97-P-919 FORT BIDWELL           97-P-965 CONFEDERATED            COUNCIL, FISCAL
INDIAN COMMUNITY,               TRIBES OF SILETZ INDIANS         YEAR ENDED
FISCAL YEAR ENDED               OF OREGON, FISCAL YEAR           SEPTEMBER 30, 1998
SEPTEMBER 30, 1994              ENDED DECEMBER 31, 1997          (7/10/97)
(6/10/97)                       (6/24/97)
                                                                 97-P-1021 NISQUALLY
97-P-920 FORT BIDWELL           97-P-969 CHUSKA SCHOOL           INDIAN TRIBE, FISCAL YEAR
INDIAN COMMUNITY,               BOARD OF EDUCATION,              ENDED
FISCAL YEAR ENDED               INC., FISCAL YEAR ENDED          DECEMBER 31, 1997
SEPTEMBER 30, 1996              SEPTEMBER 30, 1997               (7/10/97) *$105,537
(6/10/97) *$11,102              (6/25/97) *$22,281
                                                                 97-P-1025 KLAMATH
97-P-924 MASHANTUCKET           97-P-970 CHUSKA SCHOOL           TRIBAL HEALTH AND
PEQUOT TRIBE, FISCAL            BOARD OF EDUCATION,              FAMILY SERVICES, FISCAL
YEAR ENDED                      INC., FISCAL YEAR ENDED          YEAR ENDED
SEPTEMBER 30, 1995              SEPTEMBER 30, 1998               DECEMBER 31, 1994
(6/11/97)                       (6/25/97) *$22,281               (7/14/97)

97-P-925 MASHANTUCKET           97-P-976 HOH INDIAN              97-P-1026 KLAMATH
PEQUOT TRIBAL NATION,           TRIBE, FISCAL                    TRIBAL HEALTH AND
FISCAL YEAR ENDED               YEAR ENDED                       FAMILY SERVICES, FISCAL
SEPTEMBER 30, 1997              SEPTEMBER 30, 1997               YEAR ENDED
(6/11/97)                       (6/30/97)                        DECEMBER 31, 1996
                                                                 (7/14/97) *$2,256
97-P-943 FORT SILL              97-P-983 LAS VEGAS
APACHE TRIBE OF                 PAIUTE TRIBE, FISCAL YEAR        97-P-1027 WYANDOTTE
OKLAHOMA,                       ENDED                            TRIBE OF OKLAHOMA,
FISCAL YEAR ENDED               DECEMBER 31, 1996                FISCAL YEAR ENDED
DECEMBER 31, 1997               (7/1/97) *$112,594               SEPTEMBER 30, 1998
(6/16/97) *$7,170                                                (7/14/97)
                                97-P-989 OSAGE NATION,
97-P-955 NATIVE VILLAGE         FISCAL YEAR ENDED                97-P-1028 ALBUQUERQUE
OF BARROW, FISCAL YEAR          SEPTEMBER 30, 1997               AREA INDIAN HEALTH
ENDED DECEMBER 31, 1997         (7/8/97) *$74,243                BOARD, INC., FISCAL
(6/19/97) *$17,687                                               YEAR ENDED
                                                                 SEPTEMBER 30, 1997
                                                                 (7/14/97)




           Semiannual Report to the Congress: April 1, 1997 - September 30, 1997          53
97-P-1030 KWIGILLINGOK           97-P-1065 OGLALA SIOUX           97-P-1083 BAY MILLS
NATIVE COUNCIL, FISCAL           TRIBE, FISCAL                    INDIAN COMMUNITY,
YEAR ENDED                       YEAR ENDED                       FISCAL YEAR ENDED
DECEMBER 31, 1997 (7/14/97)      DECEMBER 31, 1997                DECEMBER 31, 1997
                                 (7/25/97) *$40,001               (8/6/97)
97-P-1031 SAULT STE.
MARIE TRIBE OF CHIPPEWA          97-P-1067 NORTHERN               97-P-1101 RENO-SPARKS
INDIANS, FISCAL YEAR             CHEYENNE TRIBE, INC.,            INDIAN COLONY,
ENDED DECEMBER 31, 1997          FISCAL YEAR ENDED                FISCAL YEAR ENDED
(7/15/97)                        SEPTEMBER 30, 1995               DECEMBER 31, 1997 (8/11/97)
                                 (7/29/97)                        *$70,615
97-P-1032 KEWEENAW BAY
INDIAN COMMUNITY,                97-P-1068 NORTHERN               97-P-1102 RENO-SPARKS
FISCAL YEAR ENDED                CHEYENNE TRIBE, INC.,            INDIAN COLONY, FISCAL
SEPTEMBER 30, 1997               FISCAL YEAR ENDED                YEAR ENDED
(7/15/97)                        SEPTEMBER 30, 1997               DECEMBER 31, 1995 (8/11/97)
                                 (7/29/97) *$9,424                *$31,759
97-P-1033 PENOBSCOT
INDIAN NATION, FISCAL            97-P-1069 ALL INDIAN             97-P-1103 SHOALWATER
YEAR ENDED                       PUEBLO COUNCIL, INC.,            BAY INDIAN TRIBE,
SEPTEMBER 30, 1997               FISCAL YEAR ENDED                FISCAL YEAR ENDED
(7/15/97)                        JUNE 30, 1997                    SEPTEMBER 30, 1997
                                 (7/29/97) *$143,098              (8/12/97) *$57,508
97-P-1034 FOREST COUNTY
POTAWATOMI                       97-P-1070 ALL INDIAN             97-P-1121 HOPI TRIBE,
COMMUNITY,                       PUEBLO COUNCIL, INC.,            FISCAL YEAR ENDED
FISCAL YEAR ENDED                FISCAL YEAR ENDED                NOVEMBER 30, 1997
SEPTEMBER 30, 1997               JUNE 30, 1998                    (8/19/97)
(7/15/97)                        (7/29/97) *$132,310
                                                                  97-P-1122 SHERWOOD
97-P-1061 UPPER SIOUX            97-P-1071 CONFEDERATED           VALLEY RANCHERIA,
COMMUNITY, FISCAL                TRIBES OF THE COLVILLE           FISCAL YEAR ENDED
YEAR ENDED                       RESERVATION, FISCAL              OCTOBER 31, 1997
SEPTEMBER 30, 1994               YEAR ENDED                       (8/19/97)
(7/25/97)                        SEPTEMBER 30, 1997
                                 (7/29/97) *$464,329              97-P-1134 DELAWARE
97-P-1063 QUILEUTE                                                TRIBE OF WESTERN
TRIBAL SCHOOL, FISCAL            97-P-1080 1854                   OKLAHOMA, FISCAL
YEAR ENDED JUNE 30, 1997         AUTHORITY, FISCAL YEAR           YEAR ENDED
(7/25/97)                        ENDED DECEMBER 31, 1998          SEPTEMBER 30, 1997
                                 (8/1/97)                         (8/20/97)
97-P-1064 OGLALA SIOUX
TRIBE, FISCAL YEAR ENDED         97-P-1081 SAC & FOX              97-P-1136 THREE
DECEMBER 31, 1995                TRIBE OF THE MISSISSIPPI         AFFILIATED TRIBES, FISCAL
(7/25/97)                        IN IOWA, FISCAL                  YEAR ENDED SEPTEMBER
                                 YEAR ENDED                       30, 1995 (8/20/97)
                                 SEPTEMBER 30, 1998
                                 (8/1/97)




54          Semiannual Report to the Congress: April 1, 1997 - September 30, 1997
97-P-1137 THREE                   Guam                             97-P-817 OREGON
AFFILIATED TRIBES, FISCAL                                          DEPARTMENT OF GEOLOGY
YEAR ENDED SEPTEMBER              97-P-1170 UNIVERSITY OF          AND
39, 1997 (8/20/97) *$241,431      GUAM, FISCAL                     MINERAL INDUSTRIES,
                                  YEAR ENDED                       FISCAL YEAR ENDED
97-P-1154 JEMEZ PUEBLO,           SEPTEMBER 30, 1998               JUNE 30, 1998
FISCAL YEAR ENDED                                                  (5/5/97)
                                  (9/3/97)
SEPTEMBER 30, 1998
(8/22/97)                                                          97-P-831 CALIFORNIA
                                  Republic of Palau                DEPARTMENT OF PARKS
BUREAU OF                         97-P-1165 REPUBLIC OF
                                                                   AND RECREATION,
RECLAMATION                                                        FISCAL YEAR ENDED
                                  PALAU, FISCAL                    JUNE 30, 1998
                                  YEAR ENDED                       (5/9/97)
97-P-893 NORTH DAKOTA             SEPTEMBER 30, 1997
WATER COMMISSION,                 (9/2/97)
FISCAL YEAR ENDED                                                  97-P-852 WASHINGTON
JUNE 30, 1998                                                      DEPARTMENT OF
                                  U.S. Virgin Islands              ECOLOGY, FISCAL YEAR
(6/3/97)
                                                                   ENDED JUNE 30, 1998
                                  97-P-776 CENTRAL                 (5/19/97) *$57,909
INSULAR AREAS                     SERVICE COST
                                  ALLOCATION PLAN,                 97-P-884 OREGON
Commonwealth of the               GOVERNMENT OF THE                DEPARTMENT OF FISH AND
Northern                          VIRGIN ISLANDS, FISCAL           WILDLIFE, FISCAL YEAR
                                  YEAR ENDED
Mariana Islands                                                    ENDED JUNE 30, 1998
                                  SEPTEMBER 30, 1999               (5/30/97) *$231,100
                                  (4/22/97)
97-P-1066
COMMONWEALTH                                                       97-P-891 IDAHO
                                  97-P-938 DEPARTMENT OF           DEPARTMENT OF WATER
OF THE NORTHERN
                                  HEALTH, GOVERNMENT OF            RESOURCES, FISCAL YEAR
MARIANA ISLANDS
                                  THE VIRGIN ISLANDS,              ENDED JUNE 30, 1998
PUBLIC SCHOOL
                                  FISCAL YEAR ENDED                (6/3/97)
SYSTEM, FISCAL
                                  SEPTEMBER 30, 1999
YEAR ENDED
                                  (6/10/97)                        97-P-903 CALIFORNIA
SEPTEMBER 30, 1998
(7/17/97) *$25,070                                                 DEPARTMENT OF WATER
                                  97-P-939 DEPARTMENT OF           RESOURCES, FISCAL YEAR
                                  JUSTICE, GOVERNMENT OF           ENDED JUNE 30, 1997
97-P-1185
                                  THE VIRGIN ISLANDS,              (6/5/97)
COMMONWEALTH
                                  FISCAL YEAR ENDED
OF THE NORTHERN
                                  SEPTEMBER 30, 1999               97-P-935 UTAH
MARIANA ISLANDS,
                                  (6/9/97)                         DEPARTMENT OF NATURAL
INDIRECT COST
PROPOSAL, FISCAL                                                   RESOURCES-GEOLOGICAL
YEAR ENDED                        MULTI-OFFICE                     SURVEY, FISCAL YEAR
SEPTEMBER 30, 1998                                                 ENDED JUNE 30, 1997
(9/9/97) *$88,700                 97-P-772 HAWAII                  (6/12/97)
                                  DEPARTMENT OF LAND
                                  AND NATURAL RESOURCES,           97-P-963 MONTANA
                                  FISCAL                           HISTORICAL SOCIETY,
                                  YEAR ENDED JUNE 30, 1998         FISCAL YEAR ENDED
                                  (4/21/97)                        JUNE 30, 1998
                                                                   (6/24/97)



             Semiannual Report to the Congress: April 1, 1997 - September 30, 1997        55
97-P-991 NEVADA                 97-P-742 GEORGIA                 97-P-982 MINNESOTA
DIVISION OF                     DEPARTMENT OF NATURAL            HISTORICAL SOCIETY,
ENVIRONMENTAL                   RESOURCES, FISCAL YEAR           FISCAL YEAR ENDED
PROTECTION, FISCAL YEAR         ENDED JUNE 30, 1997              JUNE 30, 1998
ENDED JUNE 30, 1998             (4/10/97)                        (7/1/97)
(7/8/97) *$125,089
                                97-P-856 NEW MEXICO              97-P-1098 OHIO
97-P-1007 ARIZONA GAME          DEPARTMENT OF ENERGY,            HISTORICAL SOCIETY,
AND FISH DEPARTMENT,            MINERALS AND NATURAL             FISCAL YEAR ENDED
FISCAL YEAR ENDED               RESOURCES, FISCAL YEAR           JUNE 30, 1998
JUNE 30, 1998                   ENDED JUNE 30, 1998              (8/7/97)
(7/10/97)                       (5/20/97) *$828,440
                                                                 97-P-1105 VIRGINIA
97-P-1008 ALASKA                97-P-885 MISSOURI                DEPARTMENT OF HISTORIC
DEPARTMENT OF FISH AND          DEPARTMENT OF NATURAL            RESOURCES, FISCAL YEAR
GAME, FISCAL YEAR ENDED         RESOURCES, FISCAL YEAR           ENDED JUNE 30, 1998
JUNE 30, 1998 (7/10/97)         ENDED                            (8/13/97)
                                JUNE 30, 1998
97-P-1022 MONTANA               (5/30/97)                        97-P-1248 PENNSYLVANIA
DEPARTMENT OF NATURAL                                            HISTORICAL AND MUSEUM
RESOURCES AND                   97-P-933 KANSAS                  COMMISSION, FISCAL YEAR
CONSERVATION, FISCAL            HISTORICAL SOCIETY,              ENDED JUNE 30, 1998
YEAR ENDED JUNE 30, 1998        FISCAL YEAR ENDED                (9/17/97)
(7/10/97) *$940                 JUNE 30, 1998
                                (6/12/97)                        97-P-1278 SOUTH
97-P-1029 UTAH                                                   CAROLINA DEPARTMENT
DEPARTMENT OF NATURAL           97-P-934 COLORADO                OF ARCHIVES AND
RESOURCES, DIVISION OF          HISTORICAL SOCIETY,              HISTORY, FISCAL YEAR
WILDLIFE, FISCAL YEAR           FISCAL YEAR ENDED                ENDED JUNE 30, 1998
ENDED                           JUNE 30, 1998                    (9/24/97)
JUNE 30, 1998                   (6/12/97)
(7/14/97)                                                        OFFICE OF SURFACE
                                97-P-968 WISCONSIN               MINING
97-P-1188 IDAHO FISH AND        STATE HISTORICAL
GAME, FISCAL YEAR ENDED         SOCIETY, FISCAL YEAR             RECLAMATION AND
JUNE 30, 1998 (9/9/97)          ENDED JUNE 30, 1998              ENFORCEMENT
                                (6/25/97)
NATIONAL PARK                                                    97-P-967 VIRGINIA
SERVICE                         97-P-973 MISSISSIPPI             DEPARTMENT OF MINES,
                                DEPARTMENT OF ARCHIVES           MINERALS, AND ENERGY,
                                AND HISTORY, FISCAL              FISCAL YEAR ENDED
97-P-701 WYOMING                                                 JUNE 30, 1998
DEPARTMENT OF                   YEAR ENDED
                                JUNE 30, 1998                    (6/25/97)
COMMERCE, FISCAL YEAR
ENDED JUNE 30, 1998             (6/27/97)
                                                                 97-P-1060 TEXAS
(4/7/97)
                                97-P-975 MICHIGAN                RAILROAD COMMISSION,
                                DEPARTMENT OF STATE,             FISCAL YEAR ENDED
                                FISCAL YEAR ENDED                AUGUST 31, 1998
                                SEPTEMBER 30, 1998               (7/24/97)
                                (6/30/97)




56         Semiannual Report to the Congress: April 1, 1997 - September 30, 1997
97-P-1110 VIRGINIA              97-P-926 MICHIGAN
DEPARTMENT OF                   DEPARTMENT OF NATURAL
CONSERVATION AND                RESOURCES, FISCAL YEAR
RECREATION, FISCAL YEAR         ENDED SEPTEMBER 30, 1997
ENDED JUNE 30, 1998             (6/11/97)
(8/13/97)
                                97-P-944 ARKANSAS GAME
U.S. FISH AND                   AND FISH COMMISSION,
WILDLIFE SERVICE                FISCAL YEAR ENDED
                                JUNE 30, 1998
97-P-695 ATLANTIC               (6/19/97)
STATES MARINE FISHERIES
COMMISSION, TWO FISCAL          97-P-1037 MARYLAND
YEARS ENDED                     DEPARTMENT OF NATURAL
JUNE 30, 1996                   RESOURCES, FISCAL YEAR
(4/4/97)                        ENDED JUNE 30, 1997
                                (7/16/97)
97-P-696 PENNSYLVANIA
FISH AND BOAT                   97-P-1038 PENNSYLVANIA
COMMISSION, FISCAL YEAR         GAME COMMISSION, FISCAL
ENDED                           YEAR ENDED
JUNE 30, 1998                   JUNE 30, 1996
(4/4/97)                        (7/16/97)

97-P-698 MISSOURI               97-P-1135 LOUISIANA
DEPARTMENT OF                   DEPARTMENT OF WILDLIFE
CONSERVATION, FISCAL            AND FISHERIES, FISCAL
YEAR ENDED JUNE 30, 1998        YEAR ENDED
(4/7/97)                        JUNE 30, 1998
                                (8/20/97) *$60,401
97-P-855 SOUTH DAKOTA
DEPARTMENT OF GAME,             97-P-1249 MISSISSIPPI
FISH AND PARKS, FISCAL          DEPARTMENT OF WILDLIFE,
YEAR ENDED JUNE 30, 1998        FISHERIES AND PARKS,
(5/20/97)                       FISCAL YEAR ENDED JUNE
                                30, 1998 (9/17/97)
97-P-864 NORTH CAROLINA
WILDLIFE RESOURCES              U.S. GEOLOGICAL
COMMISSION, FISCAL YEAR         SURVEY
ENDED
JUNE 30, 1997                   97-P-974 GEOLOGICAL
(5/21/97)                       SURVEY OF ALABAMA’S
                                STATE OIL AND GAS
97-P-921 MICHIGAN               BOARD, FISCAL
DEPARTMENT OF                   YEAR ENDED
ENVIRONMENTAL                   SEPTEMBER 30, 1998
QUALITY, FISCAL                 (6/30/97)
YEAR ENDED
JUNE 30, 1997
(6/10/97)




           Semiannual Report to the Congress: April 1, 1997 - September 30, 1997   57
                                                APPENDIX 3

               MONETARY IMPACT OF AUDIT ACTIVITIES FROM
                APRIL 1, 1997, THROUGH SEPTEMBER 30, 1997
                                                         FUNDS TO
                                 QUESTIONED              BE PUT TO
                                   COSTS                BETTER USE*         REVENUES**     TOTAL
ACTIVITY

 Bureau of Indian
 Affairs                                 1,214,217              2,867,059             0    $4,081,274

 Bureau of Land
 Management                                139,099                      0             0      139,099

 Bureau of Reclamation                             0              691,702             0      691,702

 Insular Areas: ***
     - Commonwealth of
       the Northern
       Mariana Islands                             0              113,770             0      113,770
     - Guam                                                   11,308,541         490,000   11,798,541

 Minerals Management
 Service                                                        3,216,049                   3,216,049

 Mult-Office                                       0              415,038             0      415,038

National Park Service                      183,892              2,449,508             0     2,633,400

 Office of Surface Mining
 Reclamation and
 Enforcement                             1,653,108                      0             0     1,653,108

 U.S. Bureau of Mines                        40,516                     0             0       40,516

 U.S. Fish and Wildlife
 Service                                   746,583              2,360,045             0     3,106,628

     Total                               3,977,415            23,421,710         490,000   27,889,125
 * Includes monetary impact of indirect cost proposals negotiated.
 ** Represents lost or potential additional revenues.
 *** Includes monetary impact of non-Federal funds ( see Appendix 4).




58             Semiannual Report to the Congress: April 1, 1997 - September 30, 1997
                                   APPENDIX 4

              NON-FEDERAL FUNDING INCLUDED IN
             MONETARY IMPACT OF AUDIT ACTIVITIES
              DURING THE 6-MONTH PERIOD ENDED
                      SEPTEMBER 30, 1997

No. 97-I-1051 - "Followup of Recommendations Concerning Personnel and Payroll
Practices, Legislative Branch, Government of Guam," dated July 31, 1997. All of the
$8,214,507 reported as monetary impact represents insular area funds.

No. 97-I-1294 - "School Bus Operations, Department of Public Works, Government of
Guam," dated September 30, 1997. All of the $3,584,034 reported as monetary impact
represents insular area funds.




        Semiannual Report to the Congress: April 1, 1997 - September 30, 1997         59
                                        APPENDIX 5
                                AUDIT RESOLUTION ACTIVITY
                                         TABLE I
                            INSPECTOR GENERAL AUDIT REPORTS
                                 WITH QUESTIONED COSTS

                                                                                                          Unsupported
                                       No. of Reports*                Questioned Costs                      Costs**
A. For which no
management decision had
been made by the
commencement of the
reporting period                                 65                              $41,865,643                       $3,013,066

B. Which were issued
during the reporting period
                                                 37                                 3,977,415                          316,115

     Total (A+B)                                102                              $45,843,058                       $3,329,181

 C. For which a
 management decision was
 made during the reporting
 period                                          37                                $6,425,272                      $1,693,322

     (i) dollar value of
       disallowed costs                          30                                $5,789,917                      $1,395,939


     (ii) dollar value of
        costs not
       disallowed                                12                                  $635,355                        $297,383

 D. For which no
 management decision had
 been made by the end of
 the reporting period                            65                              $39,417,786                       $1,635,859


E. For which no
management decision was
made within 6 months of
issuance                                         43                              $37,601,377                       $1,319,744
* Report totals cannot be reconciled because some reports have dollar amounts in both the allowed and disallowed categories.
** Unsupported costs are included in questioned costs.



60             Semiannual Report to the Congress: April 1, 1997 - September 30, 1997
                         APPENDIX 5
                 AUDIT RESOLUTION ACTIVITY
                          TABLE II
           INSPECTOR GENERAL AUDIT REPORTS WITH
      RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE


                                                                             No. of Reports*               Dollar Value**
A. For which no management decision had been made by the
commencement of the reporting period                                                  44                    $259,593,079

B. Which were issued during the reporting period                                      62                       23,421,710***

   Total (A+B)                                                                        106                   $283,014,789

C. For which a management decision was made during the
reporting period                                                                      78                     $65,705,848

   (i) dollar value of recommendations that were agreed
    to by management                                                                  77                     $63,167,093***

   (ii) dollar value of recommendations that were not
    agreed to by management                                                             3                      $2,538,755


D. For which no management decision had been made by the
end of the reporting period                                                           28                    $217,308,941

E. For which no management decision was made within 6
months of issuance                                                                    22                    $201,994,986
* Report totals cannot be reconciled because some reports have dollar amounts in both the agreed and disagreed categories.
** Amounts include preaward audits.
*** Amounts include indirect cost proposals negotiated.




               Semiannual Report to the Congress: April 1, 1997 - September 30, 1997                                         61
                          APPENDIX 5
                  AUDIT RESOLUTION ACTIVITY
                           TABLE III
         INSPECTOR GENERAL AUDIT REPORTS WITH LOST OR
                POTENTIAL ADDITIONAL REVENUES


                                                          No. of Reports      Dollar Value
 A. For which no management decision had been made by
 the commencement of the reporting period                      10               $186,813,613

 B. Which were issued during the reporting period               1                    490,000

     Total (A+B)                                               11               $187,303,613

 C. For which a management decision was made during the
 reporting period                                               1                $35,000,000

    (i) dollar value of recommendations that were
  agreed to by management                                       1                $35,000,000

    (ii) dollar value of recommendations that were not
  agreed to by management                                       0                            0

 D. For which no management decision had been made by
 the end of the reporting period                               10               $152,303,613

 E. For which no management decision was made within 6
 months of issuance                                             9               $151,813,613




62           Semiannual Report to the Congress: April 1, 1997 - September 30, 1997
                                                         APPENDIX 6
           SUMMARY OF AUDIT REPORTS OVER 6 MONTHS OLD
                PENDING MANAGEMENT DECISIONS

     This listing includes a summary of internal, contract (except preawards), grant, and single audit reports that were over 6 months old
     on September 30, 1997, and still pending a management decision. It provides report number, title, issue date, number of unresolved
     recommendations, and unresolved amount of monetary benefits identified in the audit report.



INTERNAL AUDITS                                  Commonwealth of the                                    93-I-706 SELECTED SPECIAL
                                                 Northern Mariana                                       REVENUE FUNDS,
                                                                                                        GOVERNMENT OF GUAM
BUREAU OF LAND                                   Islands                                                (03/15/93) -
MANAGEMENT                                                                                              7 RECOMMENDATIONS AND
                                                 94-I-936 FOLLOWUP                                      $39,330,411 UNRESOLVED
94-I-496 SALE OF                                 OF RECOMMENDATIONS
MATERIALS FROM PUBLIC                            CONCERNING THE                                         93-I-1195 IMPACT OF THE
LANDS, BUREAU OF LAND                            ECONOMIC DEVELOPMENT                                   COMPACT OF FREE
MANAGEMENT (03/31/94) -                          LOAN FUND,                                             ASSOCIATION ON THE
1 RECOMMENDATION AND                             COMMONWEALTH                                           GOVERNMENT OF GUAM
$3,062,000 UNRESOLVED                            DEVELOPMENT AUTHORITY                                  (06/28/93) -
                                                 (07/18/94) -                                           1 RECOMMENDATION AND
                                                 2 RECOMMENDATIONS
96-I-1025 NEVADA LAND                                                                                   $15,911,978 UNRESOLVED
                                                 UNRESOLVED
EXCHANGE ACTIVITIES,
BUREAU OF LAND                                                                                          94-I-106 REVIEW OF
MANAGEMENT (07/15/96) -                          96-I-596 MANAGEMENT OF                                 GUAM'S
1 RECOMMENDATION AND                             PUBLIC LAND,                                           GOVERNMENTWIDE
$7,800,000 UNRESOLVED                            COMMONWEALTH OF THE                                    TRAVEL PRACTICES
                                                 NORTHERN MARIANA                                       (11/26/93) -
                                                 ISLANDS (3/20/96) -
INSULAR AREAS                                    6 RECOMMENDATIONS AND
                                                                                                        16 RECOMMENDATIONS
                                                                                                        AND $1,689,650
                                                 $145,877,257 UNRESOLVED                                UNRESOLVED
American Samoa
                                                 Guam                                                   94-I-980 FOOD STAMP
93-I-1600 REVIEW OF                                                                                     PROGRAM, DEPARTMENT
GRANT ADMINISTRATION,                            92-I-597 SELECTION,                                    OF PUBLIC HEALTH AND
DEPARTMENT OF                                    PROCUREMENT, AND                                       SOCIAL SERVICES
EDUCATION, AMERICAN                              ADMINISTRATION OF                                      (07/25/94) -
SAMOA GOVERNMENT                                 WATER DISTRIBUTION                                     17 RECOMMENDATIONS
(09/30/93) -                                     PROJECTS, PUBLIC UTILITY                               AND $646,028 UNRESOLVED
3 RECOMMENDATIONS AND                            AGENCY OF GUAM,
$306,637 UNRESOLVED                              GOVERNMENT OF GUAM                                     97-I-591 GUAM
                                                 (03/20/92) -                                           LEGISLATURE,
                                                 2 RECOMMENDATIONS                                      GOVERNMENT OF GUAM
                                                 UNRESOLVED                                             (3/24/97)
                                                                                                        5 RECOMMENDATIONS AND
                                                                                                         $1,004,084 UNRESOLVED




               Semiannual Report to the Congress: April 1, 1997 - September 30, 1997                                                         63
97-I-617 FOLLOWUP OF             93-I-572 SUPPLY AND              97-I-40 DIVISION OF
RECOMMENDATIONS                  EQUIPMENT                        AGRICULTURE,
CONCERNING FOOD                  MANAGEMENT,                      DEPARTMENT OF
SERVICES OPERATIONS,             DEPARTMENT OF                    ECONOMIC DEVELOPMENT
DEPARTMENT OF                    EDUCATION, GOVERNMENT            AND AGRICULTURE,
EDUCATION, GOVERNMENT            OF THE VIRGIN ISLANDS            GOVERNMENT OF THE
OF                               (02/19/93) -                     VIRGIN ISLANDS (10/21/96) -
GUAM (3/26/97) -                 9 RECOMMENDATIONS AND            8 RECOMMENDATIONS AND
3 RECOMMENDATIONS AND            $310,000 UNRESOLVED              $90,000 UNRESOLVED
$351,231 UNRESOLVED
                                 93-I-670 PERSONNEL,              97-E-189 SUBGRANT
Republic of the Marshall         PROPERTY MANAGEMENT,             ADMINISTRATION FOR
Islands                          AND PROCUREMENT                  DISASTER ASSISTANCE
                                 PRACTICES, BUREAU OF             FUNDS, OFFICE OF
94-I-21 CAPITOL                  CORRECTIONS,                     MANAGEMENT AND
RELOCATION PROJECT,              GOVERNMENT OF THE                BUDGET, GOVERNMENT OF
REPUBLIC OF THE                  VIRGIN ISLANDS (03/11/93) -      THE VIRGIN ISLANDS
MARSHALL ISLANDS                 14 RECOMMENDATIONS               (11/26/96) -
(10/18/93) -                     AND $265,823 UNRESOLVED          2 RECOMMENDATIONS
2 RECOMMENDATIONS                                                 UNRESOLVED
UNRESOLVED                       94-I-248 PROPERTY
                                 MANAGEMENT FUNCTIONS,            97-E-239 PROCUREMENT
                                 POLICE DEPARTMENT,               PRACTICES FOR
U.S. Virgin Islands              GOVERNMENT OF THE                HURRICANE-RELATED
                                 VIRGIN ISLANDS (01/24/94) -      DEBRIS REMOVAL,
91-I-467 FOLLOWUP OF             2 RECOMMENDATIONS AND            DEPARTMENT OF PUBLIC
RECOMMENDATIONS                  $457,000 UNRESOLVED              WORKS, GOVERNMENT OF
CONTAINED IN REPORT ON                                            THE VIRGIN ISLANDS
THE ROAD FUND,                   95-I-1258 SCHOOL LUNCH           (12/17/96) -
GOVERNMENT OF THE                PROGRAM, DEPARTMENT              1 RECOMMENDATION
VIRGIN ISLANDS (02/19/91) -      OF EDUCATION,                    UNRESOLVED
1 RECOMMENDATION                 GOVERNMENT OF THE
UNRESOLVED                       VIRGIN ISLANDS (09/12/95) -      97-I-243 WORKMEN’S
                                 1 RECOMMENDATION                 COMPENSATION PROGRAM,
92-I-1086 PERSONNEL              UNRESOLVED                       GOVERNMENT OF THE
MANAGEMENT,                                                       VIRGIN ISLANDS (12/30/96) -
GOVERNMENT OF THE                96-E-828 ACCOUNTING              15 RECOMMENDATIONS
VIRGIN ISLANDS (08/03/92) -      CONTROLS FOR DISASTER            AND $2,530,000
6 RECOMMENDATIONS AND            ASSISTANCE FUNDS,                UNRESOLVED
$51,542 UNRESOLVED               POLICE DEPARTMENT,
                                 GOVERNMENT OF THE                97-E-279 ACCOUNTING
93-I-363 INMATE CARE,            VIRGIN ISLANDS (05/31/96) -      CONTROLS FOR DISASTER
REHABILITATION, AND              2 RECOMMENDATIONS                ASSISTANCE FUNDS,
SAFETY, BUREAU OF                UNRESOLVED                       VIRGIN ISLANDS WATER
CORRECTIONS,                                                      AND POWER AUTHORITY
GOVERNMENT OF THE                                                 (1/7/97) -
VIRGIN ISLANDS (12/31/92) -                                       3 RECOMMENDATIONS
10 RECOMMENDATIONS                                                UNRESOLVED
UNRESOLVED




64          Semiannual Report to the Congress: April 1, 1997 - September 30, 1997
MINERALS                           94-E-919 COSTS CLAIMED           97-E-589 RESERVE
MANAGEMENT                         BY DIVERSIFIED BUSINESS          CONSTRUCTION COMPANY,
                                   TECHNOLOGIES                     INC., COST PROPOSAL
SERVICE                            CORPORATION UNDER                SUBMITTED TO THE
                                   CONTRACT NO. CBM000147           NATIONAL PARK SERVICE
96-I-1255 SELECTED                 (06/30/94) - $247,414            UNDER SOLICITATION NO.
ACTIVITIES OF THE                  UNRESOLVED (Circumstances        1443CX500095905 (3/10/97) -
ROYALTY MANAGEMENT
                                   beyond the Bureau's control      $163,076 UNRESOLVED
SYSTEM, MINERALS
                                   have delayed resolution of the
MANAGEMENT SERVICE
(09/30/96) -
                                   costs.)                          U.S. FISH AND
3 RECOMMENDATIONS AND                                               WILDLIFE SERVICE
$3,860,000 UNRESOLVED              INSULAR AREAS
                                                                    96-E-889 EXPENDITURES
NATIONAL PARK                      Republic of the Marshall         CLAIMED BY THE
SERVICE                            Islands                          COMMONWEALTH OF THE
                                                                    NORTHERN MARIANA
                                   95-E-951 GRANT AND TRUST         ISLANDS FOR FISCAL
96-I-806 EMERGENCY                                                  YEARS 1993 AND 1994
MEDICAL AND SEARCH                 FUNDS PROVIDED FOR THE
                                   RONGELAP RESETTLEMENT            UNDER FEDERAL AID
AND RESCUE SERVICES,                                                GRANTS FROM THE U.S.
NATIONAL PARK SERVICE              PROJECT, REPUBLIC OF THE
                                   MARSHALL ISLANDS                 FISH AND WILDLIFE
(06/10/96) -                                                        SERVICE (06/10/96) - $858,267
2 RECOMMENDATIONS AND              (05/22/95) - $215,960
                                   UNRESOLVED                       UNRESOLVED
$4,501,000 UNRESOLVED
                                                                    97-E-100 U.S. FISH AND
CONTRACT AND                       MINERALS
                                                                    WILDLIFE SERVICE
                                   MANAGEMENT
GRANT AUDITS                       SERVICE
                                                                    WILDLIFE AND SPORT FISH
                                                                    RESTORATION GRANTS TO
                                                                    CONNECTICUT, TWO FISCAL
BUREAU OF INDIAN                   97-E-310 MBC APPLIED             YEARS ENDED JUNE 30,
AFFAIRS                            ENVIRONMENTAL                    1995 (10/30/96) - $1,750,514
                                   SCIENCES, FOLLOWUP OF            UNRESOLVED
94-E-784 COSTS CLAIMED             COSTS SUBMITTED TO
BY DIVERSIFIED BUSINESS            MINERALS MANAGEMENT              97-E-450 U.S. FISH AND
TECHNOLOGIES                       SERVICE (1/24/97) - $180,134     WILDLIFE SERVICE
CORPORATION UNDER                  UNRESOLVED                       FEDERAL AID GRANTS TO
CONTRACT NO. CBM000047                                              CALIFORNIA, TWO FISCAL
(06/10/94) - $825,170              NATIONAL PARK                    YEARS ENDED MAY 31, 1995
UNRESOLVED
                                   SERVICE                          (2/13/97) - $3,351,268
(Circumstances beyond the                                           UNRESOLVED
Bureau's control have delayed
                                   97-E-441 SHARP
resolution of the costs.)                                           U.S. GEOLOGICAL
                                   CONSTRUCTION COMPANY,
                                   INC., CLAIM AGAINST              SURVEY
                                   NATIONAL PARK SERVICE
                                   UNDER CONTRACT NO.               93-E-339 TGS
                                   1443CX160093902 (2/12/97) -      TECHNOLOGY, INC.,
                                   $1,143,635 UNRESOLVED            CLOSING STATEMENT
                                                                    (12/22/92) - $520,235
                                                                    UNRESOLVED




              Semiannual Report to the Congress: April 1, 1997 - September 30, 1997           65
SINGLE AUDITS                      91-A-803 MARIANA                 93-A-1563
                                   ISLANDS HOUSING                  COMMONWEALTH
                                   AUTHORITY, FISCAL YEAR           DEVELOPMENT
BUREAU OF INDIAN                   ENDED SEPTEMBER 30, 1986         AUTHORITY, FISCAL YEAR
AFFAIRS                            (05/07/91) -                     ENDED SEPTEMBER 30, 1988
                                   1 RECOMMENDATION AND             (09/13/93) -
96-A-1122 NORTHWESTERN             $1,537,321 UNRESOLVED            52 RECOMMENDATIONS
BAND OF THE SHOSHONI                                                AND $4,998,398
NATION, FISCAL YEAR                91-A-823 MARIANA                 UNRESOLVED
ENDED DECEMBER 30, 1994            ISLANDS HOUSING
(08/15/96) -                       AUTHORITY, FISCAL YEAR           94-A-525
1 RECOMMENDATION                   ENDED SEPTEMBER 30, 1987         COMMONWEALTH
UNRESOLVED (Circumstances          (05/10/91) -                     DEVELOPMENT
beyond the Bureau’s control        1 RECOMMENDATION AND             AUTHORITY, FISCAL YEAR
have delayed resolution.)          $455,857 UNRESOLVED              ENDED SEPTEMBER 30, 1989
                                                                    (04/15/94) -
96-A-1209 PUYALLUP TRIBE           91-A-824 MARIANA                 45 RECOMMENDATIONS
OF INDIANS, FISCAL YEAR            ISLANDS HOUSING                  AND $6,078,308
ENDED SEPTEMBER 30, 1994           AUTHORITY, FISCAL YEAR           UNRESOLVED
(09/05/96) -                       ENDED SEPTEMBER 30, 1988
7 RECOMMENDATIONS AND              (05/10/91) -                     94-A-574
$3,024 UNRESOLVED                  1 RECOMMENDATION AND             COMMONWEALTH
(Unresolved findings pertain to    $196,593 UNRESOLVED              UTILITIES CORPORATION,
FWS.)                                                               FISCAL YEAR ENDED
                                   92-A-1179 MARIANA                SEPTEMBER 30, 1990
97-A-475 NARRAGANSETT              ISLANDS HOUSING                  (05/06/94) -
INDIAN TRIBE, TWO FISCAL           AUTHORITY,                       61 RECOMMENDATIONS
YEARS ENDED DECEMBER               FISCAL YEAR ENDED                AND $166,509 UNRESOLVED
31, 1993 (3/6/97) -                SEPTEMBER 30, 1989
11 RECOMMENDATIONS                 (08/13/92) -                     94-A-818
AND $12,024 UNRESOLVED             1 RECOMMENDATION AND             COMMONWEALTH
                                   $168,711 UNRESOLVED              UTILITIES CORPORATION,
INSULAR AREAS                                                       FISCAL YEAR ENDED
                                   93-A-110 MARIANA                 SEPTEMBER 30, 1991
                                   ISLANDS HOUSING                  (06/16/94) -
Commonwealth of the                AUTHORITY, FISCAL YEAR           42 RECOMMENDATIONS
Northern Mariana                   ENDED SEPTEMBER 30, 1990         UNRESOLVED
Islands                            (10/26/92) -
                                   1 RECOMMENDATION AND             94-A-836
91-A-731                           $124,450 UNRESOLVED              COMMONWEALTH OF THE
COMMONWEALTH                                                        NORTHERN MARIANA
UTILITIES CORPORATION,             93-A-225 MARIANA                 ISLANDS, FISCAL YEAR
FISCAL YEAR ENDED                  ISLANDS HOUSING                  ENDED SEPTEMBER 30, 1993
SEPTEMBER 30, 1988                 AUTHORITY, FISCAL YEAR           (06/20/94) -
(04/26/91) -                       ENDED SEPTEMBER 30, 1991         59 RECOMMENDATIONS
12 RECOMMENDATIONS                 (11/19/92) -                     UNRESOLVED
AND $6,087,882                     1 RECOMMENDATION AND
UNRESOLVED                         $1,119,377 UNRESOLVED




66            Semiannual Report to the Congress: April 1, 1997 - September 30, 1997
94-A-1075 NORTHERN              97-A-244 FEDERATED               Pohnpei
MARIANAS COLLEGE,               STATES OF MICRONESIA
COMMONWEALTH OF THE             NATIONAL GOVERNMENT,             91-A-398 POHNPEI STATE
NORTHERN MARIANA                FISCAL YEAR ENDED                GOVERNMENT, FISCAL
ISLANDS, FISCAL YEAR            SEPTEMBER 30, 1995               YEAR ENDED
ENDED SEPTEMBER 30, 1991        (12/23/96) -                     SEPTEMBER 30, 1989
(07/29/94) -                    22 RECOMMENDATIONS               (02/04/91) -
30 RECOMMENDATIONS              AND $166,523 UNRESOLVED          1 RECOMMENDATION AND
AND $4,600 UNRESOLVED                                            $98,216 UNRESOLVED
                                Chuuk
94-A-1083 MARIANA                                                94-A-527 STATE OF
ISLANDS HOUSING                 91-A-505 CHUUK STATE             POHNPEI, FEDERATED
AUTHORITY, FISCAL YEAR          GOVERNMENT, FISCAL               STATES OF MICRONESIA,
ENDED SEPTEMBER 30, 1993        YEAR ENDED                       FISCAL YEAR ENDED
(08/03/94) -                    SEPTEMBER 30, 1989               SEPTEMBER 30, 1992
5 RECOMMENDATIONS               (02/20/91) -                     (04/19/94) -
UNRESOLVED                      1 RECOMMENDATION AND             21 RECOMMENDATIONS
                                $665,817 UNRESOLVED              AND $2,764 UNRESOLVED
95-A-784 COMMONWEALTH
PORTS AUTHORITY,                92-A-519 CHUUK STATE             Yap
FISCAL YEAR ENDED               GOVERNMENT, FISCAL
SEPTEMBER 30, 1994              YEAR ENDED                       94-A-371 STATE OF YAP,
(04/12/95) -                    SEPTEMBER 30, 1990               FEDERATED STATES OF
10 RECOMMENDATIONS              (02/25/92) -                     MICRONESIA, FISCAL YEAR
UNRESOLVED                      1 RECOMMENDATION AND             ENDED SEPTEMBER 30, 1992
                                $1,940,938 UNRESOLVED            (02/25/94) -
Federated States of                                              22 RECOMMENDATIONS
Micronesia                      94-A-374 STATE OF CHUUK,         UNRESOLVED
                                FEDERATED STATES OF
95-A-1043 FEDERATED             MICRONESIA, FISCAL YEAR          Guam
STATES OF MICRONESIA            ENDED SEPTEMBER 30, 1992
NATIONAL GOVERNMENT,            (02/28/94) -
FISCAL YEAR ENDED               15 RECOMMENDATIONS               97-A-514 GOVERNMENT OF
SEPTEMBER 10, 1993              UNRESOLVED                       GUAM, FISCAL YEAR
(06/27/95) -                                                     ENDED SEPTEMBER 30, 1995
10 RECOMMENDATIONS              Kosrae                           (2/21/97) -
UNRESOLVED                                                       106 RECOMMENDATIONS
                                94-A-367 STATE OF                UNRESOLVED
96-A-482 FEDERATED              KOSRAE, FEDERATED
STATES OF MICRONESIA,           STATES OF MICRONESIA,            Republic of the Marshall
STATUS OF NATIONAL              FISCAL YEAR ENDED                Islands
GOVERNMENT, FISCAL              SEPTEMBER 30, 1992
YEAR ENDED                      (02/24/94) -                     96-A-104 REPUBLIC OF THE
SEPTEMBER 30, 1994              9 RECOMMENDATIONS                MARSHALL ISLANDS,
(2/29/96) -                     UNRESOLVED                       FISCAL YEAR ENDED
19 RECOMMENDATIONS                                               SEPTEMBER 30, 1994
AND $57,900 UNRESOLVED                                           (11/01/95) -
                                                                 75 RECOMMENDATIONS
                                                                 AND $1,068,317
                                                                 UNRESOLVED




           Semiannual Report to the Congress: April 1, 1997 - September 30, 1997         67
Republic of Palau               95-A-1395 MICRONESIA             U.S. FISH AND
                                OCCUPATIONAL COLLEGE,            WILDLIFE SERVICE
92-A-368 PALAU                  PALAU, TWO FISCAL YEARS
COMMUNITY ACTION                ENDED                            96-A-372 DELAWARE,
AGENCY, FISCAL YEAR             SEPTEMBER 30, 1992               FISCAL YEAR ENDED
ENDED SEPTEMBER 30, 1990        (09/28/95) -                     JUNE 30, 1994 (2/15/96) -
(01/24/92) -                    6 RECOMMENDATIONS                4 RECOMMENDATIONS AND
1 RECOMMENDATION AND            UNRESOLVED                       $33,662 UNRESOLVED
$2,593 UNRESOLVED
                                Trust Territory of the           96-A-630 ALASKA, FISCAL
92-A-885 REPUBLIC OF            Pacific Islands                  YEAR ENDED JUNE 30, 1994
PALAU, FISCAL YEAR                                               (03/28/96) -
ENDED SEPTEMBER 30, 1989        91-A-1112 TRUST                  2 RECOMMENDATIONS AND
(06/05/92) -                    TERRITORY OF THE PACIFIC         $72,509 UNRESOLVED
1 RECOMMENDATION AND            ISLANDS, FISCAL YEAR
$40,262 UNRESOLVED              ENDED SEPTEMBER 30, 1990         97-A-30 DELAWARE, FISCAL
                                (07/31/91) -                     YEAR ENDED JUNE 30, 1995
93-A-1053 PALAU                 1 RECOMMENDATION AND             (10/8/96) -
COMMUNITY ACTION                $437,482 UNRESOLVED              4 RECOMMENDATIONS
AGENCY, FISCAL YEAR                                              UNRESOLVED
ENDED SEPTEMBER 30, 1991        U.S. Virgin Islands
(05/11/93) -
12 RECOMMENDATIONS              92-A-107 VIRGIN ISLANDS
UNRESOLVED                      WATER AND POWER
                                AUTHORITY (10/16/91) -
93-A-1629 REPUBLIC OF           3 RECOMMENDATIONS
PALAU, FISCAL YEAR              UNRESOLVED
ENDED SEPTEMBER 30, 1990
(09/30/93) -                    93-A-177 UNIVERSITY OF
1 RECOMMENDATION AND            THE VIRGIN ISLANDS, TWO
$401,843 UNRESOLVED             FISCAL YEARS ENDED
                                SEPTEMBER 30, 1991
94-A-499 REPUBLIC OF            (11/05/92) -
PALAU, FISCAL YEAR              4 RECOMMENDATIONS
ENDED SEPTEMBER 30, 1991        UNRESOLVED
(04/06/94) -
11 RECOMMENDATIONS              96-A-1144 GOVERNMENT
AND $517,693 UNRESOLVED         OF THE VIRGIN ISLANDS,
                                TWO FISCAL YEARS ENDED
94-A-882 REPUBLIC OF            SEPTEMBER 30, 1990
PALAU, FISCAL YEAR              (08/20/96) -
ENDED SEPTEMBER 30, 1992        16 RECOMMENDATIONS
(06/27/94) -                    UNRESOLVED
37 RECOMMENDATIONS
AND $4,085 UNRESOLVED




68         Semiannual Report to the Congress: April 1, 1997 - September 30, 1997
                                                            APPENDIX 7
     SUMMARY OF INTERNAL AUDIT REPORTS OVER 6 MONTHS
            OLD PENDING CORRECTIVE ACTION

     This is a listing of internal audit reports with management decisions over 6 months old for which corrective action has not been
     completed. It provides report number, title, issue date, and the number of recommendations without final corrective action. These
     audits continue to be monitored by the Focus Leader for Management Control and Audit Followup, Assistant Secretary - Policy,
     Management and Budget, for completion of corrective action. Note: The insular area reports contain recommendations made
     specifically to the insular area governors and other territorial officials, who do not report to the Secretary and are not subject to the
     policy, guidance, and administrative oversight established by the Assistant Secretary - Policy, Management and Budget.




INTERNAL AUDITS                                    97-I-196 STATEMENT OF                                    95-I-379 FOLLOWUP
                                                   ASSETS AND TRUST FUND                                    OF RECOMMENDATIONS
                                                   BALANCES AT SEPTEMBER                                    RELATING TO BUREAU OF
BUREAU OF INDIAN                                   30, 1995, OF THE TRUST                                   LAND MANAGEMENT USER
AFFAIRS                                            FUNDS MANAGED BY THE                                     CHARGES FOR
                                                   OFFICE OF TRUST FUNDS                                    MINERAL-RELATED
                                                   MANAGEMENT (12/13/96) -                                  DOCUMENT PROCESSING
95-I-598 BUREAU OF
                                                   16 RECOMMENDATIONS                                       (01/23/95) -
INDIAN AFFAIRS PRINCIPAL
                                                                                                            2 RECOMMENDATIONS
FINANCIAL STATEMENTS
FOR FISCAL YEARS 1993                              97-I-504 DIRECT AND
AND 1994 (02/28/95) -                              GUARANTEED LOAN                                          95-I-638 ONSHORE OIL AND
2 RECOMMENDATIONS                                  PROGRAMS, EASTERN AREA                                   GAS LEASING ACTIVITIES,
                                                   OFFICE, BUREAU OF INDIAN                                 BUREAU OF LAND
                                                   AFFAIRS (3/10/97) -                                      MANAGEMENT (03/20/95) -
95-I-1402 WAPATO
                                                   4 RECOMMENDATIONS                                        2 RECOMMENDATIONS
IRRIGATION PROJECT,
BUREAU OF INDIAN
AFFAIRS (09/30/95) -                               BUREAU OF LAND                                           95-I-709 WIND ENERGY
6 RECOMMENDATIONS                                  MANAGEMENT                                               RIGHT-OF-WAY GRANTS,
                                                                                                            BUREAU OF LAND
                                                   90-I-100 DRAINAGE                                        MANAGEMENT (03/31/95) -
96-I-641 REVIEW OF INDIAN
                                                   PROTECTION PROGRAM                                       2 RECOMMENDATIONS AND
IRRIGATION PROJECTS,
                                                   (09/19/90) -                                             $2,837,296
BUREAU OF INDIAN
AFFAIRS (03/29/96) -                               1 RECOMMENDATION
13 RECOMMENDATIONS                                                                                          95-I-747 RIGHT-OF-WAY
                                                   92-I-828 ONSHORE                                         GRANTS, BUREAU OF LAND
                                                                                                            MANAGEMENT (03/31/95) -
96-I-1266 ADMINISTRATION                           GEOPHYSICAL
                                                   EXPLORATION PROGRAM                                      8 RECOMMENDATIONS
OF DELINQUENT LOANS BY
THE PHOENIX AREA OFFICE,                           (05/26/92) -
BUREAU OF INDIAN                                   2 RECOMMENDATIONS                                        96-I-638 INSPECTION OF
AFFAIRS (09/30/96) -                                                                                        SELECTED
1 RECOMMENDATION                                                                                            ADMINISTRATIVE
                                                                                                            ACTIVITIES, COLORADO
                                                                                                            STATE OFFICE, BUREAU OF
                                                                                                            LAND MANAGEMENT
                                                                                                            (03/29/96) -
                                                                                                            2 RECOMMENDATIONS




               Semiannual Report to the Congress: April 1, 1997 - September 30, 1997                                                             69
96-I-1265 OCCUPANCY             92-I-1151 REVIEW OF THE            95-I-1204 FINANCIAL
TRESPASS RESOLUTION,            COST ALLOCATION FOR                MANAGEMENT OF THE
BUREAU OF LAND                  THE CENTRAL ARIZONA                COLUMBIA BASIN PROJECT,
MANAGEMENT (9/30/96) -          PROJECT (08/17/92) -               PACIFIC NORTHWEST
2 RECOMMENDATIONS               5 RECOMMENDATIONS                  REGION (08/22/95) -
                                (Final action is pending outcome   1 RECOMMENDATION
96-I-1267 INSPECTION AND        of litigation.)
ENFORCEMENT PROGRAM                                                95-I-1376 FOLLOWUP OF
AND SELECTED RELATED            93-I-577 PROPOSED                  RECOVERY OF OPERATION
ACTIVITIES, BUREAU OF           DEFERRAL OF NOTICE OF              AND MAINTENANCE
LAND MANAGEMENT                 SUBSTANTIAL COMPLETION             PROGRAM EXPENSES
(09/30/96) -                    OF THE CENTRAL ARIZONA             (09/29/95) -
11 RECOMMENDATIONS              PROJECT (02/19/93) -               4 RECOMMENDATIONS
                                3 RECOMMENDATIONS
96-I-1268 WITHDRAWN             UNRESOLVED (Final action is        95-I-1383 RECOVERY OF
LANDS, DEPARTMENT OF            pending outcome of litigation.)    OPERATION AND
THE INTERIOR (9/30/96)                                             MAINTENANCE COSTS,
2 RECOMMENDATIONS               93-I-810 IMPLEMENTATION            COLUMBIA BASIN PROJECT
                                OF THE COLORADO RIVER              (09/29/95) -
97-I-375 EXPENDITURES           BASIN SALINITY CONTROL             2 RECOMMENDATIONS
CHARGED TO THE WILD             PROGRAM (03/31/93) -
HORSE AND BURRO                 3 RECOMMENDATIONS                  96-I-313 AWARD AND
PROGRAM, BUREAU OF                                                 ADMINISTRATION OF
LAND MANAGEMENT                 93-I-1641 PICK-SLOAN               CONTRACT NO.
(2/7/97)-                       MISSOURI RIVER BASIN               1425-2-CC-40-12260 WITH
2 RECOMMENDATIONS               PROGRAM COST                       ENVIRONMENTAL
                                ALLOCATION (09/30/93) -            CHEMICAL CORPORATION
BUREAU OF                       5 RECOMMENDATIONS                  RELATED TO THE
RECLAMATION                                                        SUMMITVILLE MINE SITE
                                94-I-884 DEVELOPMENT               CLEANUP, BUREAU OF
                                STATUS OF THE DOLORES              RECLAMATION (03/14/96) -
91-I-1445
                                AND THE                            1 RECOMMENDATION
IMPLEMENTATION OF THE
FEDERAL FINANCIAL               ANIMAS-LA PLATA
SYSTEM (09/30/91) -             PROJECTS (07/11/94) -              96-I-644 WORKING CAPITAL
2 RECOMMENDATIONS               1 RECOMMENDATION                   FUND, BUREAU OF
                                                                   RECLAMATION (3/29/96) -
92-I-887 MISCELLANEOUS          94-I-930 IRRIGATION OF             1 RECOMMENDATION
REVENUE COLLECTION              INELIGIBLE LANDS
AND DISTRIBUTION                (07/11/94) -                       96-I-1033 LOWER
(06/12/92) -                    3 RECOMMENDATIONS                  COLORADO RIVER BASIN
2 RECOMMENDATIONS                                                  DEVELOPMENT FUND,
                                95-I-870 RECREATION                BUREAU OF RECLAMATION
                                MANAGEMENT ACTIVITIES              (07/30/96) -
92-I-1128 REPAYMENT OF
                                AT SELECTED SITES                  1 RECOMMENDATION
MUNICIPAL AND
INDUSTRIAL WATER                (05/17/95) -
SUPPLY INVESTMENT               2 RECOMMENDATIONS
COSTS (08/13/92) -
2 RECOMMENDATIONS




70         Semiannual Report to the Congress: April 1, 1997 - September 30, 1997
97-I-683 MAINFRAME               Republic of Palau                97-I-257 SMALL BUSINESS
COMPUTER POLICIES AND                                             DEVELOPMENT AGENCY,
PROCEDURES,                      92-I-1368 BILLINGS AND           GOVERNMENT OF THE
ADMINISTRATIVE SERVICE           COLLECTIONS OF THE               VIRGIN ISLANDS (1/15/97) -
CENTER, BUREAU OF                REPUBLIC OF PALAU’S              4 RECOMMENDATIONS
RECLAMATION (3/31/97) -          GROSS REVENUE TAX
7 RECOMMENDATIONS                (09/28/92) -                     97-I-590 SUPPLEMENTAL
                                 3 RECOMMENDATIONS                FOOD PROGRAM FOR
INSULAR AREAS                                                     WOMEN, INFANTS AND
                                 U.S. Virgin Islands              CHILDREN, DEPARTMENT
                                                                  OF HEALTH, GOVERNMENT
American Samoa
                                 91-I-1188 SECURITY AND           OF THE VIRGIN ISLANDS
                                                                  (3/24/97) -
96-I-533 AMERICAN                MAINTENANCE OF
                                 CORRECTIONAL FACILITIES,         1 RECOMMENDATION
SAMOA LEGISLATURE,
AMERICAN SAMOA                   GOVERNMENT OF THE
GOVERNMENT (03/22/96) -          VIRGIN ISLANDS (08/29/91) -      MINERALS
8 RECOMMENDATIONS                16 RECOMMENDATIONS               MANAGEMENT
                                                                  SERVICE
Commonwealth of the              91-I-1431 FOLLOWUP OF
                                 AUDIT OF THE                     92-I-130 OFFSHORE
Northern Mariana
                                 GOVERNMENT                       INSPECTION PROGRAM
Islands                          EMPLOYEES’ RETIREMENT            (11/12/91) -
                                 SYSTEM, GOVERNMENT OF            1 RECOMMENDATION
94-I-1323 UTILITIES RATE         THE VIRGIN ISLANDS
STRUCTURE,                       (09/30/91) -                     92-I-657 GAS CONTRACT
COMMONWEALTH OF THE              1 RECOMMENDATION                 SETTLEMENTS (03/30/92) -
NORTHERN MARIANA
                                                                  1 RECOMMENDATION
ISLANDS (09/30/94) -             92-I-90 PRISON
3 RECOMMENDATIONS                OVERCROWDING, BUREAU             96-I-1264 NEGOTIATED
                                 OF CORRECTIONS                   ROYALTY SETTLEMENTS,
95-I-106 CONTRACTING             (10/28/91) -                     MINERALS MANAGEMENT
AND CONTRACT                     5 RECOMMENDATIONS                SERVICE (09/30/96) -
ADMINISTRATION,
                                                                  2 RECOMMENDATIONS
COMMONWEALTH                     92-I-688 COSTS INCURRED
UTILITIES CORPORATION,           BY THE                           MULTI-OFFICE
COMMONWEALTH OF THE              DEJONGH/WILLIAMS JOINT
NORTHERN MARIANA                 VENTURE ON THE VIRGIN            92-I-140 COMPLIANCE WITH
ISLANDS (11/14/94) -             ISLANDS CAPITAL                  THE FEDERAL MANAGERS’
5 RECOMMENDATIONS                IMPROVEMENT PROGRAM              FINANCIAL INTEGRITY ACT
                                 (03/31/92) -                     OF 1982 FOR FISCAL YEAR
Guam                             10 RECOMMENDATIONS               1991, BUREAU OF LAND
                                                                  MANAGEMENT (11/18/91) -
92-I-1360 GOVERNMENT OF          95-I-52 SELECTED                 1 RECOMMENDATION
GUAM RETIREMENT FUND             ADMINISTRATIVE
(09/18/92) -                     FUNCTIONS, ST. CROIX
7 RECOMMENDATIONS                INTERIM HOSPITAL,
                                 GOVERNMENT OF THE
                                 VIRGIN ISLANDS (10/31/94) -
                                 2 RECOMMENDATIONS




            Semiannual Report to the Congress: April 1, 1997 - September 30, 1997            71
96-I-609 SAFETY AND              96-I-49 SPECIAL USE FEES,        U.S. GEOLOGICAL
HEALTH PROGRAM,                  NATIONAL PARK SERVICE            SURVEY
DEPARTMENT OF THE                (10/27/95) -
INTERIOR (03/29/96) -            1 RECOMMENDATION                 96-I-1239 INVENTORY
3 RECOMMENDATIONS                                                 MANAGEMENT AND
                                 97-I-515 OVERSIGHT OF            VALUATION, NATIONAL
97-I-548                         CONCESSIONS OPERATIONS           MAPPING DIVISION,
ADMINISTRATIVELY                 AND FEE PAYMENTS,                U.S. GEOLOGICAL SURVEY
UNCONTROLLABLE                   GUEST SERVICES, INC., AND        (09/30/96) -
OVERTIME, DEPARTMENT             ROCK CREEK PARK HORSE            2 RECOMMENDATIONS
OF THE INTERIOR (2/27/97) -      CENTRE, INC., NATIONAL
2 RECOMMENDATIONS                PARK SERVICE (2/28/97)-          97-I-98 GENERAL CONTROL
                                 1 RECOMMENDATION                 ENVIRONMENT OF THE
NATIONAL PARK                                                     FEDERAL FINANCIAL
SERVICE                          U.S. FISH AND                    SYSTEM AT THE RESTON
                                 WILDLIFE SERVICE                 GENERAL PURPOSE
91-I-532 WASTE DISPOSAL                                           COMPUTER CENTER
ACTIVITIES AND                   93-I-864 AUTOMATED               (10/31/96) -
HOUSEBOAT RENTAL                 DATA PROCESSING                  5 RECOMMENDATIONS
OPERATIONS AT GLEN               MANAGEMENT (03/31/93) -
CANYON NATIONAL                  1 RECOMMENDATION
RECREATION AREA
(03/08/91) -                     94-I-62 LAW ENFORCEMENT
2 RECOMMENDATIONS                SPECIAL FUNDS, U.S. FISH
                                 AND WILDLIFE SERVICE
92-I-204 NATIONAL                (11/08/93) -
NATURAL LANDMARKS                1 RECOMMENDATION
PROGRAM (12/05/91) -
4 RECOMMENDATIONS                94-I-408 FARMING
                                 OPERATIONS CONDUCTED
93-I-1615 RECREATIONAL           BY THE U.S. FISH AND
ASSISTANCE PROVIDED TO           WILDLIFE SERVICE
STATE AND LOCAL                  (03/21/94) -
GOVERNMENTS (09/30/93) -         1 RECOMMENDATION
1 RECOMMENDATION
                                 95-I-376 CONCESSION FEES,
94-I-1211 CONCESSIONS            U.S. FISH AND WILDLIFE
MANAGEMENT                       SERVICE (01/17/95) -
IMPROVEMENT (09/26/94) -         1 RECOMMENDATION
1 RECOMMENDATION

95-I-647 SELECTED
ADMINISTRATIVE
FUNCTIONS, U.S. VIRGIN
ISLANDS NATIONAL PARK,
NATIONAL PARK SERVICE
(03/20/95) -
2 RECOMMENDATIONS




72          Semiannual Report to the Congress: April 1, 1997 - September 30, 1997
                                              APPENDIX 8
          STATUTORY AND ADMINISTRATIVE RESPONSIBILITIES
The Inspector General Act of 1978 (Public Law 95-452), as amended, sets forth specific requirements for
semiannual reports to be made to the Secretary for transmittal to the Congress. A selection of other statutory and
administrative responsibilities of the OIG follows:

                            STATUTORY AUDIT RESPONSIBILITIES

P.L. 96-510          Comprehensive Environmental Response, Compensation and Liability Act
                       (Superfund)
P.L.   97-357        Insular Areas Act of 1982
P.L.   97-451        Federal Oil and Gas Royalty Management Act of 1982
P.L.   98-502        Single Audit Act of 1984
P.L.   99-499        Superfund Amendments and Reauthorization Act of 1986
P.L.   101-576       Chief Financial Officers Act of 1990
P.L.   104-208       Federal Financial Management Improvement Act of 1996
P.L.   104-316       General Accounting Office Act of 1996, Section 108, to require DOI-OIG
                      to audit the Central Utah Project Cost Allocation.

General Accounting Office "Government Auditing Standards"

                             ADMINISTRATIVE RESPONSIBILITIES

Office of Management and Budget Circulars and Bulletin:

       A-21          Cost Principles for Educational Institutions
       A-25          User Charges
       A-50          Audit Followup
       A-76          Performance of Commercial Activities
       A-87          Cost Principles for State and Local Governments
       A-88          Indirect Cost Rates, Audit, and Audit Followup at Educational Institutions
       A-102         Grants and Cooperative Agreements With State and Local Governments
       A-110         Uniform Administrative Requirements for Grants and Other Agreements
                       With Institutions of Higher Education, Hospitals, and Other Nonprofit
                       Organizations
       A-122         Cost Principles for Nonprofit Organizations
       A-123         Internal Control Systems
       A-127         Financial Management Systems
       A-128         Audits of State and Local Governments
       A-129         Managing Federal Credit Programs
       A-131         Value Engineering
       A-133         Audits of Institutions of Higher Education and Other Nonprofit
                       Institutions
       97-01         Audit Requirements for Federal Financial Statements (Bulletin)




               Semiannual Report to the Congress: April 1, 1997 - September 30, 1997                           73
                  CRIMINAL AND CIVIL INVESTIGATIVE AUTHORITIES

Criminal investigative authorities include:

      - Title 18, United States Code, section on crime and criminal procedures as they pertain to OIG’s
      oversight of DOI programs and employee misconduct.

Civil and administrative investigative authorities include civil monetary penalty authorities such as those at:

      - Title 31, United States Code, Section 3801 et seq., the Program Fraud Civil Remedies Act.

      - Title 31, United States Code, Section 3729-3733, the False Claims Act.




74            Semiannual Report to the Congress: April 1, 1997 - September 30, 1997
                                        APPENDIX 9
        CROSS-REFERENCES TO THE INSPECTOR GENERAL ACT

                                                                                      Page
Inspector General Act, as amended

Section 4(a)(2)          Review of Legislation and Regulations                           8

Section 5(a)(1)          Significant Problems, Abuses, and Deficiencies                9-28

Section 5(a)(2)          Recommendations With Respect to Significant Problems,         9-28
                         Abuses, and Deficiencies

Section 5(a)(3)          Summary of Audits From Agency’s Previous Report on           69-72
                         Which Corrective Action Has Not Been Completed

Section 5(a)(4)          Matters Referred to Prosecutive Authorities                     v

Section 5(a)(5)          Summary of Instances Where Information Was Refused           N/A*

Section 5(a)(6)          List of Audit Reports                                        30-57

Section 5(a)(7)          Summary of Significant Reports                                9-28

Section 5(a)(8)          Statistical Table - Questioned Costs                           60

Section 5(a)(9)          Statistical Table - Recommendations That Funds Be              61
                         Put To Better Use

Section 5(a)(10)         Summary of Audit Reports Issued Before the                   63-68
                         Commencement of the Reporting Period for Which
                         No Management Decision Has Been Made

Section 5(a)(11)         Significant Revised Management Decisions Made                N/A*
                         During the Reporting Period

Section 5(a)(12)         Management Decisions With Which the                          N/A*
                         Inspector General Is in Disagreement



*N/A: Not Applicable.



              Semiannual Report to the Congress: April 1, 1997 - September 30, 1997     75
                           GENERAL INFORMATION


Send Requests for Publications to:

U.S. Department of the Interior      (202) 208-4599
Office of Inspector General
1849 C Street, NW.
Mail Stop 5341, MIB
Washington, DC 20240

Facsimile Number:                    (202) 208-4998

World Wide Web Site:                 www.access.gpo.gov/doi




HOTLINE
Toll Free Numbers:                   1-800-424-5081
                                     TDD 1-800-354-0996

FTS/Commercial Numbers:              (202) 208-5300
                                     TDD (202) 208-2420

U.S. Department of the Interior
Office of Inspector General
1849 C Street, NW.
Mail Stop 5341, MIB
Washington, DC 20240
U.S. DEPARTMENT OF THE INTERIOR
Office of Inspector General
1849 C Street, N.W.
Washington, D.C. 20240
